> »

V
No.

IN THE
SUPREME COURT OF THE UNITED STATES

KATHLEEN C. HAMPTON,
Petitioner,
v.
PROF-2013-S3 LEGAL TITLE TRUST, BY U.S. BANK NATIONAL
ASSOCIATION, AS LEGAL TITLE TRUSTEE
Respondent.
APPENDIX TO PETITION FOR WRIT OF CERTIORARI
ON APPEAL FROM THE SUPREME COURT OF VIRGINIA
DECISION IN RECORD NO. 201105
By- Kathleen C. Hampton, Petitioner pro se
P.O. Box 154
Bluemont, Virginia 20135
Phone* 540-554-2042
khampton47@yahoo.com

J

APPENDIX
Supreme Court of Virginia Record No. 201105
Loudoun County Circuit Court Civil No. 118605-00
Loudoun County General District Court Case No. GV17013350-00
(Prior Related Case No. GV16004218-00 dismissed 9/26/2016)
App. Page
Appendix A Circuit Court of Loudoun County Final Order granting
Demurrer to PROF-2013-S3 Legal Title Trust, by
US Bank National Association, as Legal Title Trustee,
and dismissed with prejudice to Hampton’s Counterclaims and
Sanctions, Civil No. 118605*00, dated February 7, 2020

1

Appendix B Supreme Court of Virginia Opinion “there is no reversible
error in the judgment complained of’ and Refused the
Petition for Appeal, Record No. 201105, dated March 23, 2021

10

Appendix C Supreme Court of Virginia Denial of the Petition for Rehearing,
Record No. 201105, dated May 14, 2021

11

Appendix D Supreme Court of Virginia Denial of Appellee’s Motion to
Dismiss, Record No. 201105, dated December 11, 2020

12

From the Companion PetitionAppendix E Circuit Court of Loudoun County Final Order
granting Summary Judgment and possession to the
Property to PROF-2013-S3 Legal Title Trust, by US Bank
National Association, as Legal Title Trustee, in the unlawful
detainer action, Civil No. 118604*00, dated February 7, 2020

13

Appendix F Supreme Court of Virginia Opinion “there is no reversible
error in the judgment complained of’ and Refused the
Petition for Appeal, Record No. 201103, dated March 23, 2021

22

Appendix G Supreme Court of Virginia Denial oi the Petition for Rehearing,
Record No. 201103, dated May 14, 2021

23

Appendix H Supreme Court of Virginia Denial of Appellee’s Motion to
Dismiss, Record No. 201103, dated December 11, 2020

24

1

4

N\

App. Page
Other Orders from Proceedings in the Circuit CourtAppendix I Circuit Court of Loudoun County Order dated February 7,
2020, denying Hampton’s Motion for Rehearing or in the
Alternative Motion for a Mistrial Supporting Memorandum
ofLaw, filed December 20, 2019

25

Appendix J Circuit Court of Loudoun County Order dated December 19,
2019, denying Hampton’s Motion for Rehearing or in the
Alternative Motion for a Mistrial, filed November 18, 2019

27

Appendix K Circuit Court of Loudoun County Nunc Pro Tunc Order dated
December 19, 2019, and Order dated November 11, 2019,
denying Hampton’s Motion for Reconsideration and
Supporting Memorandum ofLaw, filed October 25, 2019, and
Hampton’s Motion for Reconsideration ofFurther Support to
Memorandum ofLaw, filed November 1, 2019

29

Appendix L Circuit Court of Loudoun County Order dated October 4, 2019,
denying Hampton’s Motion to Dismiss, filed September 18, 2019

33

Appendix M Constitutional and Statutory Provisions Involved

35

Petitioner’s filings to all Orders aboveIn the Supreme Court of Virginia-

39
40

Appendix N Appellant’s Petition for Rehearing filed in the Supreme Court
of Virginia, Record No. 201105, electronically April 6, 2021
Appendix O Appellant’s Notes of Oral Argument before the Supreme Court
of Virginia, as presented to Justices Lemon, Powell & Chafin,
Record No. 201105, telephonically February 16, 2021
Appendix P Appellant’s Petition for Appeal filed in the Supreme Court
of Virginia, Record No. 201105, posted September 8, 2020
Appendix Q Appellant’s Response to Motion to Dismiss Petition for Appeal
filed in the Supreme Court of Virginia, Record No. 201105,
electronically October 10, 2020

2

41

52

59

103

-)

App. Page
Petitioner’s filings to all Orders aboveIn the Circuit Court of Loudoun County Virginia:
Appendix R Hampton’s Objections to the Final Order on Demurrer
to Counterclaims & Sanctions Action, Civil No. 118605*00,
filed February 21, 2020 (without referenced Petitions in
Supreme Court of Virginia Record No. 180842)
Appendix S Hampton’s Motion for Rehearing or in the Alternative
Motion for a Mistrial Supporting Memorandum ofLaw
(Civil No. 118605*00 & Companion Civil No. 118604*00)
filed December 20, 2019 (without Exhibits 24[+24a*24d] re
Cease & Desist and Exhibit 38 re Bloomberg Audit)

109
110

111

122

Appendix T Hampton’s Motion for Rehearing or in the Alternative
Motion for a Mistrial (Civil No. 118605*00 & Companion
Civil No. 118604*00) filed November 18, 2019 (without
excerpt transcript on rulings from October 18, 2019 hearing)

138

Appendix U Hampton’s Motion for Reconsideration ofFurther Support
to Memorandum ofLawiCivil No. 118605*00 & Companion
Civil No. 118604*00) filed November 1, 2019 (without the
referenced 209 pages of evidence/exhibits identified therein
from related Civil Case No. 98163*00)

146

Appendix V Hampton’s Motion for Reconsideration and Supporting
Memorandum ofLaw(Ci\jl No. 118605*00 & Companion
Civil No. 118604*00) filed October 25, 2019 (with hearing
transcript of January 3, 2017, Supreme Court of Virginia Record
Nos. 170427 & 180842, & Hampton’s Motion for Reconsideration
and Memorandum in Support ofMotion for Reconsideration,
filed January 10, 2017, in related Civil Case No. 98163*00)
Appendix W Hampton’s Motion to Dismiss (Civil No. 118605*00 &
Companion Civil No. 118604*00) filed September 18, 2019
(with #6 Transcript of Hearing of October 4, 2019, together
with List of Exhibits/Documents given to Court and the 1st
& 2nd noted documents thereon- Notes read at GDC 11*14*18
hearing & Hampton’s related Reply Brief to SCOTUS 9*25*19
[No. 18*9127])
3

151
175
224
234

244
249
261
262
264

VIRGINIA:
IN THE CIRCUIT COURT OF LOUDOUN COUNTY

KATHLEEN C. HAMPTON
Plaintiff,
v.
PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Defendant.

)
)
)
)
)
)
)

Civil No. 118605-00

)
)
)
)

FINAL ORDER
On October 18, 2019 this matter came before the Court on the Defendant’s Demurrer to
the Plaintiffs Counterclaim and Sanctions. Ms; Hampton, the. Plaintiff, was present pro se.
Counsel for the Defendant was present.
For reasons stated of record, as memorialized in the attached Transcript of Hearing
Excerpt from October 18. 2019, which is hereby incorporated into this Order, it is hereby
ORDERED that the Demurrer of Defendant PROF-2013-S3 Legal Title Trust, by U.S.
Bank, National Association, as Legal Title Trustee is sustained, and that the Plaintiffs
Counterclaims and Sanctions is dismissed with prejudice.
This Order was prepared by the Court. Endorsements are dispensed with pursuant to
Rule 1:13 and the parlies are granted leave to tile with the Clerk in writing any exception to the
Court's ruling on or before February 21,2020.
This Order is final.

App. 1
t !

(
1

Let the Clerk forward a copy hereof without charge to Ms. Hampton and to counsel for
the Plaintiff.

ENTERED this •

7

day of February. 2020.

Ml

Stephsm E^incavageSjucfe^

App. 2
11

(

ti4~b b

a

2(7 I2O Vtwd
iu** ,

r7i

£•**» •

i

/0 AH lj:

L0^!$Mu

36

'b-i£^:c

pla.iiie^depbSi

<:■

;'We;,Make,!t..Wappen;'

Transcript of Hearing Excerpt
■ Date: October 18, 2019
Case: Prof-2013-S3 Legal Title Trust -v- Hampton

Planet Depos
Phone: 888.433.3767
Email:: transcripts@planetdepos.com
www.pIanetdepos.com

_ '

KiATONTECHNClOGY

App. 3

*

Transcript of Hearing Excerpt
Conducted on October 18, 2019

1 (1 to 4)

1

\

VIRGINIA:

2

IK THE CIRCUIT COURT OF LOUDOUN COUNTY

2

3
A

3
1

PROF-ZeiJ-Sl LEGAL
TITLE TRUST.

S

Plaintiff,

6

VS

!
CASE NO.
CLOSt18584-00

ON BEHALF OF PLAINTIFF:

3

LISA HUOSON KIN, ESQUIRE

«

SAMUEL I. WHITE, PC

E

5040 Corporate Woods Drive, Suite 320
Virginia Beach, Virginia
(757) 490-9284

7

KATHLEEN C. HAHPTOH,

6

I

Defendant.

7

9

APPEARANCES

234SZ

8

18

Recorded Hearing

5

n

(Judge's Ruling Only Transcribed)

10

KATHLEEN C. HaHPTON, PRO SE

12

Friday, October TS. 2019

11

P.O. Bo* 154

12

Bleunont, Virginia

12

(540) 554*2042

13

1:11 o.n.

OH BEHALF OF DEFENDANT:

20135

14
15
14

16

15

17

16

18

17

19
20

Job Ho.:

269223

21

Pago*:

22

Transcribed by:

IS

1-21

19

Eonnle Panek

20
21
22

4

2
1

Recorded Hearing held pursuant to

I

CONTENTS

2

agreeuent, before Donald £. Lane, II, Notary

2

3

Public of the State of Virginia, at the Circuit

3

4

Court of Loudoun County, 15 E. Market Street,

4

EXHIBITS

5

Leesburg. Virginia, 20176.

5

(None.)

6

6

7

7

8

8

9

S

10

10

IT

11

12

12

13

13

14

14

15

15

16

16

17

17

18

IS

19

19

20

20

21

21

22

22

RULING BY:

PAGE
S

Judge Sineavage

PLANET DEPOS
888.433.3767 | WWW.PLANETDEPOS.COM

App. 4

>-

Transcript of Hearing Excerpt
Conducted on October 18, 2019

7

5

1

PROCEEDINGS
2
JUDGE SINCAVAGE: All right. Thank you
3 for your patience. There's in this case a lot to
4 think about, a lot to look at I know these are
5 important matters to both parties and they’re
6 important to the court as well, and I want to — I
7 want to say I do appreciate that clearly each of
8 ya'll have very different positions onthis
9 litigation.
And ya'll have been at it for a while
10
11 as the record shows, and I do appreciate that
12ya'U have been able to present professional
13 presentations here and you're not —
^notwithstanding your differences, and I say this
15 because sometimes it isn't this way where lawyers
16 and litigants are sniping at each other and doing
17 all that, and that di dn't happen here and the
18 court does appreciate that
19
Now, let me just say to Ms. Hampton
20 that a lot of the arguments that you put forward
21 today and in your papers really sounded and came
22 across like a closing argument in a case where
6

2 CS to 8)

And what I mean by that is we need to
2 keep in mind that where we are at in this
3 litigation given previous rulings and given the
4 state of the law is that issues and facts that
5 bear on the validity or invalidity of title aren't
6 material to the inquiry that is being made here
7 today because of the Paris case.
S
The court's jurisdiction on this ~
9 these matters is derivative of die general court's
10 jurisdiction which per Paris clearly doesn't
11 include the ability, the jurisdiction, the power,
12 the authority to try issues of title.
Now, interestingly at another stage in
13
14 this case it's been Ms. Hampton, and even today
15 it's been Ms. Hampton who has advocated this
16 position and today even continuing in her quest to
17 have the general district court initially and now
18 this court dismiss Profs case because of Paris,
19 because it’s her position that the case actually
20 shouldn't be here because it involves ’matters of
21 title.
Now, the court has ruled on that and
22
1

8

1 you’re challenging the foreclosure and the title,
1 the court did decline to dismiss the claim because
2 and I understand that.because I understand your
2 the court found for reasons stated at that hearing
3 position as to why it is that you think tilings
3 that Ms. Hampton's claim of — that tide was
4 should go in a direction in this litigation and
4 invalid was not a bona fide claim under the law.
5 why you should be granted certain relief.
5 Obviously Ms. Hampton disagrees with the court's
And conversely there wasn't really a
6
6 decision to deny the motion to dismiss.
7 whole lot of your presentation here today that was
It doesn't then allow her or any
7
8 really responsive to the issues that were before
8 litigant to back up now and ignore Paris, ignore
9 tiie court, and that's the motion for summary
9 law that you've cited and relied on in the
lOjudgmentand the demurrer, and 1 need to decide
10 litigation of this case and continue to want to
11 the motion for summary judgment and I need to
11 assert, attacks the validity of the tide where
12 decide the demurrer.
12 this case arose in general district court and now
I'm not here today to hear and decide a
13 is in circuit court after appeal when the law
13
14 closing argument in a case that isn't really
14 clearly indicates otherwise.
15before the court, so the issue on summary judgment 15
Ms. Hampton can't on the one hand
16 as we have heard said a couple of times here today 16 trumpet the law and say you can't have this type
17 and have seen the papers, are there any genuine
17 of case here where a title is tried, I want it
18 disputes of material facte. And 1 think an
] 8 dismissed, and then continue to have title
19 important word there is -- there's a lot of
19 interjected into the issues that she wants tried,
20 important words there, but one of the most
20 so the issue in the plaintiffs claim is an
21 important words for this analysis is material
2 i unlawful detainer claim and nothing more.
22 facts.
So the materiality of the dispute must
22
PLANET DEPOS
888.433.3767 | WW.PLANETDEPOS.COM

App. 5

Transcript of Hearing Excerpt
Conducted on October IB, 2019
9

1 be seen in the light of unlawful detainer action
2 and unlawful detainer action only, so start with
3 looking at the summons. There was a summons filed
4 for unlawful detainer in January' o f 2017 and you
5 look at the code 801126.
6
Let's see, I always - D4, if on the
7 day of a foreclosure sale of a single family
8 residential dwelling unit the former owner remains
9 in possession of the dwelling - said dwelling
10 unit such former owner becomes a tenant at
11 suffering. Such tenancy may be terminated by
12 written termination notice from the successor
13 owner given to such tenant at least three days

14 prior to the effective date of termination.
15
So when we examine the record properly
16 in this case of matters that can be considered on
17 summary judgment, including admissions, we have
18 listed as Exhibit 1 to the motion for summary
19 judgment the deed of foreclosure which is
20 instrument number 20160513 which was referenced in
21 the request for admissions.
22
And among the responses to that is Ms.

11

1 litigation, and as well because there's been an
2 attempt to attack in a previous case the validity
3 of the foreclosure. That case was dismissed at
■4 demurrer, and that is under the law a decision on
5 the merits.
Now, Ms. Hampton has strenuously and
6
7 continuously contended that the prior case was not
8 heard on the merits, and I can understand a — an
9 argument that says that because there wasn't a
10 trial, but you don't have to have a trial to under
11 the law have the decision be a merits decision,
12 and I think part of that — from hearing the
13 argumentpart of that position is taken from Ms,
14 Hampton.
And one of the things she said is that
15
16 -- well, she said multiple times she wasn't
17 afforded due process, but I think part of what Ms.
18 Hampton's contention with this process has been is
19 that as she said today she never got to establish
20 the truth of her allegations, and I understand
21 that in the sense that in that case there was no
22 trial, there was no evidence.

10

1 Hampton's admission that it's a true copy of what
2 Samuel I. White filed in the county records, said
3 deed of foreclosure to Green T. Prof as filed
4 electronically and recorded on May 13, 2016 nearly
5 6 months after the trustee of sale — after
6 trustee's sale of 12-7-15.
As well in the request for admissions
7
8 there's a reference to notices to vacate, one on
9 June 2,2016 wherein Ms. Hampton admits that on
10 June 7th, 2016 she received notice to vacate from
11 the Marinosci Law Group. Obviously all these
12 regard the pertinent subject property.
13
Those matters being admitted in the
14courfs view leave no material issue in genuine
15 dispute because they conclusively demonstrate as a
16matter of law that Prof is entitled to possession
17 of the subject property under the unlawful
18 detainer statute.
19
The demonstration of the deed of
20 foreclosure which has not been found to be
21 invalid, for the reasons that have been stated
22previously such an attack isn't cognizable in this

12

You said there was no discovery and you
1
2 never got to call a witness to say hey, what Pm
3 alleging is true. In fact, though, that case
4 which was decided in a demurrer setting the court
5 assumes that all toe facts that you alleged are
6 true, okay, as well as any implied facts and any
7 reasonable inferences.
They're looked at in toe light most
8
9 favorable to toe pleader, which in that case was
lOMs. Hampton, so even though there wasn't a trial
11 the pleader in tbat case, Ms. Hampton, actually
12 had the benefit of what Til just call a fast
13 track to toe development ofyour allegations and
■ 14 the facts because at a demurrer standard they're
15 taken as true by the circuit court and then
16 reviewed by an appellate court
The only exception to that is if
17
i 8 there's any contrary demonstration and exhibits
19 that may be attached to a complaint they get
20 deference and there's a fast track because even
21 though in deciding toe demurrer where toe court
22 says okay, I'm looking at tins complaint,

PLANET DEPOS
B8ft.433.3767 I \TO7W.PtANETDEPOS.COM

App. 6

3 (9 to 12)

Transcript of Hearing Excerpt

4 (13 to 16)

Conducted on October 18,2019
13

1 everything that Ms. Hampton is alleging I'm taking
2 as true, but even so there is not a cognizable
3 claim here under the law of die commonwealth.
And you got to that point where
4
5 everything is accepted as true without having to
6 put on witnesses or put on evidence or argue the
7 weight and credibility because all those issues
8 were decided in your favor in consideration of the
9 demurrer.
10
So that's in the courts view a counter
11 to a position that the court didn't consider your
12allegations after they've been allowed to develop
13 because you're the maker of the allegations and
14 the court said okay, those are true, so I think
15 that's in part why these decisions on demurrers
16canbe seen as decisions on the merits.
17
So this is all part of saying that the
18 deed of foreclosure and its provisions stands as
19 valid as does the notice to vacate, and as a
20 matter of law I find that plaintiff is entitled to
21 possession, so the court grants the plaintiffs
22 motion for summary judgment and grants possession

15

1 look aL Under the doctrine of res judicata a
2 party whose claim for relief arising from
3 identified conduct a transaction or an occurrence
4 is decided on the merits by final judgment shall
5 forever be barred from prosecuting any second or
6 subsequent civil action against the same opposing
7 parly or parties on any claim or cause of action
8 that arises from the same conduct, transaction or
9 occurrence whether or not die legal theory or
] 0 rights asserted in the second or subsequent action
11 were raised in the prior lawsuit
So when I look at the claim, the
12
13 counterclaim and sanctions document in the light
14 most favorable it is a pleading that again seeks
15 to challenge the validity of the foreclosure and
16 the plaintiffs subsequent purchase of die
17 property. Those are the very issues that were
18 subject to the litigation in the circuit court
19 case number 98163.
There's 98 — yeah, 98163, and that
20
21 case has been much referenced and written about
22 and talked about That case was decided. It was
16

14

1 of the subject property to ihe plaintiff. On the
2 demurrer there were several bases of demurrer that
3 were put forward. The one I’m going to address
4 first is the one of res judicata.
In looking at the document called
5
6 counterclaim and sanctions, which the court again
7 as I just said a moment ago reviews in the light
8 most favorable to the pleader which in this case
9 is Ms. Hampton, giving all implied facts and
10 inferences seen in die light most favorable which •
111 think was important, especially in this
12 circumstance because the document titled
13 counterclaims and sanctions really reads much like
14 a history of the case and is real ly in the court’s
15 view lacking in clarity in identifying claims
16 which in the court's view I think alone would be a
17basis to sustain a demurrer because of lack of a
18 cognizable claim.
But that wasn't cited as a ground by
19
20the defendant, so the court can't really sustain a
21 demurrer on that ground. The ground of res
22 judicata, though, is one Oral the court took a .

1 dismissed, and as I said a moment ago it was a
2 merits decision. It was the same transaction and
3 occurrence and all the issues relating to the
4 foreclosure sale either were or should have been
5 litigated in that case, so on that ground I find
6 that the demurrer to the counterclaim should be —
7 to the document called counterclaim and sanctions
8 should be sustained in all respects. Any claim for sanctions, ifs hard to
9
10 tell from the paper what was actually intended11 there because Ms. Hampton’s language was such that
12 the law was I sanctioned the plaintiff or so on
] 3 and so forth, didn't really read as many sanctions
14 claims would, but in any event it didn't state a
] 5 proper claim for a court to award sanctions so
16 that link of the document counterclaims and
17 sanctions is — the demurrer is also sustained.
Having sustained the demurrer to that
18
19 pleading the court does order that the
20 counterclaims and sanctions be dismissed with
21 prejudice. I am not going to take any action.
22 Ms. Kim, you talked about a potential other

PLANET DEPOS
4^3.'’'767 ! W^WW.PLANETDEPOS.COM

App. 7

X.

Transcript of Hearing Excerpt
Conducted on October 18, 2019
17

1 hearing in the future but I think someone's got to
2 file something, something's got to happen before
3 we do that
I think tbaf s a little premature. I’m
4
5 going to direct Ms. Kim to draft an order

.5 (17 to 20)
19

1
JUDGE SINCAVAGE: This is in 118604 and
2 118605.
3
MS. HAMPTON: Correct
4
JUDGE SINCAVAGE: And based on the
5 court's ruling here today there's nothing to be
6 tried, so there's no trial next week. All right
7
MS. HAMPTON: So there's no trial
8 Monday?
9
JUDGE SINCAVAGE: There's no trial
10 The next step in this case is to get this order
11 entered that reflects the court's ruling. All

6 consistent with the court's ruling and submit
7 that

8 •
MS. KIM: Would Your Honor want an
9 orderthat has findings and conclusions of law or
10 just a summary?
11
JUDGE SINCAVAGE: Maybe what you ought
12 to do is get a transcript of my ruling and attach
12 right?
13 that
13
MS. KIM: Yes, Your Honor. Thankyou.
14
MS. KIM: I don't have that Whatl
14
JUDGE SINCAVAGE: Ail right. Thank you
15 have today is just a summary order, so I’d prefer
15 all
16 to wait
16
(The portion of the recorded hearing
17
JUDGE SINCAVAGE: Okay. All right
17 requested to be transcribed was concluded at 420
18 Ms. Hampton, certainly your objections to die
18p.ra.)
19 court's ruling are noted. You've opposed them in
19
20 writing. You've opposed them in argument here
20
21 today, and the next step is we're going to get an
21
22 order circulated. I don't — do we need to set
22
18

20

1 that for entry, Ms. Kim, or do you —
1
CERTIFICATE OF COURT REPORTER
2
MS. KIM: We--1 don't know how long
I, Donald E. Lane, H, the officer
2
3 it will take to order, but we are fine for the
3 before whom die foregoing proceedings were taken,
4 next — the first Friday in November or first
4 do hereby certify that said proceedings were
5 Friday in —
5 electronically recorded by me; and that I am
6
6 neither counsel for, related to, nor employed by
JUDGE SINCAVAGE: All right HI tell
7 you what I'll see what ya'II can accomplish
7 any of the parties to this case and have no
8 without —
8 interest, financial or otherwise, in its outcome.
MS. KIM: Sure.
9
9
10
JUDGE SINCAVAGE: If you need to put i t 10
11 on the docket you know how to put it on the
11
12 docket
1213
MS. KIM: Correct
13 Donald E. Lane, n, Court Reporter
14
JUDGE SINCAVAGE: All right And Ms. 14
15 Hampton, just so there's no misunderstandings this
15
16 is a final order in the matters that are before
16
17 the court in 981 — hold on. That's die wrong
17
18 numbers.
18
MS. HAMPTON: 98163.
19
19
JUDGE SINCAVAGE: That's the old case 20
20
21 number.
21
MS. HAMPTON: Yes.
22
22
PLANET DEPOS
888.433.3767 I WWW.PLANETDEPOS.COM

App. 8

Transcript of Hearing Excerpt
Conducted on October IS, 2019

6 C21 to 24)

21

1

CERTIFICATE OF TRANSCRIBER
2
I, Bonnie K. Panek. do hereby certify
3 .that the foregoing transcript is a true and
4 correct record of the recorded proceedings; that
5 said proceedings were transcribed to the best of
6 my ability from the audio recording and supporting
7 information: and that I am neither couasel for,
8 related to, nor employed by any of the parties to
9 this case and have do interest, financial or
10 otherwise, in its outcome.
11
12

14 BONNIE K. PANEK
15 OCTOBER 23, 2019
16
17

18
19
20

21
22

A COPY-TEST!:
am

PLA.NET DEPO-S
H2S.4T--.w67 ! WWAV.PI.ANETDEPOS.COM

App. 9

VIRGINIA:
Jtt the Supreme Count of Vinglniu heid at the Supreme Count Ruitduig, in the
City, of Richmond on 5ueoday the 23nd day, of Munch, 2021.
Kathleen C. Hampton,
against

Appellant,

Record No. 201105
Circuit Court No. 118605-00

PROF-2013-S3 Legal Title Trust,
By U.S. Bank National Association,
as Legal Title Trustee,

Appellee.

From the Circuit Court of Loudoun County
Upon review of the record in this case and consideration of the argument submitted in
support of and in opposition to the granting of an appeal, the Court is of the opinion there is no
reversible error in the judgment complained of. Accordingly, the Court refuses the petition for
appeal.
A Copy,
Teste:
Douglas B. Robelen, Clerk
By:

App. 10

VIRGINIA:
3ft the Supreme Court of. Virginia held at the Supmne Court building, in the
City of {Richmond on Stidag the 14th dag of Mag, 2021.
Kathleen C. Hampton,
against

Appellant,

Record No. 201105
Circuit Court No. 118605-00

PROF-2013-S3 Legal Title Trust,
By U.S. Bank National Association,
as Legal Title Trustee,

Appellee.

Upon a Petition for Rehearing
On consideration of the petition of the appellant to set aside the judgment rendered herein
on March 23,2021 and grant a rehearing thereof, the prayer of the said petition is denied.
A Copy,
Teste:
Douglas B. Robelen, Clerk
By:
Deputy Clerk

flffe^Yd/X CL
App. 11

VIRGINIA:
3n the Supreme Gawd of Vinyima heid at the Supneme Gowit tBuiidmg. in the
Gity of. 3Uchmend on 3-niday the 11th day. of, tDecemhex, 2020.
Kathleen C. Hampton,
against

Appellant,

Record No. 201)05
Circuit Court No. CL 118605-00

PROF-2013-S3 Legal Title Trust,
by U.S. Bank National Association,
as Legal Title Trustee,

Appellee.

From the Circuit Court of Loudoun County
On October l, 2020 came the appellee, by counsel, and filed a motion to dismiss m this
case.

On October 13, 2020 came the appellant, who is self-represented, and filed her opposition
thereto.
Upon consideration whereof, the Court denies the motion.

A Copy,
Teste:
Douglas B. Robelen, Clerk
—7

By;
Deputy Clerk

App. 12

>•

VIRGINIA:
IN THE CIRCUIT COURT OF LOUDOUN COUNTY

PROF-2013-S3 LEGAL TITLE TRUST,
)
BY U.S. BANK NATIONAL ASSOCIATION, )
AS LEGAL TITLE TRUSTEE
)
Plaintiff,
v.
KATHLEEN C. HAMPTON
Defendant.

)
)
)
)
)
)
)
)

Civil No. 118604-00

FINAL ORDER
On October 18,2019 this matter came before the Court on the Plaintiffs Motion for
Summary Judgment. Counsel for the Plaintiff was present. Ms. Hampton, the Defendant, was
present pro se.
For reasons stated of record, as memorialized in the attached Transcript of Hearing
Excerpt from October 18, 2019, which is hereby incorporated into this Order, it is hereby
ORDERED that the Motion for Summary Judgment of Plaintiff PROF-2013-S3 Legal
Title Trust, by U.S. Bank, National Association, as Legal Title Trustee is granted, and that
judgment is granted in favor of the Plaintiff in this unlawful detainer action. Accordingly, it is
also

ORDERED that the Plaintiff PROF-2013-S3 Legal Title Trust, by U.S. Bank, National
Association, as Legal Title Trustee is granted possession of the Property known as and located
at 34985 Snickersville Turnpike, in Round Hill, Virginia 20141.

£T
App. 13
i i

•v

%

This Order was prepared by the Court. Endorsements are dispensed with pursuant to
Rule 1:13 and the parties are granted leave to file with the Clerk in writing any exception to the
Court’s ruling on or before February 21.2020.
This Order is final.
Let the Clerk forward a copy hereof without charge to counsel for the Plaintiff and to
Ms. Hampton.

ENTERED this

7

day of February, 2020.

Stepheq^E.^nicavagefdu'dg^

App. 14
11

i

{AMJfrUU*

'iaJ Or*1
Co//^&otl

PMiietPepds*
:We;;Make';!tijiappep'

Transcript of Hearing Excerpt
■ Date; October 18, 2019
Case: Prof-2013-S3 Legal Title Trust -v- Hampton

Planet Depos
Phone: 888.433.3767
Email:: transcripts@planetdepos.com
www.planetdepos.com

•M. *

■,:W.°Bi£WjbE CQURiREPORtlNG&LITIGATIONTECHNOLOGY

App. 15

's/

Transcript of Hearing Excerpt
Conducted on October 18, 2019

i ci to 4)

3
1

VIRGINIA:

2

1

IK THE CIRCUIT COURT OF-LOUDOUN COUNTY

2

3
4

PROF-201J-S3 LEGAL
TITLE TRUST.

5

ON BEHALF OF PLAINTIFF:

3

LISA HUOSOH KIH, ESQUIRE

4

SAMUEL I. WHITE, PC

Plaintiff,

s
7

APPEARANCES

vs

CASE NO.

cioomsei-co

kathlcen c.

Hampton,
Defendant.

8
9

5

S040 Corporate Woods Orive, Suite 120

6

Virginia Beach, Virginia

7

(757) 490-9284

23462

8

10

Recorded Hearing

11

(Judge's Ruling Only Transcribed)

12

Friday, October 18, 2019

13

1:11 p.n.

:s

OH BEHALF OF DEFENDANT:

10

KATHLEEN C-. HaHPTON, PRO SE

11

P.O. Box 1S4

12

Bleunont, Virginia

13

(540) 554-2642

14

IS
IS

20135

14

17

15

18

16
17

1*
20 Job Ho.:
21 Pages:

263223

18

1-21

22 Transcribed by:

19
Bonnie Panek

20
21
22

2

i

Recorded Hearing held pursuant to

4
1

CONTENTS

2

agreecent, before Donald E. Lane, II, Notary

2

3

Public of the State of Virginia, at the Circuit

3

4

Court of Loudoun County, 18 E. Harket Street.

4

EXHIBITS

5

Leesburg, Virginia, 20176.

S

(None.)

6

6

7

7

a

a

9

9

IB

16

M

11

12

12

13

13

14

14

15

15

16

16

17

17

IS

IS

1.9

19

20

20

21

21

22

22

RULING BY:

PAGE

Judge Sincavage

S

PLANET DEPOS
888.433.3767 | WW.PLANETDEPOS.COM
App. 16

Transcript of Hearing Excerpt

2 (5 to 8)

Conducted on October 18, 2019
7

5

PROCEEDINGS
1
JUDGE SINCAVAGE: All right. Thank you
2
3 for your patience. There's in this, case a lot to
4 think about, a lot to look at. I know these are
5 important matters to both parties and they're
6 important to the court as well, and I want to — I
7 want to say I do appreciate that clearly each of
8 ya’ll have very different positions on this
9 litigation10
And ya’ll have been at it for a while
11 as the record shows, and I do appreciate that
12ya'll have been able to present professional
13presentations here and you're not ~
14 notwithstanding your differences, and I say this
15 because sometimes it isn't this way where lawyers
16 and litigants are sniping at each other and doing
17 all that, and that didn't happen here and the
18 court does appreciate that
19
Now, let me just say to Ms. Hampton
20 that a lot of the arguments that you put forward
21 today and in your papers really sounded and came
22 across like a closing argument in a case where

And what I mean by that is we need to
1
2 keep in mind that where we are at in this
3 litigation given previous rulings and given the
4 state of the law is that issues and facts that
5 bear on the validity or invalidity of title aren't
6 material to the inquiry that is being made here
7 today because of the Paris case.
The court's jurisdiction on this -8
9 these matters is derivative of the general court's
10 jurisdiction which per Paris clearly doesn't
11 include the ability, the jurisdiction, the power,
12 die authority to try issues of title.
Now, interestingly at another stage in
13
14this case ifs been Ms. Hampton, and even today
15 it’s been Ms. Hampton who has advocated this
16 position and today even continuing in her quest to
17 have the general district court initially and now
18 this court dismiss Profs case because of Paris,
19 because it's her position that the case actually
20 shouldn't be here because it involves matters of
21 title.
Now, the court has ruled on that and
22
8

6

1 you're challenging the foreclosure and the title,
2 and I understand that because I understand your
3 position as to wby it is that you think tilings
4 should go in a direction in this litigation and
5 why you should be granted certain relief
And conversely there wasn't really a
6
7 whole lot of your presentation here today that was
8 really responsive to the issues that were before
9 the court, and that's the motion for summary
I Ojudgment and the demurrer, and I need to decide
II the motion for summary judgment and I need to
12 decide the demurrer.
Tm not here today to hear and decide a
13
14 closing argument in a case that isn't really
15before the court, so the issue on summary judgment
16 as we have heard said a couple of times here today
17 and have seen the papers, are there any genuine
18 disputes of material facts. And I think an
19 important word there is -- there’s a lot of
20 important words there, but one of the most
21 important words for this analysis is material
22 facts.

1 the court did decline to dismiss the claim because
2 the court found for reasons stated at that hearing
3 that Ms. Hampton's claim of — that title was
4 invalid was not a bona fide claim under the law.
5 Obviously Ms. Hampton disagrees with the court's
6 decision to deny the motion to dismiss.
It doesn’t then allow her or any
7
8 litigant to back up now and ignore Paris, ignore
9 law that you've cited and relied on in the
lQlitigation ofthis case and continue to want to
11 assert, attacks the validity of the tide where
12 this case arose in general district court and now
13 is in circuit court after appeal when the law
14 clearly indicates otherwise.
Ms. Hampton can't on the one hand
15
16 trumpet the law and say you can't have this type
17 of case here where a title is tried, I want it
18 dismissed, and then continue to have title
19 interjected into the issues that she wants tried,
20 so the issue in the plaintiffs claim is an
21 unlawful detainer claim and nothing more.
So the materiality of the dispute must
22

PLANET DEPOS
888.433.3767 | mW.PIANETDEPOS.COM

App. 17

Transcript of Hearing Excerpt
Conducted on October 18, 2019
9

1 be seen in tbe light of unlawful detainer action
2 and unlawful detainer action only, so start with
3 looking at the summons. There was a summons filed
4 for unlawful detainer in January of 2017 and you
5 took at the code 801126.
6
Let's sec, I always — D4, if on the
7 day of a foreclosure sale of a single family
8 residential dwelling unit the former owner remains
9 to possession of the dwelling — said dwelling
10 unit such former owner becomes a tenant at
11 suffering. Such tenancy may be terminated by
12 written termination notice from the successor
13 owner given to such tenant at least three days
14 prior to the effective date of termination.
15
So when we examine the record properly
16 to Ihis case of matters that can be considered on
17 summary judgment, including admissions, we have
18 listed as Exhibit 1 to tbe motion for summary
19 judgment the deed of foreclosure which is
20 instrument number 20160513 which was referenced in
21 the request for admissions.
22
And among the responses to that is Ms.

li

1 litigation, and as well because there's been an
2 attempt to attack in a previous case the validity
3 of the foreclosure. That case was dismissed at
4 demurrer, and that is under the law a decision on
5 the merits.
6
Now, Ms. Hampton has strenuously and
7 continuously contended that the prior case was not
8 heard on the merits, and I can understand a — an
9 argument that says that because there wasn't a
10 trial, but you don't have to have a trial to under
11 the law have the decision be a merits decision,
12 and I think part of that — from hearing the
13 argument part of that position is taken from Ms.
14 Hampton.
And one of the things she said is that
15
16-- well, she said multiple times she wasn't
17 afforded due process, but I think part of what Ms.
18 Hampton's contention with this process has been is
19 that as she said today she never got to establish
20 the truth of her allegations, and I understand
21 that in the sense that in that case there was no
22 trial, there was no evidence.

10

1 Hampton's admission that it's a true copy of what
2 Samuel L White filed in the county records, said
3 deed of foreclosure to Green T. Prof as filed
4 electronically and recorded on May 13,2016 nearly
5 6 months after the trustee of sale -- after
6 trustee's sale of 12-7-15.
As well in the request for admissions
7
8 there's a reference to notices to vacate, one on
9 June 2,2016 whereinMs. Hampton admits thaton
10 June 7th, 2016 she received notice to vacate from
11 tiie Marinosci Law Group. Obviously all these
12 regard the pertinent subj ect property.
13
Those matters being admitted in the
14 court's view leave no material issue in genuine
15 dispute because they conclusively demonstrate as a
16matter of law that Prof is entitled to possession 17 of the subject property under the unlawful
18 detainer statute.
19
The demonstration of the deed of
20 foreclosure which has not been found to be
21 invalid, for the reasons that have been stated
22 previously such an attack isn't cognizable in this

12

You said there was no discovery and you
1
2 never got to call a witness to say hey, what I'm
3 alleging is true. In fact, though, that case
4 which was decided in a demurrer setting, the court
5 assumes that all the facts that you alleged are
6 true, okay, as well as any implied facte and any
7 reasonable inferences.
• They're looked at in the light most
8
9 favorable to the pleader, which in that case was
10 Ms. Hampton, so even though there wasn’t a trial
11 the pleader in that case, Ms. Hampton, actually
12 had the benefit of what Til just call a fast
13 track to the development of your allegations and
14 the facts because at a demurrer standard they're
15 taken as true by the circuit court and then
16 reviewed by an appellate court
The only exception to that is if
17
18 there’s any contrary demonstration and exhibits
; 19 that may be attached to a complaint they get
20 deference and there's a fast track because even
21 though in deciding the demurrer where the court
22 says okay, I'm looking at this complaint,

PLANET DEPOS
888.433.3767 I WWW.PIANETDEPOS.COM
App. 18

3 C9 to 12)

Transcript of Hearing Excerpt

4 (13 to 16)

Conducted on October 18, 2019
13

1 everything that Ms. Hampton is alleging I'm taking
2 as true, but even so there is not a cognizable
3 claim here under the law of the commonwealth.
And you got to that point where
4
5 everything is accepted as true without having to
6 put on witnesses or put on evidence or argue the
7 weight and credibility because all those issues
8 were decided in your favor in consideration of the
9 demurrer.
10
So that's in the court's view a counter
11 to a position that the court didn't consider your
12allegations after they've been allowed to develop
13 because you're the maker of the allegations and
14 the court said okay, those are true, so I think
15 that's in part why these decisions on demurrers
16 can be seen as decisions on toe merits.
17
So this is all part of saying that the
18 deed of foreclosure and its provisions stands as
19 valid as does the notice to vacate, and as a
20 matter of law I find that plaintiff is entitled to
21 possession, so toe court grants the plaintiffs
22 motion for summary judgment and grants possession

IS

1 look at Under the doctrine of res judicata a
2 party whose claim for relief arising from
3 identified conduct a transaction or an occurrence
4 is decided on the merits by final judgment shall
5 forever be barred from prosecuting any second or
6 subsequent civil action against toe same opposing
7 party or parties on any claim or cause of action
8 that arises from toe same conduct, transaction or
9 occurrence whether or not toe legal theory or
10 rights asserted in the second or subsequent action
11 were raised in toe prior lawsuit
So when I look at toe claim, the
12
13 counterclaim and sanctions document in. toe light 14 most ftivorable it is a pleading that again seeks
15 to challenge toe validity of toe foreclosure and
16 toe plaintiffs subsequent purchase of the
17 property. Those are the very issues that were
18 subject to the litigation in toe circuitcourt
19case number 98163.
There's 98 — yeah, 98163, and that
20
21 case has been much referenced and written about
22 and talked about That case was decided. It was

14

16

1 dismissed, and as I said a moment ago it was a
1 of toe subject property to the plaintiff. On the
2 demurrer there were several bases of demurrer that 2 merits decision. It was the same transaction and
3 occurrence and all toe issues relating to the
3 were put forward. The one I'm going to address
4 foreclosure sale either were or should have been
4 first is the one of res judicata.
5 litigated in that case, so on that ground I find
In looking at the document called
5
6 that the demurrer to the counterclaim should be —
6 counterclaim and sanctions, which the court again
7 to the document called counterclaim and sanctions
7 as I just said a moment ago reviews in the light
8 should be sustained in all respects.
8 most favorable to the pleader which in this case
Any claim for sanctions, it's hard to
9 is Ms. Hampton, giving all implied facts and
9
10 tell from the paper what was actually intended.
10 inferences seen in the light most favorable which
11 there because Ms. Hampton's language was such that
111 think was important, especially in this
12 the law was I sanctioned the plaintiff or so on
12 circumstance because the document titled
13 counterclaims and sanctions really reads much like 13 and so forth, didn't really read as many sanctions
14 claims would, but in any event it didn’t state a
14 a history of toe case and is really in the court's
15 proper claim for a court to award sanctions so
15 view lacking in clarity in identifying claims
16 that link of toe document counterclaims and
16 which in the court's view I think alone would be a
17
sanctions is -- the demurrer is also sustained.
17 basis to sustain a demurrer because of lack of a
Having sustained toe demurrer to that
18 cognizable claim
18
19 pleading the court does order that the
But that wasn't cited as a ground by
19
20 counterclaims and sanctions be dismissed with
20the defendant, so the court can’t really sustain a
21 prejudice. I am not going to take any action.
21 demurrer on that ground. The ground of res
22 Ms. Kim, you talked about a potential other
22 judicata, though, is one that the court took a
PLANET DEPOS
888.433.3767 | WW.PlANETDEPOS.COM

App. 19

Transcript of Hearing Excerpt

.5 C17 to 20)

Conducted on October 18,2019
17

1 hearing in the future but I think someone's got to
2 file something, something's got to happen before
3 we do that.
4
I think that's a little premature. I'm
5 going to direct Ms. Kim to draft an order
6 consistent with the courts ruling and submit
7 that.
8
MS. KIM: Would Your Honor want an
9 order that has findings and conclusions of law or
10 just a summary?
11
JUDGE SINCAVAGE: Maybe what you ought
12 to do is get a transcript of my ruling and attach
13 that
14
MS. KIM: I don't have that. Whatl
15 have today is just a summary order, so I'd prefer
16 to wait
17
JUDGE SINCAVAGE: Okay. All right.
18 Ms. Hampton, certainly your objections to the
19 court's ruling are noted. You’ve opposed them in
20 writing. You've opposed them in argument here
21 today, and the next step is we're going to get an
22 order circulated. I don't — do we need to set

19

1
JUDGE SINCAVAGE; This is in 118604 and
2 118605.
MS. HAMPTON: Correct
3
4
JUDGE SINCAVAGE: And based on the
5 court's ruling here today there's nothing to be
6 tried, so there's no trial next week. All right.
7
MS. HAMPTON: So there's no trial
8 Monday?
JUDGE SINCAVAGE: There's no trial
9
10 The next step in this case is to get this order
11 entered that reflects the court's ruling. All
12 right?
MS. KIM: Yes, Your Honor. Thankyou.
13
JUDGE SINCAVAGE: All right. Thankyou
14
15 alL •
16
(The portion of the recorded hearing
17 requested to be transcribed was concluded at 4:20
18p.m.)
19
20
21

22

18

1 that for entry, Ms. Kim, or do you —
2
MS. KIM: We —I don't know how long
3 it will take to order, but we are fine for the
4 next — the first Friday in November or first
5 Friday in ~
JUDGE SINCAVAGE: All right Til tell
6
7 you what. I'll see what ya'll can accomplish
8 without —
MS. KIM: Sure.
9
10
JUDGE SINCAVAGE: If you need to put it
11 on the docket you know how to put it on the
12 docket
MS. KIM: Correct
13
14
JUDGE SINCAVAGE: All right And Ms.
15 Hampton, just so there's no misunderstandings this
16is a final order in the matters that are before
17 the court in 981 — hold on. That’s the wrong
18 numbers.
MS. HAMPTON: 98163.
19
JUDGE SINCAVAGE: That's the old case
20
21 number.
MS. HAMPTON: Yes.
22

20

1

2
3
4
5
6
7
8
9
10
11

CERTIFICATE OF COURT REPORTER
I, Donald E. Lane, n, the officer
before whom the foregoing proceedings were taken,
do hereby certify that said proceedings were
electronically recorded by me; and that I am
neither counsel for, related to, nor employed by
any ofthe parties to this case aod have no
interest, financial or otherwise, in its outcome.

13 Donald E. Lane, H, Court Reporter
14
15
16
17
18
19
20
21
22

PLANET DEPOS
888.433.3767! WWW.PLANETDEPOS.COM

App. 20

c-

Transcript of Hearing Excerpt
Conducted on October 18,2019

6 (21 to 24)

21

1
CERTIFICATE OF TRANSCRIBER
2
I, Bonnie K. Panek do hereby certify
3 that file foregoing transcript is a true and
4 correct record of the recorded proceedings; that
5 said proceedings were transcribed to the best of
6 my ability from the audio recording and supporting
7 information; and that I am neither counsel for,
8 related to, nor employed by any of the parties to
9 this case and have no interest, financial or
10 otherwise, in its outcome.
11
12
13
14 BONNIE K. PANEK
15 OCTOBER 23,2019
16
17
18
19
20

21
22

PLANET DEPOS
S88.433.3767 j WW.PLANETDEPOS.COM

a

By

era

K/Cte-'

\

\J Deputy CferR
’ App:2r.

VIRGINIA:
Jn the Supwme Count of Virginia held at the Supreme Count Ruitding, in the
City, of Richmond on Jueaday the 23%d dag, of Munch, 2021.
Kathleen C. Hampton,
against

Appellant,

Record No. 201103
Circuit Court No. 118604-00'

PROF-2013-S3 Legal Title Trust,
By U.S. Bank National Association,
as Legal Title Trustee,

Appellee.

From the Circuit Court of Loudoun County
Upon review of the record in this case and consideration of the argument submitted in
support of and in opposition to the granting of an appeal, the Court is of the opinion there is no
reversible error in the judgment complained of. Accordingly, the Court refuses the petition for
appeal.
A Copy,
Teste:
Douglas B. Robelen, Clerk
By:

App. 22

VIRGINIA:
Jn the Supreme Count of Virginia field at the Supreme Count ^Building in the
City of, lRichmond on Snidaif the 14th day of May,, 2021.
Kathleen C. Hampton,
against

Appellant,

Record No. 201103
Circuit Court No. 118604-00

PROF-2013-S3 Legal Title Trust,
By U.S. Bank National Association,
as Legal Title Trustee,

Appellee.

Upon a Petition for Rehearing
On consideration of the petition of the appellant to set aside the judgment rendered herein
on March 23, 2021 and grant a rehearing thereof, the prayer of the said petition is denied,
A Copy,
Teste:
Douglas B, Robelen, Clerk
By:
‘

* • »p

Deputy Clerk

oApp. 23

VIRGINIA:
Jti the Supreme Gawd of Virginia held at the Supreme Gawd ffiiulding in the
City, of {Richmond an Sniday the 11th day of tDecemh&i, 2620.
Appellant,

Kathleen C Hampton,
against

Record No. 201103
Circuit Court No. CL 118604-00

PROF-2013-S3 Legal Title Trust,
by U.S. Bank National Association,
as Legal Title Trustee,

Appellee.

From the Circuit Court of Loudoun County
On October 1,2020 came the appellee, by counsel, and filed a motion to dismiss in this
case.
On October 13,2020 came the appellant, who is seif-represented, and filed her opposition
thereto.
Upon consideration whereof, the Court denies the motion.

A Copy,
Teste:
Douglas B. Robetexi, Clerk

By:
Deputy Clerk

tfppwzyx //
App. 24

VIRGINIA:
IN THE CIRCUIT COURT OF LOUDOUN COUNTY

KATHLEEN C. HAMPTON
Plaintiff,
v.
PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Defendant.

)
)
)
)
)
)
)

Civil No. 118605-00

)
)
)
)

ORDER
On December 20, 2019. the Plaintiff, pro se, filed a Motion for Rehearing or in the
Alternative Motion for a Mistrial Supporting Memorandum of Law in this case and in Civil No.
118604. The Court considers the Motion to be a Motion for Reconsideration of the Court’s
rulings on October 18. 2019. sustaining the Defendant’s demurrer in this matter and granting
summary judgment to PROF-2013-S3 Legal Title Trust as the Plaintiff in Civil No. 118604.
In the motion, the Plaintiff requests the Court to grant a rehearing “and/or to serve
justice by placing this case back on the docket for a 'fair’ trial by jury and on its merits.”
Upon consideration of the Motion to Reconsider, the Court finds no basis to modify its
ruling.
Accordingly, it is ORDERED that the Plaintiffs Motion to Reconsider is denied
without the need for further argument or hearing.
Endorsements are dispensed with under Rule 1:13. This Order was prepared by the
Court.

I!

App. 25

Let the Clerk forward a copy hereof without charge to Ms. Hampton and to counsel for
the Defendant.

ENTERED this.:____/

day of February. 2020.

icavai

App. 26
11

Judge

VIRGINIA:
IN THE CIRCUIT COURT OF LOUDOUN COUNTY

KATHLEEN C. HAMPTON
Plaintiff,
v.
PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Defendant.

)
)
)
)
)
)
)

Civil No. 118605-00

)
)
)
)

ORDER
On November 18. 2019, the Plaintiff, pro sc, filed a Motion for Rehearing or in the
Alternative Motion for a Mistrial in this case and in Civil No. 118604. The Court considers the
Motion to be a Motion for Reconsideration of the Court’s rulings on October 18. 2019,
sustaining the Defendant's demurrer in this matter and granting summary judgment to PROI-2013-S3 Legal Title Trust as the Plaintiff in Civil No. 118604.
In the motion, the Plainti IT requests the Court to grant a rehearing “and/or to serve
justice by placing this case back on the docket for a ‘fair' trial by jury and on its merits.”
Upon consideration of the Motion to Reconsider, the Court finds no basis to modify its
ruling.

Accordingly, it is ORDERED that the Plaintiff s Motion to Reconsider is denied
without the need for further argument or hearing.
Endorsements are dispensed with under Rule 1:13. This Order was prepared by the
Court.

A-pprs/y/x tT
App. 27

Lei the Clerk forward a copy hereof without charge to Ms. Hampton and to counsel for
the Defendant.
ENTERED this

IH

day of December, 2019.

Stephen

App. 28

Sinca^tggrjWlue

VIRGINIA:
IN THE CIRCUIT COURT OF LOUDOUN COUNTY
KATHLEEN C. HAMPTON
Plaintiff,
v.
PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Defendant.

)
)
)
)
)
)
)

Civil No. 118605-00

)
)
)
)

NUNC PRO TUNC ORDER*
On October 25, 2019, the Plaintiff, pro set filed a Motion for Reconsideration and
Supporting Memorandum of Law in this matter and in Civil No. 118604. On November .!,
2019, the Plaintiff; pro se, filed a Motion for Reconsideration of Further Support to
Memorandum of Law in this matter and in Civil No. 118604.
In both pleadings, the Plaintiff requests the Court to reconsider its ruling sustaining the
Defendant’s Demurrer, and to “either place this case back on the docket for a ‘fair’ trial by jury
and on its merits, or dismiss this case without prejudice.”
Upon consideration of the Motion to Reconsider, the Court find no basis to modify its
ruling.
Accordingly, it is ORDERED that the Plaintiffs Motion to Reconsider is denied
without the need for further argument or hearing.
Endorsements are dispensed with under Rule 1:13. This Order was prepared by the
Court.

App. 29

? •

Let the Clerk forward a copy hereof without charge to Ms. Hampton and to counsel for
the Defendant.
ENTERED this

}C{

day of^Evc^^2019. /lone (H# 'h/Kc.'fo
11

•V

Stephen E^inoavagepJu

♦This nunc pro tunc Order corrects an error in the Order entered on November 11, 2019 in this
■ matter wherein the Order recited in paragraph 2 that the “Defendant requests the Court to
reconsider its ruling..This Order corrects the error to properly identify the Plaintiff as the
party requesting the Court to reconsider its ruling.

A COPY-TESTE
a
5;
App. 30

. ci

iens clerk

at*

Deputy Clerk

VIRGINIA:
IN THE CIRCUIT COURT OF LOUDOUN COUNTY
KATHLEEN C. HAMPTON
Plaintiff,
v.
PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Defendant.

)
)
)
)
)
)
)

Civil No. 118605-00

)
)
)
)

ORDER
On October 25, 2019, the Plaintiff, pro se, filed a Motion for Reconsideration and
Supporting Memorandum of Law in this matter and in Civil No. 118604. On November 1,
2019, the Plaintiff, pro se, filed a Motion for Reconsideration of Further Support to
Memorandum of Law in this matter and in Civil No. 118604.
In both pleadings, the Defendant requests the Court to reconsider its ruling sustaining
the Defendant’s Demurrer, and to “either place this case back on the docket for a ‘fair5 trial by
jury and on its merits, or dismiss this case without prejudice.”
Upon consideration of the Motion to Reconsider, the Court find no basis to modify its
ruling.
Accordingly, it is ORDERED that the Plaintiffs Motion to Reconsider is denied
without the need for further argument or hearing.
Endorsements are dispensed with under Rule 1:13. This Order was prepared by the
Court.

App. 31

Let the Clerk forward a copy hereof without charge to Ms. Hampton and to counsel for
the Defendant.
ENTERED this

fl

day of November, 2019.

X

E. Sfecavaee^Judge

(] A COPYrTESTE

Sfe5p^c|erk
Deputy Clerk
App. 32

VIRGINIA:
IN THE CIRCUIT COURT OF LOUDOUN COUNTY
PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK, NATIONAL
ASSOCIATION, AS LEGAL TITLE
TRUSTEE,

Plaintiff,

CASE No: CL118604,05

v.

KATHLEEN C. HAMPTON,
Defendant.
ORDER ON DEFENDANT’S MOTION TO DISMISS
THIS DAY CAME the Plaintiff, PROF 2013-S3 Legal Title Trust, by U.S. Bank,
National Association, as Legal Title Trustee (“PROF 2013-S3”), by counsel, and the Defendant,
Kathleen C. Hampton, (“Hampton”), pro se, in this appealed eviction or unlawful detainer
proceeding, upon the Defendant’s Motion to Dismiss and Plaintiffs Response and Opposition to
\

same. Upon argument of counsel for Plaintiff, and the Defendant, pro se, at hearing, the
pleadings, proffers, interests of equity, and for further good cause shown, it is hereby accordingly
ORDERED, ADJUDGED, and DECREED that:

$

1.

fS

Mof/o^"/o

r<^yT J- J

2. The Clerk is requested to send copies of this Order, upon entry, to all counsel of record
and unrepresented parties; and
3. This matter is hereby CONTINUED on the Court’s active/and open docket.
ENTERED ON THE DOCKET:
)q / ^ / 2019

c

Loudoun County Oifcuit fcoprt Judge

WE*\SK FOR THIS?
aniel^fPesachowitz, tfsq. (VSB #74295)
Liisa'Hudson Kim, Esq. (vkl3#~45484)
L-Samuel I. White, P.C.
5040 Corporate Woods Drive, Suite 120
Virginia Beach, Virginia 23462
(757) 457-4234 (Direct Dial)
(757) 337-2814 (Facsimile)
Email: lkim@siwpc.com: dpesachowitz@srwpc.com
Counselfor Plaintiff, PROF-2013-S3 Legal Title Trust, by
U.S. Bank, National Association, as Legal Title Trustee
■

SEEN AND

\

Kathleen C. Hampton
^
34985 Snickersville Turnpike
Round Hill, Virginia 20141
And
Kathleen C. Hampton
P.O.Box 154
Bluemont, Virginia 20135
Email: khampton47@vahoo.com
Defendant, Pro Se

2
App.34

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

The federal constitutional provisions involved in this petition are found in the
United States Constitution^
Amendment V*
“No person shall... be subject for the same offence to be twice put in jeopardy
of life or limb; ... nor be deprived of life, liberty, or property, without the due
process of law; nor shall private property be taken for public use, without just
compensation.”
From Amendment 5 - Rights of PersonsFrom page 1341“... the Court has been clear that it may and will independently review the facts
when the factfinding has such a substantial effect on constitutional rights. [Fn. 360]
‘In cases in which there is a claim of denial of rights under the Federal Constitution
this Court is not bound by the conclusions of lower courts, but will re-examine the
evidentiary basis on which those conclusions are founded.’ Niemotko v. Maryland,
340 U.S. 268, 271 (1951); Time, Inc. v. Pape, 402 U.S. 279, 284 (1971), and cases
cited therein.”
From page 1346“It may prevent confusion, and relieve from repetition, if we point out that some of
our cases arose under the provisions of the Fifth and others under those of the
Fourteenth Amendment to the Constitution of the United States. ... it may be that
questions may arise in which different constructions and applications of their
provisions may be proper. ... The most obvious difference between the two due
process clauses is that the Fifth Amendment clause as it binds the Federal
Government coexists with a number of other express provisions in the Bill of Rights
guaranteeing fair procedure and non-arbitrary action, such as jury trials, grand jury
indictments, and nonexcessive bail and fines, as well as just compensation, whereas
the Fourteenth Amendment clause as it binds the States has been held to contain
implicitly not only the standards of fairness and justness found within the Fifth
Amendment’s clause but also to contain many guarantees that are expressly set out
in the Bill of Rights. In that sense, the two clauses are not the same thing, but
insofar as they do impose such implicit requirements of fair trials, fair hearings,
and the like, which exist separately from, though they are informed with, express
1

/tPPE/ZPTXM
App. 35

constitutional guarantees, the interpretation of the two clauses is substantially if
not wholly the same. ... Finally, it should be noted that some Fourteenth
Amendment interpretations have been carried back to broaden interpretations of
the Fifth Amendment’s due process clause, such as, e.g., the development of equal
protection standards as an aspect of Fifth Amendment due process.”
From page 1348'
"... in observing the due process guarantee, it was concluded the Court must look
‘not [to] particular forms of procedures, but [to] the very substance of individual
rights to life, liberty, and property.’ ... The phrase ‘due process of law’ does not
necessarily imply a proceeding in a court or a plenary suit and trial by jury in every
case where personal or property rights are involved. ... What is unfair in one
situation may be fair in another. ... The precise nature of the interest that has been
adversely affected, the manner in which this was done, the reasons for doing it, the
available alternatives to the procedure that was followed, the protection implicit in
the office of the functionary whose conduct is challenged, the balance of hurt
complained of and good accomplished - these are some of the considerations that
must enter into the judicial judgment.”
From page 1356*
“Substantive Due Process
Justice Harlan, dissenting in Poe v. Ullman, [Fn. 65: 367 U.S. 497, 540, 541 (1961).
The internal quotation is from Hurtado v. California, 110 U.S. 516, 532 (1884).
Development of substantive due process is noted, supra, pp. 1343*47 and is treated
infra, under the Fourteenth Amendment.] observed that one view of due process,
‘ably and insistently argued ..., sought to limit the provision to a guarantee of
procedural fairness.’ But, he continued, due process ‘in the consistent view of this
Court has ever been a broader concept .... Were due process merely a procedural
safeguard it would fail to reach those situations where the deprivation of life, liberty
or property was accomplished by legislation which by operating in the future could,
given even the fairest possible procedure in application to individuals, nevertheless
destroy the enjoyment of all three. ... Thus the guaranties of due process, though
having their roots in Magna Carta’s 1per legem terrae’ and considered as procedural
safeguards ‘against executive usurpation and tyranny,’ have in this country ‘become
bulwarks also against arbitrary legislation.’”
Amendment VII“In Suits at common law, where the value in controversy shall exceed twenty
dollars, the right of trial by jury shall be preserved, and no fact tried by a

2

App. 36

jury, shall be otherwise re-examined in any Court of the United States, than
according to the rules of the common law.”
Amendment XIV, Section 1:
“All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without the due process of law;
nor deny to any person within its jurisdiction the equal protection of the
laws.”
It is a fundamental principle that one has the right to protect his or her
property from its unlawful taking by another. Consistent with the United States
Constitution, the Virginia Constitution, Article I, §1 states'
“[A] 11 men are by nature equally free and independent and have certain
inherent rights, of which, when they enter into a state of society, they cannot,
by any compact, deprive or divest their posterity; namely, the enjoyment of
life and liberty, with the means of acquiring and possessing property, and
pursuing and obtaining happiness and safety.”
And Article I, §11 further states'
no person shall be deprived of his life, liberty, or property without due
process of law. ... That in controversies respecting property, and in suits
between man and man, trial by jury is preferable to any other, and ought to
be held sacred.”
As to the Doctrine on Res Judicata as found in Virginia“Res judicata involves both issue and claim preclusion.” Whether a claim or
issue is precluded by a prior judgment is a question of law this Court reviews
de novo. ... [t]he doctrine of res adjudicata is a rule founded on the soundest
consideration of public policy. The doctrine is founded upon two maxims of
law, one of which is that “a man should not be twice vexed for the same
cause;” the other is that “it is for the public good that there be an end of
litigation.”
As to Demurrers, Virginia Code §8.01-273. Demurrer; form; grounds to be stated;
amendment.
3

App. 37

A. In any suit in equity or action at law, the contention that a pleading does
not state a cause of action or that such pleading fails to state facts upon
which the relief demanded can be granted may be made by demurrer. All
demurrers shall be in writing and shall state specifically the grounds on
which the demurrant concludes that the pleading is insufficient at law. No
grounds other than those stated specifically in the demurrer shall be
considered by the court. A demurrer may be amended as other pleadings are
amended.
B. Wherever a demurrer to any pleading has been sustained, and as a result
thereof the demurree has amended his pleading, he shall not be deemed to
have waived his right to stand upon his pleading before the amendment,
provided that (i) the order of the court shows that he objected to the ruling of
the court sustaining the demurrer and (ii) the amended pleading incorporates
or refers to the earlier pleading. On any appeal of such a case the demurree
may insist upon his earlier pleading before the amendment, and if the same
be held to be good, he shall not be prejudiced by having made the
amendment.
“The Court restated the substance and application of the Bell v. Twombly test for
the sufficiency of pleadings- ‘Determining whether a complaint states a plausible
claim for relief will, as the Court of Appeals observed, be a context-specific task that
requires the reviewing court to draw on its judicial experience and common sense.5”
Ashcroft v. Iqbal, 129 S.Ct. 1937, 1949 (2009)
“The courts’ disposition of legal disputes too often turned not on the substance,
truth, or legal sufficiency of the claims litigants asserted, but on obligatory
adherence to rigid canons of pleading that, to state a recognized cause of action,
procedural law directed parties to observe minutely. Such excessive formalism
frequently curtailed the parties’ ability to obtain information vital to a full
adjudication of the questions at issue, and thus obstructed achieving the civil legal
system’s most essential goals- securing access to justice, determining the truth
behind factual disputes, and deterring wrongful conduct.” Mission to Dismiss: A
Dismissal of Rule 12(b)(6) and the Retirement of Twombly/Iqbal’ Cardozo Law
Review, Volume 40, Issue 1 (2018).
“There needs to be a distinction between pleading and proof or evidence, and further
‘Without courtesy, fairness, candor, and order in the pretrial process ... reason
cannot prevail and constitutional rights to justice, liberty, freedom and equality
under law will be jeopardized.’” Code ofPretrial and Trial Conduct, p. 2.

4

App. 38

Petitioner’s filings to all Orders

App. 39

♦

In the Supreme Court of Virginia

App. 40

IN THE SUPREME COURT OF VIRGINIA
KATHLEEN C. HAMPTON

)
)

Appellant, pro se

)
)

)
)
)
)

v.

Record No. 201105
From the Circuit Court
of Loudoun County
Case No. CL00118605-00

)
)
PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION, )
)
AS LEGAL TITLE TRUSTEE
)

Appellee.

)

PETITION FOR REHEARING
(Pursuant to Rule 5:20)
NOW COMES Appellant/Defendant below, Kathleen C. Hampton (herein­
after “Hampton” or “Appellant”), pro se, and, pursuant to the Rules of the
Supreme Court of Virginia, respectfully submits this Petition for Rehearing from
the decision dated March 23, 2021, of this Honorable Supreme Court to refuse the
Petition for Appeal finding that their opinion is that there is no reversible error in
the judgment complained of.
Appellant herein, as a truthseeker, albeit aging, and in an attempt to be a
“vehicle for change,” with deep appreciation for the opportunity to address the
“full court,” respectfully requests and values this court’s further consideration.
1

App. 41

Appellant is hopeful and believes it is important to review Hampton’s
Petition for Rehearing on the Summary Judgment before this one, as the two are so
intertwined and rely on the same set of evidence and merits. Thus, Hampton will
not repeat all of her opening statements as to why the case should be heard.
This court should also consider that Hampton, who is only a pro se litigant
by her inability to afford counsel as she lives on social security, is burdened with
not just one Petition for Rehearing, but two petitions. This is a very extensive case
that truly should have been tried and decided years ago, when Hampton filed her
first suits, before foreclosure, that were ultimately dismissed on Demurrer, and
where the foreclosure should have never taken place and thus never suited.
Again, Appellant believes that acceptance of this petition will avail this
superior court with an opportunity to correct what needs to be, since it is believed
of precedential value and can significantly impact the development of legal
standards. And where important issues regarding case law, particularly on UD
statutes, Demurrers and res judicata, can be settled or clarified. And, “in the
interest of justice,” by doing so, will help to protect citizens’ rights and afford
citizens the protections of the law.
Hampton is hopeful with “new eyes” that one will recognize the problems
with this Court’s initial Decision, and understand how she was both “shocked and
dismayed” by that Decision. For to render such, in her opinion, particularly in a
2

App. 42

de novo review, is to deny her due process and protections under the law as laid
out in the Virginia and U.S. Constitution and Virginia's Bill of Rights.
Again, under the Bill of Rights:
“That no person shall be deprived of his life, liberty, or property without due
process of law; that the General Assembly shall not pass any law impairing
the obligation of contracts, nor any law whereby private property shall be
taken ... That in controversies respecting property, and in suits between
man and man, trial by jury is preferable to any other, and ought to be
held sacred."
Hampton believes that had she not been denied her three-day trial by jury, she
would have prevailed on the merits, with a preponderance of evidence.
By this court’s initial decision, it denies any wrongdoing and, clearly from
the facts and merits, there was wrongdoing every step of the way beginning with
the sale of the property, which she had lived in for ten years prior to purchase.
This court’s decision herein should be based on what this court deems to be
in the best “interest of justice” and of the citizens of this Commonwealth, and their
Constitutional rights, which Hampton has been “defending” for many years.
Again Hampton can’t help but feel that the only way she might be noticed
would require “media attention,” such as Ellen or Oprah, or “front page news.”
Hampton is also certain that given a trial by jury, which “she was deprived of,”
would have proven that PROF was not entitled to Summary Judgment, nor to
possession, and further the foreclosure should have been set aside, as this court’s
jurisprudence calls for. Given this finding, a Demurrer should be moot as the issues
3

App. 43

would be finally “tried and settled” by a trial by jury, where a jury “would have
come to but one conclusion when viewing the evidence.” Upon de novo review,
this should be obvious from Hampton’s Petition for Appeal and the “facts” thereto,
where the real “proof is in the pudding.”
Our state needs to establish protections for its citizens, and can begin with
this appeal which could also aid in avoiding another collapse by demonstrating that
punishment will result from wrongdoing, thus assuring citizens of their protections
of the law. Our Constitutional rights and protections of the law must survive.
Hampton has been fighting for justice not only for herself, but for all the
citizens of the U.S., as she has felt this “her path” for over a decade. And despite
all the disappointments, of denial to be heard and tried by a jury and afforded due
process, as Constitutional rights, she continues, but worries for the future.
Hampton requested herein that the lower court’s judgment be determined as
erred in sustaining Demurrer on Counterclaims & Sanctions, and that res judicata
was inappropriate to apply, and to find (in this court’s “de novo” review of the
truths and merits) that Appellant was deprived of her Constitutional Rights to a
“fair” trial by jury, where again “reasonable minds would have come to but one
conclusion when viewing the evidence,” and thus to grant this Appeal. And still
further to address the Constitutionality of granting Demurrers to non-judicial
foreclosures and addressing unlawful detainer statutes and, more particularly, a
4

App. 44

citizen’s Constitutional rights to defend one’s property from “unlawful takings”
without due process.
As quoted in Hampton’s Petition to SCOTUS, and again herein, quoting
Hornsby v. Allen, 326 F.2d 605:
“The role of the courts is to ascertain the manner in which this determination
was or is made accords with constitutional standards of due process and
equal protection.” And “It follows that the trial court must entertain the suit
and determine the truth of the allegations.”
Hampton further provides herein clarity to the following, which, in her
opinion, the court may have overlooked or misapprehended.
At the hearing granting Summary Judgment and sustaining Demurrer,
Hampton had presented evidence via Response and “submitted” Admissions from
both sides, with her exhibits/evidence thereto, which could prove PROF had no
right to summary judgment, but the court ignored this evidence. By the same
evidence, demurrer should not have been sustained. It would also seem that
dismissing on demurrer, without considering all that evidence, and that which
would have been offered at trial, could be considered an abuse of discretion. The
relevant factors that should have been given significant weight, i.e., breach and
violations to the DOT, were not considered and an improper factor, i.e., a
“defective” DOF, was considered. This abuse of discretion is also evident in
Hampton’s prior suit via failure of the court to consider the Judicial Notices,
praeciped for the same day as that prior “fatal” Demurrer hearing.
5

App. 45

These are the reasons why Hampton has always felt that non-judicial
foreclosures and demurrers thereto are unconstitutional. And in the case of a UD, it
would appear the statutes to them are as well, if all the court can consider is the
DOF and its filing in the court as being “prima facie” evidence.
Because of this wrongful finding of Summary Judgment and Demurrer,
based on a prior case not truly “litigated,” Hampton was deprived of her
Constitutional rights to her granted three-day trial by jury. This would seem a
contradiction of the law, where a criminal has more rights than a non-criminal.
Also prior to those “fatal” findings, Hampton presented the court with an
opportunity to first dismiss without prejudice, under Parrish, and PROF could
refile in the circuit court as a court of equity. But instead her Motion to Dismiss
was denied, primarily based on her prior case and demurrer instead of merits.
Hampton gave the court an opportunity to Reconsider and provided further
evidence on how res judicata should not apply, providing the evidence in the prior
suit, and long prior to the Final Order. That motion was denied.
As Hampton has argued in her Petition on Res Judicata:
“Res judicata involves both issue and claim preclusion.” Whether a claim
or issue is precluded by a prior judgment is a question of law this Court
reviews de novo. ... [t]he doctrine of res adjudicata is a rule founded on the
soundest consideration of public policy. The doctrine is founded upon two
maxims of law, one of which is that “a man should not be twice vexed for
the same cause;” the other is that “it is for the public good that there be an
end of litigation.”
6

App. 46

Here PROF is not a man, is instead a derivative on Wall Street, and has no
Constitutional rights as Hampton does.
Further argued:
“The courts5 disposition of legal disputes too often turned not on the
substance, truth, or legal sufficiency of the claims litigants asserted, but on
obligatory adherence to rigid canons of pleading that, to state a recognized
cause of action, procedural law directed parties to observe minutely. Such
excessive formalism frequently curtailed the parties’ ability to obtain
information vital to a full adjudication of the questions at issue, and thus
obstructed achieving the civil legal system’s most essential goals:
securing access to justice, determining the truth behind factual disputes,
and deterring wrongful conduct.”
“There needs to be a distinction between pleading and proof or
evidence, and further “Without courtesy, fairness, candor, and order in the
pretrial process ... reason cannot prevail and constitutional rights to justice,
liberty, freedom and equality under law will be jeopardized.”
Code ofPretrial and Trial Conduct, p. 2.
Still further argued:
“So here Judge Sincavage is stating that this was not a review of the
General District Court’s rulings or proper findings, but, in fact, a trial de
novo, without deference to a previous court’s decision. But yet, on
demurrer, the court dismisses the trial de novo, based on the prior case,
where neither the Unlawful Detainer count was addressed or ruled on,
nor the “wrongful foreclosure” count. ... This court should review those
Petitions as clearly the Circuit Court in that earlier case failed their duties
and “did not seek or determine the truth of the allegations,” for if it had, it
would not have permitted the Demurrers and Pleas in Bar. All the
defendants in Hampton’s case were guilty of the alleged wrongdoing and
deceived the courts with their responses. They knew full well what they had
done wrong, but admitted to nothing.
... Here, again, a trial by jury is a Constitutional Right and
Hampton’s rights have been continuously denied by these demurrers.
Absent a full review of what has gone before in that prior case, this
court on Unlawful Detainer should not have accepted as true that res
7

App. 47

judicata applied here, as it was argued by those who do not wish for the
“truth of the allegations” to be heard and/or decided on its merits.”
From page 2, Motion for Rehearing ... Memorandum ofLaw:
Further to Hampton’s Grounds ofDefense, it should be noted on page
10 under Conclusion and Prayers for Relief, Hampton “prays that this Court
award Hampton by voiding those documents on file in our Court records,
including the Assignment of Substitute Trustee, Deed of Assignment, Deed
of Foreclosure, and all other documents filed on behalf of PROF, as being
invalid. ... or do any further harm to Hampton as against her property, her
reputation, and her physical, mental and financial well being.”
Continuing from Hampton’s Objections to the Final Order on Demurrer to
Counterclaims & Sanction Action:
“Further to the Counterclaims & Sanctions initially filed, which Judge
Sincavage could not make sense of, clearly because they were moot as based
on the superior courts’ cases and awaiting decisions, and the real
Counterclaims & Sanctions were to be found in the Grounds of Defense,
where it was clear what Hampton was seeking - that being invalidation of all
documents that PROF had placed on file in this Court’s records.
As can be seen in Judge Sincavage’s Final Order, what Judge
Sincavage stated therein as to the issue of demurrer follows.
... “The demonstration of the deed of foreclosure which has not been
found to be invalid, for the reasons that have been stated previously such an
attack isn’t cognizable in this litigation”... “and as well because there’s been
an attempt to attack in a previous case the validity of the foreclosure. That
case was dismissed at demurrer, and that is under the law a decision on the
merits.” ... where Judge Sincavage further found: “It was the same
transaction and occurrence and all the issues relating to the foreclosure
sale either were or should have been litigated in that case, so on the
ground I find that the demurrer to the counterclaim should be - to the
document called counterclaim and sanctions should be sustained in all
respects.”
And restating from Hampton’s first Motion for Reconsideration:

8

App. 48

what does it take to survive a Demurrer where clearly the
evidence shows that before a trial by jury, Hampton would have
prevailed with a preponderance of the evidence. There is no justice in
dismissing on Demurrer, where the evidence can prove otherwise. It is
PROF who fears this outcome, because surely they would not survive a trial
by jury. ... And this court has failed Hampton on her rights to defend
her property from the “unlawful taking” of the same against her
Constitutional Rights to Due Process, and this court has failed in
protecting Hampton from the same.
Restating from Hampton’s Objections to the Final Order on Summary
Judgment
“Thus, it appears to Hampton that the Circuit Court is stating here that
on appeal from the General District Court on an unlawful detainer, this court
can only rule on an unlawful detainer based on the unlawful detainer statute,
that being the same as in the General District Court. If this is the case, what
would be the purpose of an appeal to the Circuit Court, if it was limited to
what the General District Court can rule on? And why would a Trial by Jury
be granted on a de novo appeal, if you cannot consider anything more than
the unlawful detainer statute? Hampton was lead to believe that by appealing
an Unlawful Detainer suit from a General District Court, which is not a court
of record, she would be entitled to a de novo trial of record, and her
Constitutional Right to a Trial by Jury, where the jury would determine
the outcome and not the bench.
Still further to res judicata and due process in Hampton’s case (p.35 herein):
“Due process in an administrative hearing includes a fair trial, conducted in
accordance with the fundamental principles of fair play and applicable
procedural standards established by law. Administrative convenience or
necessity cannot override this requirement.” Swift and Co. v. United States,
7 Cir., 1962, 308 F.2d 849; Hornsby v. Allen, 5 Cir., 1964, 326 F.2d 605.
The lower court in that prior suit should have found predatory lending, a
void ab initio DOT and the “Cloud on Title” evident requiring a “Corrective
Affidavit,” and clearly with the violation of the Consent Orders, and breach to and
9

App. 49

violations governing the DOT, a “wrongful foreclosure” had occurred and should
have been set aside and Hampton had exercised her rights to file suit before
foreclosure and challenged then Defendants’ on their conduct and right to Title.
This Court should find, given Hampton’s evidence herein (all related to the
sale of the Property), that the earlier suit was never tried, there were no admissions
to the facts, there was no discovery, where clearly the court failed to address all the
evidence and abused their discretion on the judicial notices pled, was not properly
reviewed, and was dismissed on administrative convenience, thus res judicata
cannot apply.
Here PROF is neither a man, nor is it being twice tried and Hampton is not
trying to come through the back door to relitigate or retry the earlier suit. Hampton
is trying to have the issues tried for the first time and defending herself from
unlawful takings by thieves and she has a Constitutional right to do so.
Still further from the Motion for Reconsideration:
“Hampton had requested and the court permitted a trial by jury, but
has been deprived of proving to the court that their bench trials have been
improper, unfair, and unconstitutional given the facts and evidence herein.
Clearly, these rulings are unconstitutional! And it would appear to Hampton
that a criminal, which she is not, has every right to a trial by jury, but
Hampton’s [case] has been dismissed and not permitted to be tried by jury,
but instead by a single judge. ... Hampton believes that Demurrers to non­
judicial foreclosures should be banned as unconstitutional.”
IN CONCLUSION: Hampton believes and is confident that, if this court accepts
her appeal, a “just” decision will result to her benefit and this state’s citizens.
10

App. 50

Respectfully submitted,
Kathleen C. Hampton, pro se
Kathleen C. Hampton, pro se
P.O.Box 154
Bluemont, Virginia 20135
540-554-2042
Email: khampton47@yahoo.com (limited access)
CERTIFICATE OF SERVICE
CERTIFICATE OF COMPLIANCE
Pursuant to Rule 5:20, I hereby certify that a true and correct copy of the
foregoing Petition for Rehearing was sent by electronic mail to The Supreme Court
of Virginia at scvpfr@vacourts. gov and by electronic mail to the following counsel
of record on this 6th day of April, 2021. The undersigned Appellant, Kathleen C.
Hampton, also hereby certifies that the Petition for Rehearing is in full compliance
with Rule 5:20.
E. Edward Farnsworth, Jr., Esq. (VSB No. 44043)
Ronald J. Guillot, Jr., Esq. (VSB No. 72153)
SAMUEL I. WHITE, P.C.
596 Lynnhaven Parkway, Suite 200
Virginia Beach, Virginia 23452
(757) 217-3718 (Telephone)
(757) 337-2814 (Facsimile)
Email: efamsworth@siwpc.com
rguillot@siwpc.com
Counselfor Appellee, PROF-2013-S3 Legal Title Trust,
by US. Bank National Association, as Legal Title Trustee

Kathleen C. Hampton, pro se
li

App. 51

NOTES FOR SUP CT RE DEMURRER

MY 2 ND ORAL ARGUMENT IS IN RESPONSE TO PROF’S BRIEF IN
OPPOSITION TO MY PETITION ON THE DECISION GRANTING
DEMURRER, AND IT APPEARS AGAIN THAT THIS COURT REVIEWING
DE NOVO IS THE ONLY THING THAT PROF & I AGREE ON!
FROM MY PETITION HEREIN, I BELIEVE I HAVE PROVIDED
SUFFICIENT TRUE FACTS & UNDENIABLE EVIDENCE & ARGUMENTS
IN DEFENDING MY PROPERTY FROM SUCH UNLAWFUL TAKINGS,
UNDER MY CONSTITUTIONAL RIGHTS TO DUE PROCESS!
THESE ARE TRUE FACTS THAT SHOULD SPEAK FOR THEMSELF AND
TESTIFY TO WHAT I HAVE HAD TO ENDURE, SINCE PURCHASE OF THE
PROPERTY... A VERY LONG TIME AGO! IT IS HOPED THIS COURT WILL
CONSIDER WHETHER THOSE PRIOR DEMURRERS SHOULD HAVE BEEN
SUSTAINED.
THE ONLY THING NEW TO MY FACTS HEREIN WAS WHAT I HAVE
DISCOVERED ON MY OWN, AS A PRO SE LITIGANT, SOME WHICH WAS
NOT AVAILABLE UNTIL AFTER THE FILING OF THE 2nd AMENDED
COMPLAINT IN THAT PRIOR SUIT, AS CAN BE NOTICED IN MY
REQUESTS FOR IUDICIAL NOTICES FROM COURTS AND GOVERNMENT

l

App. 52

AGENCIES; AND SOME DISCOVERY LEARNED THRU COMPLAINTS
WITH OUR ATTORNEY GENERAL’S PREDATORY LENDING UNIT, JUST
PRIOR TO SUBMITTING MY SCOTUS REPLY BRIEF ... AND I AM
NEITHER AN ATTORNEY, NOR HAVE ACCESS TO THE LAW AS
COUNSEL HAS.
I HAVE BEEN DEFENDING MY PROPERTY SINCE 2009 AND IN THE
COURTS SINCE 2015, ON WHAT IS HOPED TO BE OBVIOUS HERE WAS A
“WRONGFUL” FORECLOSURE - SOMETHING THE CIR CT DID NOT
SEEM TO RECOGNIZE, WHERE THESE FACTS WERE BEFORE THEM.
AS TO RES JUDICATA, I STAND ON MY ARGUMENTS AS PLED IN MY
PETITION BEGINNING P. 24 AND THEREIN “PARTICULARLY WHETHER
A CLAIM OR ISSUE IS PRECLUDED BY A PRIOR JUDGMENT IS A
QUESTION OF LAW THIS COURT REVIEWS DE NOVO.”
QUOTING AGAIN FROM P. 27: “HERE AGAIN, A TRIAL BY JURY IS A
CONSTITUTIONAL RIGHT AND HAMPTON’S RIGHTS HAVE BEEN
CONTINUOUSLY DENIED BY THESE DEMURRERS! ABSENT A FULL
REVIEW OF WHAT HAS GONE BEFORE IN THAT PRIOR CASE, THIS
COURT, ON UNLAWFUL DETAINER, SHOULD NOT HAVE ACCEPTED AS
TRUE THAT RES JUDICATA APPLIED HERE, AS IT WAS ARGUED BY
THOSE WHO DO NOT WISH FOR THE TRUTH OF THE ALLEGATIONS’
TO BE HEARD AND/OR DECIDED ON ITS MERITS.” ...
2

App. 53

AND AGAIN ON P. 31: “WHERE IT IS CLEAR THAT PROF WAS NOT
ENTITLED TO SUMMARY JUDGMENT, NEITHER SHOULD THE FINAL
ORDER ON DEMURRER BE PERMITTED TO SURVIVE.”
REPEATING FROM P. 32, HORNSBY V. ALLEN:
“THE ROLE OF THE COURTS IS TO ASCERTAIN THE MANNER IN
WHICH THIS DETERMINATION WAS OR IS MADE ACCORDS WITH
CONSTITUTIONAL STANDARDS

OF DUE PROCESS AND EQUAL

PROTECTION.” AND “IT FOLLOWS THAT THE TRIAL COURT MUST
ENTERTAIN THE SUIT AND DETERMINE THE TRUTH OF THE
ALLEGATIONS.”
AS RULED ON IN THE UD, THIS DEMURRER SHOULD HAVE RELATED
TO MY “GROUNDS OF DEFENSE”

NOT COUNTERCLAIMS &

SANCTIONS, AS INITIALLY FILED, WHERE THE JUDGE COULDN’T
MAKE SENSE OF, AND RIGHTFULLY SO, SINCE THEY RELATED TO
HALTING EVERYTHING PENDING OUTCOME OF MY PRIOR CASES. SO ON GROUNDS OF DEFENSE, DON’T I HAVE A RIGHT TO DEFEND
MYSELF FROM UNLAWFUL TAKINGS? THE TERM ITSELF WOULD
INDICATE SO!
ARGUING RES JUDICATA BASED ON MY CASES VS THEM WOULD
SEEM INAPPROPRIATE, SINCE THIS IS A CASE OF THEM VS ME, AND
ONCE AGAIN, I SHOULD HAVE A RIGHT TO DEFEND MYSELF FROM
THOSE UNLAWFUL TAKINGS!

3

App. 54

FURTHER QUOTING FROM P. 33: “STILL FURTHER TO RES JUDICATA
AND DUE PROCESS IN HAMPTON’S PRIOR CASE:
‘DUE PROCESS IN AN ADMINISTRATIVE HEARING INCLUDES A FAIR
TRIAL, CONDUCTED IN ACCORDANCE WITH THE FUNDAMENTAL
PRINCIPLESS
STANDARDS
CONVENIENCE

OF

FAIR PLAY AND

ESTABLISHED
OR

BY

NECESSITY

APPLICABLE
LAW.
CANNOT

PROCEDURAL

ADMINISTRATIVE
OVERRIDE

THIS

REQUIREMENT.’ QUOTING FROM SWIFT AND CO. V. UNITED STATES.
THIS COURT SHOULD FIND, GIVEN HAMPTON’S EVIDENCE HEREIN
THAT THE EARLIER CASE WAS DISMISSED ON ADMINISTRATIVE
CONVENIENCE AND WAS NOT PROPERLY REVIEWED.”
IN THE EARLIER SUIT, THE MAJORITY OF THE FACTS & EVIDENCE
WERE THERE, AND THE COURT DIDN’T RULE ON THE COUNT OF
FORECLOSURE, NOR THE UD COUNT OR THE IRS COUNT.
YOUR HONORS, I HOPE IT IS CLEAR THAT MY ARGUMENTS &
PRAYERS HEREIN SHOULD BE CONSIDERED IN YOUR DE NOVO
REVIEW “WHERE ‘REASONABLE’ MINDS WOULD HAVE COME TO BUT
ONE CONCLUSION WHEN REVIEWING THE EVIDENCE” ... AS THE
FACTS

DEMONSTRATE

THAT

PROF

WAS

NOT

ENTITLED

TO

FORECLOSURE AND THE SAME SHOULD HAVE BEEN SET ASIDE, & IT
IS MY HOPE THAT UD STATUTES BE REVIEWED IN LIGHT OF MY
PETITION.

4

App. 55

PROF’S RESPONSE HEREIN CONTINUES TO DECEIVE THE COURT
WHERE THEY STATE THAT I HAVE NOT CONTESTED DEFAULT IN
PAYMENT, AS ARGUED EARLIER IS INCORRECT, AND MISCONSTRUES
ALL THE FACTS,

WHERE THEY CLEARLY KNOW OF THEIR

WRONGDOINGS AND CONTINUE TO DENY THE SAME! THEIR
OPPOSITION IS A REHASHING OF THEIR EARLIER DEMURRERS &
DECEITS EXPRESSED THEREIN.
AGAIN, I WAS PLAINTIFF IN MY SUIT, BUT DEFENDANT IN THE UD &
SHOULD HAVE A RIGHT TO DEFEND THIS SUIT VS. ME ... AND WHERE
MY DEFENSE MUST RETURN TO THE SAME FACTS, BECAUSE
WITHOUT THE “WRONGFUL” FORECLOSURE, THERE WOULD BE NO
UD CASE ... AND W/O A DOT, THERE COULD BE NO FORECLOSURE,
THUS THE FACTS RELATE TO THE SAME DOT & ALL THE DEEDS ON
FILE. RESULTING FROM THE INITIAL TRANSACTION OR SALE.
SO IT IS NOT CLEAR HOW RES JUDICATA SHOULD APPLY HERE! IN
THIS DE NOVO REVIEW, IT IS HOPED THIS COURT COULD DETERMINE
FROM THE EVIDENCE AND ALLEGATIONS, PER PARRISH AGAIN, THAT
IN THOSE PRIOR DEMURRERS, WHERE THE COURTS DID NOT PURSUE
THE “TRUTHS TO THE ALLEGATIONS,” & WHERE FURTHER GDC’S
DECISION WAS PREMATURE, I SHOULD NEVER HAD NEEDED TO
5

App. 56

APPEAL, SINCE I DID HAVE SUFFICIENT INFORMATION TO SURVIVE A
DEMURRER, WHICH WAS NEVER CONSIDERED & RESULTED IN MY
FURTHER COSTLY APPEALS.
THIS COURT IN A DE NOVO REVIEW IS HOPED WILL DECIDE “W/O
DEFERENCE” TO A PREVIOUS COURT’S DECISION AND, IN DOING SO,
CONSIDER THE TRUTHS TO THE ALLEGATIONS AS LAID OUT IN THE
FACTS & ARGUMENTS HEREIN, & NOT ON THOSE PRIOR DEMURRERS.
THIS IS NOT AN INJURY CASE, AS IN MAN VS MAN, AND AFTER A
CAREFUL REVIEW OF THE FACTS, IT SHOULD NOT TAKE MUCH TO
DETERMINE THAT THOSE PRIOR SUITS, ALTHO PERHAPS NOT PLED
WELL, CONTAINED SUFFICIENT EVIDENCE THEREIN, TO FIND A
CAUSE OF ACTION & FURTHER SET ASIDE THE FORECLOSURE
ACTION ITSELF.
THIS BEING A UD CASE, IT APPEARS TO ME THAT THE STATUTES AS
CURRENTLY WRITTEN OFFER NO PROTECTIONS OF THE LAW AND
VIOLATE CITIZENS’ CONSTITUTIONAL RIGHTS TO DUE PROCESS IN
DEFENDING ONE’S PROPERTY FROM UNLAWFUL TAKINGS.
IT IS ALSO MY BELIEF THAT THE STATUTES TO A NON-JUDICIAL
FORECLOSURE ALSO FAIL TO PROTECT HOMEOWNERS & THEIR
6

App. 57

CONSTITUTIONAL RIGHTS TO DUE PROCESS, WHICH WAS THE CRUX
OF MY SCOTUS PETITION, WHEREIN I QUOTE: “UNIFORM NON[JUDICIAL] FORECLOSURE RULES SHOULD BE DEVELOPED TO
PROTECT CITIZENS NATIONWIDE FROM THE UNLAWFUL TAKING OF
THEIR HOMES IN VIOLATION OF THEIR CONSTITUTIONAL RIGHTS
AND W/O DUE PROCESS ... THE SOLUTION IS ALWAYS UNIFORMITY
AND CLARITY MUST BE ACHIEVED!

PERHAPS THE BETTER

SOLUTION WOULD BE TO BAR NON-JUDICIAL FORECLOSURES
ALTOGETHER UNTIL OUR FAITH IN HOME OWNERSHIP CAN BE
RESTORED” ... “& IN ORDER TO RESTORE & PROTECT CITIZENS’
CONSTITUTIONAL RIGHTS, AS THEY WERE CREATED TO BE.”
YOUR HONORS, I BELIEVE THAT MY PETITION, IF ACCEPTED FOR
APPEAL, IS OF PRECEDENTIAL VALUE AND COULD SIGNIFICANTLY
IMPACT THE DEVELOPMENT OF LEGAL STANDARDS ON A NUMBER
OF TORTS ADDRESSED HEREIN.
I RESPECTFULLY PRAY THIS SUPERIOR COURT GRANT THIS APPEAL,
WHERE THIS COURT CAN BEGIN THE PROCESS TO CHANGE WHAT
NEEDS TO BE.

7

App. 58

IN THE SUPREME COURT OF VIRGINIA
KATHLEEN C. HAMPTON

)
)

Appellant / Plaintiff, pro se

)
)

v.

)

Record No. J <3

)
)
PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION, )
)
AS LEGAL TITLE TRUSTEE,
)

Appellee / Defendant.

)

PETITION FOR APPEAL
KATHLEEN C. HAMPTON
By:

Kathleen C. Hampton, pro se
P.O.Box 154
Bluemont, Virginia 20135
Tel: 540-554-2042
Fax: None Available
khampton47@yahoo.com
(internet with limited access)

App.59

IN THE SUPREME COURT OF VIRGINIA
KATHLEEN C. HAMPTON

)
)

Appellant / Plaintiff,pro se

)
)

v.

)

Record No.

Q//£><5

)
)
PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION, )
)
AS LEGAL TITLE TRUSTEE,
)

Appellee / Defendant.

)

PETITION FOR APPEAL
NOW COMES Appellant, Plaintiff below, Kathleen C. Hampton, pro se
(“Appellant” or “Hampton”), and, pursuant to the Rules of the Supreme Court of
Virginia, respectfully submits this Petition for Appeal from the decision of the
Circuit Court of Loudoun County, Virginia, entered on February 7, 2020, in
CL00118605-00, in favor of Appellee, Defendant below, PROF-2013-S3 Legal
Title Trust, by U.S. Bank National Association, as Legal Title Trustee (“Appellee”
or “PROF”). Per the Judicial Emergency Declarations, the tolling period for filing
the petition for appeal under Rule 5:17(a)(1) was extended for a period of 52 days
after the tolling period ended on July 20, 2020, or for this Petition for Appeal was
extended until at least September 8, 2020, and thus timely filed. In support of said
Petition for Appeal, Hampton states as follows:

App. 60

s.

TABLE OF CONTENTS
PAGE
Assignment of Error

in

Table of Authorities

iv

Assignment of Error

1

Statement of the Nature of the Case and
Material Proceedings Below

1

Statement of Facts

6
23

Authorities and Argument

23
23
24

Assignment of Error
Standard of Review
Res Judicata
Conclusion

35

Certificate

36

ii

App. 61

ASSIGNMENT OF ERROR
Whether the Circuit Court erred in sustaining Demurrer on Counterclaims &
Sanctions (Order of February 7, 2020, excerpt tr. 10-18-19, p.16,11. 2-8); whether
Res Judicata was appropriate to apply (tr. p.14,1.21 - p-16,1.8); whether Demurrers
to non-judicial foreclosures violate Citizens’ Constitutional Rights to Due Process.

iii

App. 62

TABLE OF AUTHORITIES
Page
Ashcroft v. Iqbal, 556 U.S. 662, 129 S.Ct. 1937, 1949 (2009)

34

Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570 (2007)

34

Caperton v. A.T. Massey Coal Co,, 285 Va. 537, 548 (2013)

24

Chesapeake Bay Foundation, Inc. & Citizens ofStumpy Lake v.
Commonwealth ex rel State Water Control Board,
46 Va. App. 104, 111,616S.E. 2d 39, 42(2005)

23

Clomon v. Jackson, 988 F.2d 1314 (2nd Cir. 1993)

17

D’Ambrosio v. Wolf 295 Va. 48, 56 (2018)

24

Flora Daun Fowler, Appellant v. Maryland State Board ofLaw
Examiners, No. 77-801, 434 U.S. 1043, 98 S.Ct. 844,
54 L.Ed2d 793 (1977)

32

Funny Guy, LLC v. Lecego, LLC, 293 Va. 135, 142 (2017)

24

Hornsby v. Allen, 326 F.2d 605 (5th Cir. 1964)

32,33

Klein v. National Toddle House Corp., 210 Va. 641, 643,
172 S.E.2d 782, 783 (1970)

24

Matthews v. PHHMortgage Corp., 724 S.E.2d 196,
283 Va. 723 (2012)

16, 24

Maty v. Grasselli Chemical Co., 303 U.S. 197 (1938)

34

Miller v. Javitch, Block & Rathbone, 561 F.3d 588,
591 (6th Cir. 2009)

17

Parrish v. Federal National Mortgage Association,
292 Va. 44, 787 S.E.2d 116 (2016)

5,31,32

Patterson v. Saunders, 194 Va. 607, 612 (1953)

24

Philip Morris USA, Inc. v. Chesapeake Bay Foundation, Inc.,
273 Va. 564, 572, 643 S.E.2d 219,233 (2007)

23

iv

App. 63

Page
PMA Capital Insurance Co. v. US Airways, Inc., 271 Va. 352,
357-58, 626 S.E.2d 369, 372 (2006)

23

Swanson v. Southern Oregon Credit Service, Inc.,
869 F.2d 1222 (9th Cir. 1988)

17

Swift and Co. v. United States, 308 F.2d 849 (7th Cir. 1962)

33

Wallace v. Washington Mut. Bank, F.A., 683 F.3d 323
(6th Cir. 2012)

17

CONSTITUTIONAL PROVISIONS
U.S. Const. Amendment XIV

35

STATUTES
Va. Code §6.2-1614
Va. Code §6.2-1629
Va. Code §8.01-273(a)
Va. Code §8.3A-205(b)
Va. Code §55-59.l.B

8
8
24
33
16

Code of Federal Regulations
12 C.F.R. §1024.41
12C.F.R. § 1024.41(g)
24 C.F.R. §203.604

17
16,32
16

Rules
Federal Rules of Civil Procedure 12(b)(6)

33

United States Code
12 U.S.C. §1818(b)
15U.S.C. § 1692(e)
15 U.S.C. §1692c(a)(2)

11, 16
17, 18
18

V

App. 64

Page
OTHER
Code ofPretrial & Trial Conduct

25

Mission to Dismiss: A Dismissal ofRule 12(b)(6) and
the Retirement ofTwombly/Iqbal, Cardozo Law Review,
Volume 40, Issue 1 (2018)

25

The Making ofModern Law: US. Supreme Court Records and Briefs,
1832-1978

32

vi
App. 65

ASSIGNMENT OF ERROR
Whether the Circuit Court erred in sustaining Demurrer on Counterclaims &
Sanctions {Order of February 7, 2020, excerpt tr. 10-18-19, p.16,11. 2-8); whether
Res Judicata was appropriate to apply (tr. p.14,1.21 - p-16,1.8); whether Demurrers
to non-judicial foreclosures violate Citizens’ Constitutional Rights to Due Process.

STATEMENT OF THE NATURE OF THE CASE
AND MATERIAL PROCEEDINGS BELOW
This appeal is from the February 7, 2020, Final Order of the Circuit Court
of Loudoun County on Kathleen C. Hampton (“Hampton” or “Appellant”)’s
Counterclaim & Sanctions (Grounds of Defense), filed in General District Court
(“GDC”) (GV17013350-00, December 21, 2017, and June 1, 2018, respectively)
and appealed to the Circuit Court (CL00118605-00), by sustaining PROF-2013-S3
Legal Title Trust, by U.S. Bank National Association, as Legal Title Trustee
(“PROF” or “Appellee”)’s Demurrer. It also needs to be noticed here that
Appellant, by separate Petition for Appeal, appeals the February 7, 2020, Final
Order of the Circuit Court of Loudoun County on Appellee’s Unlawful Detainer
granting Summary Judgment (CL00118604-00), filed in the GDC (GV1700031100, January 12, 2017). Both cases have been heard together in the GDC and Circuit
Court, and are requested to continue to be herein.
As the record will reflect, in Hampton’s initial Counterclaims and Sanctions:
“NOW COMES Defendant, Kathleen C. Hampton, and in response to
this Court’s action to set Trial for January 5, 2018, submits her
l

App. 66

Counterclaims under Code of Virginia Title 16.1-88.01 and Sanctions which
will follow on Motion under Rule 11(b).
First, with regard to this Unlawful Detainer herein, a prior claim for
the same in this court was filed June 27, 2016, in Case No. GV16004218-00,
and dismissed September 26, 2016 (after three appearances in court), for
failure of counsel to show up and was argued on Defendant’s claim
regarding her case, as Plaintiff, against PROF-2013-S3 Legal Title Trust
(and several others) before the Circuit Court of Loudoun County, Case No.
CL-98163, which was pending at that time and included her claim to stop
the Unlawful Detainer suits as they were “believed that Fay did this
intentionally as a serious act of extortion against her property, her reputation
and her physical, mental and financial well being.” ...
Second, with regard to this Unlawful Detainer herein, this claim was
brought on Januaiy 12, 2017, and hearings scheduled ... were continued due
to Defendant’s ... Appeal before the Virginia Supreme Court ... the
Supreme Court decision of August 14, 2017, finding that the Final Order ...
was “not a final, appealable order as it is not final with regard to ...
PROF...” ... thereafter schedule the December 13, 2017, hearing for a
“status check.” At this last hearing ... Plaintiff herein submitted the Final
Order of the Circuit Court dated January 3, 2017 ... A Trial date of January
5, 2018, was set for docket. ...
Following the scheduling of a Trial Date ... Defendant will provide
supporting Exhibits ... and petition this court to rule on the Unlawful
Detainers and further requests to stop the perpetual auctions on line that are
being conducted on a weekly basis on behalf of the Plaintiff, which is
believed to be a further intentional, serious act of extortion against
Defendant’s property, her reputation and her physical, mental and financial
well being. This type of behavior should be barred as this case is part of a
much larger case that shall return to the highest court in this state on further
appeal of an “acceptable, appealable Final Order” of the Circuit Court....
For the foregoing reasons, Defendant sanctions for this Plaintiff and
all of its counsels to quit any further actions which should be barred by the
above-mentioned suits of Defendant, as it is Defendant’s position that these
Unlawful Detainer suits and auctions on line of the property herein are being
brought “to harass or to cause needless litigation,” while Defendant’s case
continues through the superior courts.”
On March 30, 2018, the Circuit Court signed an Amended Final Order, adding
PROF, on Hampton’s motion for an appealable Final Order, and Hampton filed
2

App. 67

her Objections, where clearly she did not agree to PROF having entered into any
suit in any court. Thus the second Petition for Appeal (Record No. 180842) from
the Amended Final Order included the Order of January 3, 2017, sustaining the
Demurrers and Pleas in Bar and linow added1’ PROF, and the Supreme Court, by
Opinion dated November 9, 2018, found “there is no reversible error in the
judgment complained of* and refused Petition for Appeal and, upon Petition for
Rehearing, denied the same February 1, 2019. The mandates were not returned to
the Circuit Court until February 25, 2019.
Petitioner therein did not believe that the Supreme Court had addressed all
the errors, particularly those related to Hampton’s Constitutional Rights to Due
Process and the Protections of the Law, in addition to whether PROF had truly
entered into any suit, and accordingly, filed her Petition for Writ of Certiorari
before SCOTUS May 1, 2019, identified as Record No. 18-9127. SCOTUS
subsequently denied Hampton’s Petition on October 7, 2019, as being part of the
99% which does not get accepted. This was not a confirmation of the State
Supreme Court’s Opinion.
Hampton’s initial Complaint filed December 4, 2015, in the U.S. District
Court (Eastern District of Virginia, Alexandria Div.) Civil Action No.l:15CV 1624
for “Application for TRO and/or Preliminary Injunction, and Declaratory Relief,”
was filed in a hurried effort to stop two defendants, Fay Servicing LLC (“Fay”)

App. 68

and Samuel I. White, P.C. (“SIW” or “White”) on behalf of PROF, from
proceeding with a Trustee Sale on December 7, 2015. That U.S. court later granted
Hampton’s request May 18, 2016, Dismissing without Prejudice pursuant to FRCP
41(a)(1), which Hampton requested in an effort to combine that federal suit with
the state court case (filed December 11, 2015, subsequent to foreclosure) in her
Second Amended Complaint, since opposing counsels had complained of multiple
suits, which were only brought on by PROF’s failure to cancel the foreclosure
proceeding three days after suit filed.
Returning here to the Unlawful Detainer (“UD”) case in the GDC, at the trial
date of January 5, 2018, the Court accepted Hampton’s Counterclaims, despite
PROF’s counsel’s arguments and further set a “status check” for April 2, 2018. It
was at this “status check” (three days after the March 30, 2018, Amended Final
Order issued) that the GDC set a trial for August 3, 2018, and directed PROF’s
counsel to submit a Bill of Particulars and for Hampton to submit her Grounds of
Defense. This was what the trial on August 3, 2018, was to be based upon, not the
initial Counterclaims, which were dependent upon Hampton’s other court filings.
At the August 3, 2018, trial, it was not apparent that the court reviewed the
Bill of Particularsor the Grounds ofDefense, although the judge advised Hampton
that she could not invalidate any Deeds or foreclosure actions, and that the GDC
was not a “court of record.” Thereafter, as prompted by PROF’s counsel, the court

App. 69

ruled on a Motion for Summary Judgment, dismissed previously as premature, and
without considering Hampton’s response thereto. The court granted possession to
PROF and, without a spoken word, apparently dismissed the Grounds of Defense,
and imposed an $8,000 bond on Appeal, advising that both the Unlawful Detainer
and the Counterclaims would have to be separately appealed. However, the GDC
held out on an Order until another “status check” was held on November 14,2018.
At the “status check” November 14, 2018, Hampton made known that
Parrish {Parrish v. Federal National Mortgage Association, 292 Va. 44, 787
S.E.2d 116 [2016]) should have prevented the GDC from ruling on the UD case
and awarding possession. Hampton also advised of her continuing cases before the
Supreme Court of Virginia, where the court denied Hampton’s Petition for Appeal
on November 9, 2018, but she had intention to file a Petition for Rehearing, which
she did file, and it was not until February 1, 2019, that the Petition was denied, and
the mandates were not returned to the Circuit Court until February 25, 2019.
It appeared to Hampton that the GDC made a premature ruling on a case,
where superior court decisions were not mandated to the Circuit Court until three
months after GDC’s November 14, 2018, Order,
Hampton’s Petition for Writ of Certiorari to SCOTUS was not denied until
October 7, 2019, nearly a year after the November 14, 2018, GDC Order.

5

App. 70

STATEMENT OF THE FACTS
This is an Unlawful Detainer suit resulting from a “wrongful” non-judicial
foreclosure, that no court has recognized or set aside, which was prematurely filed
and charged against Hampton, and was also prematurely decided by the GDC prior
to final decisions in higher courts on Hampton’s appeals of her case. Hampton was
lead to believe that by appealing the GDC decisions, she would have a Trial by
Jury, in a court of equity, as a Constitutional right; and, thus, her costly Appeal.
Hampton notes here that the twenty minute allotted time to argue at hearing
on PROF’s Motions for Summary Judgment and Demurrer, was insufficient to
present all the evidence that would have been provided in her three-day Trial by
Jury. It would appear the court did not consider all the evidence, for there was
“sufficient” evidence presented by Hampton in “submitted” Discovery Admissions,
from both sides, and her Exhibits A - T thereto, to show the Assignment of the
Deed of Trust (“DOT”) and the Deed of Foreclosure (“DOF”) were materially
defective and in dispute and PROF was not entitled to Summary Judgment or
possession. Those motions were “fatally” decided, and prevented Hampton’s
“Constitutional Rights” to a Trial by Jury.
The following facts were identified in Hampton’s Amended List of Exhibits
(herein as H.EJ), filed as evidence to be presented to the court and jury, and
identified in Hampton’s exhibits to Discovery Requests for Admissions (herein as

App. 71

H.A. A through T), as supported in Hampton’s Motion for Rehearing ... Mistrial
Supporting Memorandum ofLaw, which should be reviewed together herein.
1. On July 28, 2005, America’s Wholesale Lender, aka Countrywide Home
Loans, Inc. (“CW” or “Countrywide”), sold Hampton two predatory loans (referred
to as subprime 2/28 [$300,000] and 2/15 [$75,000]), as evidenced on the original
Deed of Sale, and the DOTs, filed in the court as Instrument Nos. 200507290083785, 20050729-008386, 20050729-008387, respectively.
2. Hampton, upon receiving, reviewed her Deed of Sale, where the original
description of the property was not at settlement, and reported to the Title
Company that the description listed an incorrect amount of acreage conveyed. The
company obtained a corrected description of the property from the seller, and filed
deeds in the court on October 17, 2005, as: Re-recorded Deed of Sale instrument
no. 20051017-0116773 (H.E.l); Re-recorded DOT (for $300,000) instrument no.
20051017-0116774 (H.E.2); and Re-recorded DOT (for $75,000) instrument no.
20051017-0116775 (H.E.3).
3. The first DOT and loan had a two percent prepayment penalty, never
noted to Hampton (in violation of YA Code §159.1-200 re predatory lending), and
in February of 2006, Countrywide induced Hampton into a re-finance of her loans,
combining the two, for both a significantly lower payment and slightly lower
interest rate, and claiming the property appraised at $581,000.
7

App. 72

4. Countrywide staged a sale of the subordinate loan to HSBC, to validate
the prepayment penalty they were not entitled to with an “in-house” re-finance, as
seen in the “fraudulent” Corporation Assignment of DOT from Countrywide to
Household Realty Corp. of VA, filed in the court on May 25, 2006, as instrument
no. 20060525-0046084, just prior to the re-finance June 9, 2006. (H.E.4) (Also
appended to Reconsideration Memorandum ofLaw from prior case Exhibit 5)
5. Countrywide violated VA Code §6.2-1629 (prohibited practices re decep­
tion, fraud, etc. with Consumer Transactions) as well as §6.2-1614 (blanks left to
be filled in after execution and submitting false information ... breaching any
covenant or instrument... intentionally engage in the act of refinancing a mortgage
loan within 12 months following the date the refinanced mortgage loan was
originated, unless in borrower’s best interest). Hampton was not only induced but
deceived as to the loan product of an interest-only-arm loan for ten years, not
discovered until ten years later and her loan increased by $16,800 without cashout.
The 2006 Countrywide refinance DOT was filed in the court on June 14, 2006, as
instrument no. 20060614-0052490. (H.E.5) (H.A.A) (further argued at Hampton’s
Motion to Dismiss, as evidence submitted at hearing with Hampton’s Reply Briefto
SCOTUS, copies of the DOT, both before and after alteration). And since again the
property description was not at signing, the description was found altered and
incorrect and later determined to require a “Corrective Affidavit.” (see para. 20).
8

App. 73

6. Evidence of the material alteration is easily seen in the 2006 Countrywide
refinance DOT, first page of Hampton’s original copy at closing, unaltered, with
blank spaces to be filled in. (H.E.6) (H.A.A, altered DOT in admissions). The
original was to be at Trial, together with other originals, and included at Summary
Judgment and Demurrer hearings, but returned to Hampton for use at trial.
7. Although Bank of America, N.A. (“BANA”) admitted to State Attorney
General’s Predatory Lending Unit in 2019 that Fannie Mae was the “master”
investor since 2006, it was not until a Bloomberg Audit on Hampton’s account
revealed the Note possibly went into the Fannie Mae REMIC-2006-67 GSE.
8. Although Countrywide failed to send or file with the court a Notice of
Corporate Assignment (per paragraph 20 of the DOT), Bank of America (“BoA” or
“BofA”) took over the loan in April 2009. Hampton, having applied and qualified
for, was verbally approved by BoA, under the Fannie Mae Guidelines, for the
HAMP modification, as evidenced by Hampton’s July 27, 2009, submission for
HAMP modification (H.E.7), qualifying Hampton for the HAMP modification on
July 29, 2009, but was never offered. No further billing statements were received
after the July 2009 Statement, and Hampton was instructed not to make payment on
that prior loan as it was being modified. All loans were to convert to fixed-rates.
9. BoA required Hampton to file bankruptcy in order to qualify for the
HAMP modification, which Hampton filed January 12, 2010. And, in a further

App. 74

effort to receive the modification, Hampton faxed her January 24, 2010, letter to
BofA re HAMP modification with attachments 5A-D (hardship/history of loan)
and 6A-6B (Fannie Mae Guidelines), after bankruptcy attorney’s consent. (H.E.8)
10. Thereafter, BoA failed to reaffirm with a modification, as promised, and
the court discharged the debt as could be seen in US Bankruptcy Court Discharge
dated April 26, 2010. (H.E.9)
11. Shapiro et al. wrote a December 15, 2010, letter re deed of trust being
unavailable and notice re sale of property. (H.E.10) Later, it was this foreclosure
notice and BoA’s prior approval of the HAMP modification (never offered) that
qualified Hampton under the Independent Foreclosure Review.
12. Hampton’s further evidence to qualification for the HAMP modification
could be seen in her December 21, 2010, e-mail with John Pontino, BoA’s Loss
Mitigation Specialist, re HAMP application sent to underwriting. (H.E.ll) In
February 2011, BoA “lied” about the investors rejecting the HAMP modification
where Fannie Mae, the investor, did not deny the same. (H.E.8, attached 6A-6B)
13. Notice of Assignment of DOT from MERS to Bank of America, N.A.
(“BANA”), successor by merger to BAC Home Loans Servicing, LP fka Country­
wide Home Loans Servicing, LP (who never serviced Hampton’s loan) filed in the
court March 30, 2012 (nearly six years later), instrument no. 20120330-0023523,
misrepresenting that they were the “holder and owner” of the Note and beneficiary
10

App. 75

of the DOT, when this was not true and was a misrepresentation of material fact,
and they did so with the intent to cause Hampton to rely on the misrepresentation
regarding the DOT and their attempts to foreclosure on the Property (H.E.12)
(H.A.B), argued at Motion to Dismiss, with exhibits to Hampton’s Reply Brief to
SCOTUS, and her argument regarding separation of the Note and the DOT, and
where an assignment of the DOT alone is a nullity.
14. Under the Consent Orders (2011) (H.E.39 US Bank N.A., on behalf of
their trusts), US Treasury created the OCC FRB Financial Remediation Framework
- Independent Foreclosure Review (2012). (H.E.13) (H.E.40, full Guide) The
remedies required to “provide the loan (HAMP) modification for which borrower
should have been (was) approved,” plus corrections to credit records, and to
“suspend” foreclosure or “rescind” if such occurred. (Also see US Bank’s letters
on their role with Trusts, H.E. 40a & 40b) See also, 12 U.S.C. §1818(b).
15. Under the Independent Foreclosure Review (“IFR”), the board sent a
letter of acknowledgment of Hampton’s request January 4, 2013. (H.E. 14)
16. Under the IFR, the banks were found accountable “with an enforcement
action related to deficient servicing and foreclosure processes,” and Hampton was
approved for the remedies, and sent a penalty payment on April 19, 2013. (H.E. 15)
17. Under the IFR, Hampton was sent Tax Form 1099-Misc for 2013 (for the
penalty payment alone) received April 22, 2013. (H.E. 16)
11

App. 76

18. At no time following Hampton’s qualification under the IFR has BANA
or Fay (on behalf of US Bank/PROF) offered the mandated remedies, i.e., the
HAMP modification retro to July 29, 2009. A modification is like a re-finance
without closing costs and the loan starts over again, for another 30-40 years.
19. Hampton filed Complaints with President Obama in April 2014
(redirected to Consumers Financial Protection Bureau [CFPB]) as well as follow­
ups with CFPB, OCC/US Treasury, for BANA/Fay to comply with the IFR
remedies, to no avail. In response to BANA’s attorney (H.E.41) offering nothing
resembling the mandates, Hampton had Burch arrange a Bloomberg Audit of her
account in January 2015. Hampton’s expert witness was to provide testimony and
the Audit would have been presented to the jury (H.E.38) (Audit was also
submitted in full with Motion for Rehearing/Mistrial.)
20. Notices were sent in April 2015 on BANA’s attempt to foreclose and
Hampton discovered that the “description” in the publication and 2006 DOT were
altered from the re-recorded deeds of October 2005. Upon further investigation,
she discovered her property’s description was inaccurate and she put in claim to
Fidelity National Title Insurance Co., who turned it over to Owen & Owens
(“0&0”).in Virginia for a “Corrective Affidavit.” (H.E.43a

43g) Jeremiah

Yourth, Esq. from O&O would have testified to White’s knowledge and approval
of those required “Affidavits” prior to foreclosure. See also para. 45 re (H.A.T).
12

App.77

21. Further to BANA’s attempt to foreclose, Fannie Mae’s May 8, 2015,
Notice to Occupants was hand delivered to Hampton and she advised that CHI3
had been filed and no foreclosure had taken place at the courthouse. (H.E. 17)
22. BofA sent on July 14, 2015, Notice of Servicing Transfer to Fay as of
August 1, 2015. (H.E.18) There was no transfer of the DOT filed in the court, nor
could Fay be considered a “Lender.” And Fay appears as a sub-servicer of BANA,
since on the MERS site STILL Fannie Mae is investor, and BANA is servicer.
23. Fay sent on July 17, 2015, 404 Notice/Notice of Sale of Ownership of
Mortgage Loan to PROF as of June 19, 2015. (H.E. 19) (H.A.C) Hampton knew
this to be a misrepresentation since PROF could only be sold to “within a ninety
period of time” back in 2013, under the terms of a Pooling and Servicing
Agreement (PSA), which governs such trusts.
24. White sent on August 20, 2015, Notice re Fair Debt Collection Practices
Act. (H.E.20) Several communications followed and Hampton responded to all, to
both Fay and White, to communicate Notice of Error or Information Request/
Notice of Incorrect Default Amounts, Bankruptcy dismissal, and status of her loan
with the IFR remedies (H.E.20d), and as would have been presented in her trial by
jury, exhibits identified as H.E.20a to H.E.20f, with 20e being Fay’s offer of a
Deed in Lieu Incentive, which did not expire until December 31, 2015, and where
they ignored all proper procedures as set out as violations in paragraph 31 herein.
13

App. 78

25. White sent its September 29, 2015, response to Hampton’s Notice of
Dispute, together with Interest Only Adjustable Rate Note attached. (H.E.21)
(H.A.D), stating that the note with all endorsements evidenced Noteholder status,
but it was “blank” endorsed. There should have been an endorsement to Fannie
Mae. A review of the Note and DOT clearly shows no endorsement to Fannie Mae
or BANA and, therefore, any appointment of a Substitute of Trustee or Assignment
is invalid, as both parties do not have the requisite authority to foreclose, assign a
substitute trustee or collect any payments.
26. Substitution of Trustee (SOT) from PROF to White, filed electronically
November 10, 2015, is identified as instrument no. 20151110-0074973. (H.E.22)
(H.A.E) PROF was never secured by the DOT, no Power of Attorney (POA) was
noted in the SOT, nor filed in the court records, and there was no Assignment to
the DOT filed in the court records, as a prerequisite to foreclose or assign the SOT.
Thus, White and Fay acted without the right to do so and knowingly did so.
27. White’s November 18, 2015, Notice of Trustee Sale/Substitution of
Trustee, was received by Hampton November 23, 2015, for Trustee Sale on
December 7, 2015 (H.E.23) (H.A.F), where this should be considered as “unfair”
notice as further detailed in paragraph 31 herein.
28. Although Hampton advised in August 2015, both Fay and White, of the
name of her attorney’s office (as required) and, more particularly, Burch’s
14

App. 79

involvement, and submitted numerous Third Party Authorizations, upon their
request, Fay continuously did not accept the same as they should have. Also,
Hampton, under the IFR remedies, was to be offered the HAMP modification - not
an application to determine eligibility - as she had already been found eligible.
29. Finally on December 1, 2015, Fay accepted Burch’s Third Party
Authorization, together with a modification application and proposed workout, and
contrary to Fay’s claim that Hampton failed to workout anything with Fay, it was
the reverse as they were to deal with Burch, but failed to do so until this late date.
30. Burch’s December 3, 2015, Demand to Cease & Desist Foreclosure
Proceedings was sent to White and Fay, together with Third Party Authorization.
(H.E.24) (H.A.G) Also attached to that letter were the Loan Securitization Audit
Highlights (H.E.24) to be presented at trial together with the other supporting
attachments noted in that Cease & Desist letter. (H.E.24a through H.E.24d)
31. On December 7, 2015, PROF through Fay and trustee White proceeded
with a foreclosure they had no right to proceed with and despite warnings per
Burch’s Cease and Desist, as set forth above, and stated in Hampton’s Motion for
Rehearing ... Mistrial Supporting Memorandum ofLaw, at pages 6 through 10:
“At no time has SIW acted as an unbiased fiduciary, and together with
Fay, have acted more as debt collectors (and, in fact, all their
communications identified them as such) violating the Fair Debt Collections
Practices Act (FDCPA) by:
Not following proper notice requirements such as:
15

App. 80

1) Unfair Notice of Trustee Sale where such Notice might have been
received within two weeks of the foreclosure date, but it was given during
the Thanksgiving Holiday and Hampton was only afforded 7 Vi days to do
anything about it, during a time period where not only the courts were
closed, but attorneys were unavailable as well. Also, Hampton did not
receive this Notice until after it was published in the newspaper, which again
should not be viewed as fair.
2) Hampton never received a Default Letter or any of the other notices
that were to be sent to her, in breach of the DOT, paragraph 22, where
Notice must specify:
(a) The Default; (b) the action to cure the default; (c) date not less
than thirty days from date of notice; and (d) notice of right to reinstate after
acceleration and right to bring court action.
Further to the above, Section 55-59.l.B of the Code of Virginia,
requires proper and timely notice, which was not provided to Hampton or
other beneficiaries.
3) In further breach of the DOT, paragraph 16, Governing Law;
Severability; Rules of Construction, calls for all conditions precedent as
required by Federal and/or Virginia Law, including but not limited to:
(a) the Virginia Supreme Court ruling in Mathews v. PHH. Mortg.
Corp., 724 S.E.2d 196, 283 Va. 723 (2012) regarding the failure to conduct
the HUD face-to-face meeting required by HUD regulations (24 CFR
section 203.604);
(b) failing to offer the mandated HAMP modification approved
initially July 29, 2009, under Fannie Mae Guidelines, and further approved
in early 2013, in the review of the Independent Foreclosure Review and its
Remediation Framework, a program which followed US Bank NA’s, on
behalf of their Trusts, “Consent Orders” with the OCC/US Treasury (as well
as to its predecessor BANA), which also did not require a complete
modification application, as it had already been approved; [12 U.S.C.
§1818(b) added here]
(c) failing to address the full and complete modification package
which was submitted, with confirmation to Fay Servicing on December 1,
2015, together with the Third Party Authorization, which ... delayed the
submission of the same ... And had Fay accepted the Third Party
Authorization, when first boarding the loan, Hampton’s further modification
application could have been submitted 37 days before the foreclosure date
making the foreclosure invalid ... under 12 CFR Section 1024.41(g).
(d) failing to let the offer of a Deed in Lieu expire prior to foreclosure,
where expiration date was December 31, 2015, and where foreclosure action
16

App. 81

took place December 7, 2015, in further violation of 12 CFR section 1024.41
- Loss Mitigation Procedures.
Even more specifically, the FDCPA is a strict liability statute which
specifically prohibits “[t]he use of any false representation or deceptive
means to collect or attempt to collect any debt or to obtain information
regarding a consumer.” 15 USC section 1692e(10). The FDCPA was
enacted “to eliminate abusive debt collection practices by debt collectors... ”
Miller v. Javitch, Block & Rathbone, 561 F.3d 588, 591 (6th Cir. 2009)
(quoting 15 U.S.C. Section 1692(e)).
... See Swanson v. Southern Oregon Credit Service, Inc., 869 F.2d
1222 (9th Cir. 1988) ... Clomon v. Jackson, 988 F.2d 1314 (2nd Cir. 1993)
... Wallace v. Washington Mut. Bank, F.A., 683 F.3d 323 (6th Cir. 2012).
Here in this case it is clear that Fay committed numerous violations
using false representations and unfair and deceptive practices to collect
against Hampton, beginning with their very first 404 Notice of Sale of
Ownership of Mortgage Loan (Hampton’s Exhibit C to Discovery
Admissions) informing Hampton that PROF was the New Creditor as sold
on 6/19/2015. Since Hampton had already commissioned CFLA to conduct
the Bloomberg Audit in January of 2015, and having received and studied
the same, Hampton knew that PROF could not be a new creditor since these
trusts must have pooled all loans into the trust back in 2013 within 90 days
of the pooling and servicing agreement. Also, Fannie Mae was still claiming
to be the investor at that time.
Accordingly, Fay misrepresented to Hampton that this entity had a
right to foreclose, where clearly they did not, and as further evidenced by the
Bloomberg Audit. Here, Fannie Mae, the investor, was clearly the only one
who might have been able to foreclose had MERS assigned that first
Assignment to them instead of BANA, and thereafter appointed BANA as
servicer. Fay also advised Hampton that they would make sure that a
modification would be made and they would be Hampton’s last customer
service manager (since Hampton had more than 25 CSMs with BANA).
Further, Fay advised that the HAMP modification was no longer available,
which was clearly not true since it did not cease until December 31, 2016.
However, before Fay had time to even “board” the loan or followed through
with any of the above, they had instructed SIW to proceed with foreclosure
in mid-August, 2015.
Further Fay, early on, had advised that if Hampton had legal
representation that they would communicate with them, and Hampton
advised of the same and Burch, Hampton’s Loss Mitigation Specialist,
contacted them in mid-August regarding the same. However, it was not until
17

App. 82

December 1, 2015, that Fay accepted the “Third Party Authorization”
together with the modification application. S1W also did not accept the
“Third Party Authorization” together with the December 3, 2015, Cease &
Desist Letter until that date. That letter was also copied to Fay, and warned
of violations to the DOT, FDCPA, etc., and that Hampton would file suit,
which she did, the following day, December 4, 2015, if they failed to call off
the Trustee Sale scheduled for December 7, 2015.
So in addition to all the violations listed above and in Burch’s Cease
& Desist, including the Audit Highlights, the need for the Corrective
Affidavit to correct the Property description (“Cloud on Title”), invalid
assignments, lack of required notices, and the actual filing of a suit against
them in an attempt to stop the same, SIW and Fay proceeded with the
“wrongful” Trustee Sale on December 7, 2015. ... Hampton’s belief that Fay
acted merely as a “foreclosure mill” and misrepresented PROF was the
beneficiary of Hampton’s loan, where clearly Fannie Mae was the
beneficiary, but had never been assigned the DOT as it should have within
three months of acquiring the same, it should be found that this constituted a
false representation in connection with the collection of a debt and a
deceptive practice in the conduct of trade or commerce in violation of 15
U.S.C. Section 1692e. All of this coupled with the fact that the signer of the
Assignment from BANA to PROF, shows further confusion as to PRMF’s
acquisition of the loan as of June 19, 2015, the same date that Fay claimed
PROF had acquired the same. Given the wide range of misrepresentations,
the “least sophisticated consumer” would clearly have difficulty ascertaining
who owns the loan, and who can foreclose or resolve the loan.
Still further, the FDCPA prohibits a debt collector from
communicating with a consumer in connection with the collection of any
debt “if the debt collector knows the consumer is represented by an attorney
...” 15 U.S.C. Section 1692c(a)(2). Fay, as well as SIW, knew in midAugust that Hampton was represented by counsel and, more specifically, the
firm’s Loss Mitigation Specialist Jeff Burch, but failed to accept the Third
Party Authorization until December 1st and 3rd, 2015, respectively, and right
before the Trustee Sale of December 7,2015.”
32. Hampton’s Civil Cover Sheet and US District Court, Eastern District of
VA, December 4, 2015, No. 1:15CV1624, filed to stop the foreclosure December
7, 2015, was presented at the Trustee Sale, but White ignored. (H.E.25) (H.A.H)
18

App. 83

As laid out in Hampton’s Requestfor Admissions, noted in #21, based on the
foregoing Exhs. A - H, PROF through White proceeded with foreclosure,
knowing all of the above, yet their responses deny any “wrongdoing.”
It should be obvious to this court, as Hampton believes it would have been to
her jurists, White on behalf of Fay/PROF did not fulfill all requirements precedent
to foreclosure per the DOT, nor did they have a right to proceed with the same.
33. Assignment of DOT from BANA to PROF was executed December 17,
2015, filed electronically twice December 28, 2015, in the court as instrument nos.
20151228-0084712 and 20151228-0084736 (H.E.26) (H.A.I), after the December
7, 2015, Trustee Sale, evidencing that PROF was not secured by the DOT prior to
filing the SOT and proceeding with foreclosure. This deed was not an original, had
an incorrect pin number, had a “bogus” description of the property, was executed
by a servicer on a POA not filed in the court and concealed ownership to still
another party, not party to the DOT, nor assigned servicing of the DOT; and where
the land records do not connect PRMF to the loan or the lender.
34. Auction.com advertisements began with post for January 16-19, 2016,
submitted with Exhibit BB to GDC and provided herein. (H.E.27) (H.A.K) It
should be noted here that neither Probate Court nor Circuit Court posted Orders
until nearly a year after auctions began, which continued into 2018, and caused
Hampton a great deal of stress, which Hampton believed to be Fay’s intention.
19

App. 84

35. Fay on behalf of PROF, through other counsel, initially filed Unlawful
Detainers (“UD”) in GDC on June 27, 2016, where Probate Court had yet to rule,
and again January 12, 2017, despite ongoing litigation. Hampton believes these
actions, as well as the GDC Order, were all premature to other court decisions.
36. Fay, as “Lender,” submitted to the IRS 2015 Form 1099-A/Acquisition
or Abandonment of Secured Property, where they knew Hampton filed bankruptcy
and was discharged from the debt in 2010, and were not entitled to file this notice,
and believed filed to cause Hampton further harm. (H.E.28) (H.A.L)
37. DOF from White to PROF dated May 12, 2016, filed May 13, 2016, as
instrument no. 20160513-0028205 (H.E.29) (H.A.M), not executed on December
7, 2015, did not state verbatim the property conveyed from the DOT, where White
knowingly substituted from a “Corrective Affidavit” (re “Cloud on Title”) they
approved, and knew the SOT was improperly assigned, and DOF was not an
Original, wet-ink copy as required. The property description is still incorrect.
38. Hampton’s Letter of Opposition filed with the Circuit Court to Land
Records, Real Estate Assessment and Treasurer’s Office dated June 20, 2016, was
sent to the Commissioner of Accounts and complained on the DOF as to being
.unacceptable to the courts and was filed to stop further harm. (H.E.30) (H.A.N)
39. The Limited POA from US Bank NA to Fay dated August 26, 2014,
which was first submitted with Foreclosure Accounting by White to Commissioner
20

App. 85

of Accounts on June 7, 2016 (to show right or power to act), failed to list PROF.
(H.E.31) (H.A.O)
40. The Limited POA from US Bank NA to Fay dated June 4, 2015, was
filed and recorded in Mount Holly, NJ, on December 23, 2015, as instrument no.
5188366, and subsequently submitted for Foreclosure Accounting by White to
support its powers to foreclose, was not an original POA, not filed in the county
court, and appeared tampered with regarding “PROF’s” entry - the exhibit
attached thereto being a copy and not original, as required. (H.E.32) (H.A.P)
41. PROF’s Certificate of Partial Release, was prepared by White, and filed
with the court on August 16, 2016, as instrument no. 20160816-0052847. (H.E.33)
(H.A.Q) This deed demonstrates White’s confusion regarding the need for the
“Corrective Affidavit” on the description of the property, where this deed releases
21.88 acres that never conveyed in the DOT of 2006, and further “Clouds Title;”
42. The Limited POA from BANA to Avenue 365 Lender Services, LLC,
relates to BANA’s sale of Hampton’s Mortgage Loan Purchase and Interim
Servicing Agreement as sold June 19, 2015, to PRMF Acquisitions LLC, was
recorded in the Maricopa County Recorder on August 26, 2015, as instrument no.
20150617207. (H.E.34) (H.A.J) This POA conceals further ownership and that the
wrong party proceeded with the assignment of the SOT and foreclosure
proceedings, and failed to record in court records, to prove any powers.
21

App. 86

43. US Securities & Exchange Commission’s (“SEC”) Attestation dated
October 3, 2016, states no filings under US Bank NA as Legal Title Trustee for
PROF-2013-S3 Legal Title Trust or under the name of PROF; thus the Note not
secured by the DOT. (H.E.35) (H.A.R) Where these trusts are governed by their
PSAs, Federal law requires that their contracts be certified and filed with the SEC.
44. The Order of Probate Court dated December 1, 2016, states it “expresses
no opinion as to the correctness and validity ... or other language on the account of
sale.” (H.E.36) (H.A.S) And where Hampton had filed “Exceptions” therein, those
Exceptions could have been offered at trial (H.E.42) Note: Probate Court, like
GDC, is not a court of record, and thus cannot invalidate a DOT or DOF.
45. The Loudoun County website stating how to correct a deed recorded in
the land records (by “Corrective Affidavits” only), was submitted first in GDC on
August 3, 2018, which procedures White ignored. (H.E.37) (H.A.T)
As laid out in Hampton’s Requestfor Admissions, noted in #22, based on the
foregoing Exhs. I - T, PROF through White proceeded with post-foreclosure
filings, knowing all of the above, yet their responses deny any “wrongdoing.”
As can be seen from the List of Exhibits (through 48), there was much more
testimony and exhibits to be presented to the jury in support of the effects of the
“wrongdoings,” and to the costly, even duplicate, expense to Hampton and to her
welfare, her reputation and her physical, mental and financial well being.
22

App. 87

AUTHORITIES AND ARGUMENT
Assignment of Error: Whether the Circuit Court erred in sustaining Demurrer on
Counterclaims & Sanctions {Order of February 7, 2020, excerpt tr. 10-18-19, p.16,
11. 2-8); whether Res Judicata was appropriate to apply (tr. p.14,1.21 - p.16, 1.8);
whether Demurrers to non-judicial foreclosures violate Citizens’ Constitutional
Rights to Due Process.
Standard of Review
The standard of appellate review of a circuit court’s grant of a demurrer is
well established. “[I]n reviewing the judgment of the circuit court, an appellate
court looks solely to the allegations in the pleading to which the demurrer was
sustained.” Philip Morris USAt Inc. v. Chesapeake Bay Foundation, Inc., 273 Va.
564, 572, 643 S.E.2d 219, 233 (2007) (citations omitted). And a demurrer “admits
the truth of the facts alleged in the pleading to which it is addressed, as well as any
facts that may be reasonably and fairly implied and inferred from those facts.” Id.
As a “review of a circuit court’s decision sustaining a demurrer addresses that
same legal question, [this Court] reviewfs] the circuit court’s judgment de novo.”
Chesapeake Bay Foundation, Inc. & Citizens of Stumpy Lake v. Commonwealth ex
rel. State Water Control Board, 46 Va. App. 104, 111, 616 S.E. 2d 39, 42 (2005).
Further, “[T]he interpretation of a contract presents a question of law subject to de
novo review.” PMA Capital Insurance Co. v. US Airways, Inc., 271 Va. 352, 35758, 626 S.E.2d 369, 372 (2006).

23

App. 88

As stated in a concurring opinion of former Chief Justice Kinsner, “[i]n
ruling on a demurrer, a trial court cannot consider any grounds other than those
stated specifically in the demurrer ... nor can this Court on appeal.” Matthews v.
PHH Mortgage Corp., 724 S.E.2d 196 (Va., 2012); also see Klein v. National
Toddle House Corp., 210 Va. 641, 643, 172 S.E.2d 782, 783 (1970), Va. Code
§8.01-273(a).
Res Judicata
“Res judicata involves both issue and claim preclusion.” Funny Guy, LLC v.
Lecego, LLC, 293 Va. 135, 142 (2017). While claim preclusion bars relitigation of
a cause of action, issue preclusion bars relitigation of a factual issue, DAmbrosio
v. Wolf, 295 Va. 48, 56 (2018). Whether a claim or issue is precluded by a prior
judgment is a question of law this Court reviews de novo. Caperton v. A.T. Massey
Coal Co., 285 Va. 537, 548 (2013).
[t]he doctrine of res adjudicata is a rule founded on the soundest
consideration of public policy. The doctrine is founded upon two maxims of
law, one of which is that “a man should not be twice vexed for the same
cause;” the other is that “it is for the public good that there be an end of
litigation.” (bold emphasis added)
Patterson v. Saunders, 194 Va. 607, 612 (1953) (alteration and citation omitted)
“The courts’ disposition of legal disputes too often turned not on the
substance, truth, or legal sufficiency of the claims litigants asserted, but on
obligatory adherence to rigid canons of pleading that, to state a recognized
cause of action, procedural law directed parties to observe minutely. Such
excessive formalism frequently curtailed the parties’ ability to obtain
information vital to a full adjudication of the questions at issue, and thus
24

App. 89

obstructed achieving the civil legal system’s most essential goals: securing
access to justice, determining the truth behind factual disputes, and deterring
wrongful conduct.
Mission to Dismiss: A Dismissal of Rule 12(b)(6) and the Retirement ofTwombly/
Iqbal, Cardozo Law Review, Volume 40, Issue 1 (2018).
There needs to be a distinction between pleading and proof or evidence, and
further “Without courtesy, fairness, candor, and order in the pretrial process ...
reason cannot prevail and constitutional rights to justice, liberty, freedom and
equality under law will be jeopardized.” Code ofPretrial and Trial Conduct, p. 2.

One only needs to review the facts to find clear and genuine facts in dispute
and as “submitted” in Hampton’s Admissions (from both sides) with her Exhibits.
Hampton also filed Reconsideration motions, and then Motions for Rehearing or in
the Alternative Motions for a Mistrial and Supporting Memorandum of Law, to
“complete and preserve” the record, before Final Orders issued, and to give the
court the opportunity to make an informed ruling on the issues to prevent needless
appeals and in hopes of “justice” resulting in a trial by jury, not by the bench.
Hampton submitted her Objections to the Final Order on Demurrer to
Counterclaims & Sanction Action, ruled on February 7, 2020, and as preserved
therein, when read together with Hampton’s other Reconsideration/Rehearing/
Mistrial motions will be easier to follow, thus offers those arguments as stated:
25

App. 90

First, Hampton had filed Motions for Reconsideration (denied by
Judge Sincavage), as well as Motions for Rehearing or in the Alternative
Motions for a Mistrial and Supporting Memorandum of Law, deemed to be
further Motions for Reconsideration, also denied at the February 7, 2020,
hearing on Final Order. Those motions and exhibits thereto, now on record,
presented evidence as to the wrongdoing that PROF, Fay Servicing and
Samuel I. White, P.C. have imposed upon Hampton. The following
objections and/or arguments are being preserved herein as they will be
presented to the Supreme Court of Virginia on a still further appeal.
Second, Hampton believes that her Objections to the Final Order on
Summary Judgment in the Unlawful Detainer Action should be read and
addressed prior to these objections, as they were first addressed at the
hearing therein ruling on both.
Addressing the issue of demurrer to the counterclaims and sanctions,
the following is an excerpt from Judge Sincavage’s ruling on December 6,
2019, on the Motion to Release Bond:
“Hampton filed Motion to Reconsider and I have not reviewed
yet. ... First on ruling, I don’t believe I affirmed. Affirming has a
couple meanings that apply. If someone was to withdraw their appeal,
then the General District Court ruling is affirmed. There was no
withdrawal in this case. Nor was this a review of General District
Court whether they made proper rulings or proper findings. This
was a trial de novo ” [Hampton notes here: de novo review: when
court decides without deference to a previous court’s decision. Court
decides all issues, as if case being heard for first time.] (bold added
for emphasis here)
“... So the court was starting from the beginning - not looking
at what the District Court did and seeing if there was any error. What
the court in fact do was adjudicate these matters de novo from the
start and the court did so by granting summary judgment on
unlawful detainer and dismissing on demurrer the counterclaim.
... Until I get a final order, the court has not really spoken as to what
its adjudication or rulings in this matter.” (bold added for emphasis
here)
So here Judge Sincavage is stating that this was not a review of the
General District Court’s rulings or proper findings, but, in fact, a trial de
novo, without deference to a previous court’s decision. But yet, on
demurrer, the court dismisses the trial de novo, based on the prior case,
26

App. 91

where neither the Unlawful Detainer count was addressed or ruled on,
nor the “wrongful foreclosure” count. In addition, the Cease & Desist
Letter of December 3, 2015, Exhibit 24 admitted herein, was not part of the
evidence submitted; nor were the violations as presented herein; nor could
they be since Hampton was not privy to all that information as an attorney
might be; nor were her cited cases available to her as a pro se litigant or
decided prior to the time of that complaint; and still further, nor were the
Judicial Notices with further evidence considered; nor was such available at
the time of filing the 2nd Amended Complaint, which combined her Federal
case with her State case. And as can be further seen from Hampton’s
Petition for Writ of Certiorari before the Supreme Court of the United
States, attached hereto as Exhibit A, together with its Appendix, her petition
was based on her Constitutional Rights to Due Process, not afforded by the
lower courts. In further support herein, Hampton attaches hereto as Exhibit
B, Hampton’s Petition for Rehearing before the Supreme Court of Virginia.
This court should review those Petitions as clearly the Circuit Court in that
earlier case failed their duties and “did not seek or determine the truth of the
allegations,” for if it had, it would not have permitted the Demurrers and
Pleas in Bar. All the defendants in Hampton’s case were guilty of the
alleged wrongdoing and deceived the courts with their responses. They knew
full well what they had done wrong, but admitted to nothing.
For the courts to allow these demurrers, what speaks to Hampton here
is that the courts find no “wrongful behavior.” This should not be the case,
where a dismissal on demurrer is designed to weed out cases for the courts,
not to throw them out because it is too much to read and/or comprehend as
in Hampton’s case and her complained of “volumes of pages of a Complaint
and its exhibits,” where its size was necessaiy considering it spanned a 15year period of abuse, neglect and wrongful behavior. Here, again, a trial by
jury is a Constitutional Right and Hampton’s rights have been
continuously denied by these demurrers.
Absent a full review of what has gone before in that prior case, this
court on Unlawful Detainer should not have accepted as true that res
judicata applied here, as it was argued by those who do not wish for the
“truth of the allegations” to be heard and/or decided on its merits.”
From page 2, Motion for Rehearing ... Memorandum ofLaw:
“It is Defendant’s Grounds of Defense which this court should have
consulted in this appeal, and, from the District Court’s decision, it appears
that court also failed to consult the same, particularly given the evidence
27

App. 92

already presented to the court and of record herein. And as noted on page 3
thereof, Hampton’s Response to Plaintiffs Motion for Summary Judgment in
the General District Court, where she was not required to file a response (as
dismissed below), but Hampton “did so in order to set the record straight,
since SIW was trying to prevent Hampton from even defending herself,
misconstruing nearly all the facts on record and attempting to paint an unfair
picture of Hampton. ... Hampton interprets this to be ‘an obstruction of
justice’ and is, at minimum, ‘questionable’ or ‘unethical’ as to counsel.”
(emphasis added)
Further to Hampton’s Grounds ofDefense, it should be noted on page
10 under Conclusion and Prayers for Relief, Hampton “prays that this Court
award Hampton by voiding those documents on file in our Court records,
including the Assignment of Substitute Trustee, Deed of Assignment, Deed
of Foreclosure, and all other documents filed on behalf of PROF, as being
invalid. ... or do any further harm to Hampton as against her property, her
reputation, and her physical, mental and financial well being.”
Continuing from Hampton’s Objections to the Final Order on Demurrer to
Counterclaims & Sanction Action:
“Further to the Counterclaims & Sanctions initially filed, which Judge
Sincavage could not make sense of, clearly because they were moot as based
on the superior courts’ cases and awaiting decisions, and the real
Counterclaims & Sanctions were to be found in the Grounds of Defense,
where it was clear what Hampton was seeking - that being invalidation of all
documents that PROF had placed on file in this Court’s records.
As can be seen in Judge Sincavage’s Final Order, as memorialized by
the Transcript Excerpt of October 18, 2019, what Judge Sincavage stated
therein as to the issue of demurrer follows.
Continuing with Judge Sincavage’s rulings, where he stated “The
demonstration of the deed of foreclosure which has not been found to be
invalid, for the reasons that have been stated previously such an attack isn’t
cognizable in this litigation” [p.10, 1.19 - p.ll, 1.1] “and as well because
there’s been an attempt to attack in a previous case the validity of the
foreclosure. That case was dismissed at demurrer, and that is under the law a
decision on the merits.” [p.ll, 11.1-5] and continuing through transcript
pages 11 to 16, where Judge Sincavage further found: “It was the same
transaction and occurrence and all the issues relating to the foreclosure
sale either were or should have been litigated in that case, so on the
28

App. 93

ground I find that the demurrer to the counterclaim should be - to the
document called counterclaim and sanctions should be sustained in all
respects.” [p.16,11.2-8] (bold emphasis added)
Hampton disagrees as stated above and as stated in her Motions for
Reconsideration, as well as her Motions for Rehearing ... Mistrial deemed
Motions for Reconsideration and Supporting Memorandum of Law thereto,
still denied February 7, 2020. And still further, the attached Petitions
(Exhibits A & B) clearly demonstrate that Judge Irby did not seek the truths
of Hampton’s allegations, nor did she recognize any of the claims as can be
seen therein.
And restating from Hampton’s first Motion for Reconsideration:
“Yes, Hampton takes issue with this where clearly she has
provided sufficient evidence in her exhibits, as well as in Admissions
to Discovery Requests from both sides, for this court to determine that
the documents of Deed of Foreclosure, as well as the Assignment of
the Deed of Trust, which it is based upon, are materially defective. It
appears from the transcript that the court has based its decision on
what was presented at hearing only, and has ignored the evidence in
the exhibits and Admissions. What does it take to prove that there is a
material dispute or a defective Deed, or what does it take to survive
a Demurrer where clearly the evidence shows that before a trial by
jury, Hampton would have prevailed with a preponderance of the
evidence. There is no justice in dismissing on Demurrer, where the
evidence can prove otherwise. It is PROF who fears this outcome,
because surely they would not survive a trial by jury. And according
to their Admissions, have challenged Hampton on the same. But if you
look more clearly, they wish to prevent all evidence, including
witnesses, as they have objected to the same. Again, Hampton
considers this to be an “obstruction of justice.” And this court has
failed Hampton on her rights to defend her property from the
“unlawful taking” of the same against her Constitutional Rights
to Due Process, and this court has failed in protecting Hampton
from the same.
Although Hampton, prior to receiving the e-mail with a copy of
the transcript attached, had filed her Motions for Reconsideration,
based on her recollection at the hearing, Hampton believes those
motions and reconsiderations should be considered herein, together
with their attachments thereto.
29

App. 94

It is clear from the transcript that the court did not review all
documentation on file, where particularly in Hampton’s Response to
Summary Judgment and Demurrer, Hampton was specific in her
“submitted” Admissions to PROF’s Discovery Requests that the
documents on file were, in fact, defective and those material facts
were in dispute and, thus, PROF was not entitled to judgment as a
matter of law. It appears that Hampton’s filed Response and her
“submitted” attachments thereto, which also included the Admissions
of PROF to Discovery Requests, which read more on denials, together
with Hampton’s exhibits, were not considered by the court. Clearly,
the Admissions and Exhibits demonstrated that there were defects to
those documents, as well as to the procedure leading up to and
including those documents with regard to possession. And Hampton
knows that she would have prevailed at a trial by jury.” (bold
emphasis added)
Restating from Hampton’s Objections to the Final Order on Summary
Judgment.
“Thus, it appears to Hampton that the Circuit Court is stating
here that on appeal from the General District Court on an unlawful
detainer, this court can only rule on an unlawful detainer based on the
unlawful detainer statute, that being the same as in the General
District Court. If this is the case, what would be the purpose of an
appeal to the Circuit Court, if it was limited to what the General
District Court can rule on? And why would a Trial by Jury be granted
on a de novo appeal, if you cannot consider anything more than the
unlawful detainer statute? Hampton was lead to believe that by
appealing an Unlawful Detainer suit from a General District Court,
which is not a court of record, she would be entitled to a de novo
trial of record, and her Constitutional Right to a Trial by Jury,
where the jury would determine the outcome and not the bench.
How could this court’s decision be considered “fair,” particularly,
where Hampton was further imposed with not only the $8,000 Bond
to appeal, but the cost of filing appeals fees; the costs involved in
pleadings; the costs involving expert witnesses, where a trial by jury
was not permitted; the time spent in researching and writing; the
burden of trying to prove these injustices, where she was not
permitted to do so; and leaving Hampton still with the burden of
carrying on this appeal?” (bold emphasis added)
30

App. 95

In light of the above, and as supported by Hampton’s Motions for
Reconsideration, Supporting Memorandum ofLaw and, still further, Motions
for Rehearing ... Mistrial and more particularly, as spelled out to the court
(as Hampton would have to a jury) in her Motions for Rehearing ... Mistrial
Supporting Memorandum of Law, all the violations listed therein, and still
further to Hampton’s arguments and objections to the Final Order and/or
rulings in this case on Summary Judgment, where it is clear that PROF was
not entitled to summary judgment, neither should the Final Order on
Demurrer be permitted to survive.
Hampton sincerely believes that the Supreme Court of Virginia on
Appeal could find that Parrish does apply to this particular case.
Here in Hampton’s Supporting Memorandum ofLaw, she has spelled
out what she would have to a panel of jurists, as well as the court, the
violations to the DOT incorporated as a condition precedent to foreclosure
and the regulations that barred that foreclosure. Further, as found in Parrish:
“We may further infer from their allegations that the foreclosure
purchaser, Fannie Mae, was aware of the alleged violation of the deed
of trust because it was the lender that allegedly committed the
violation. We conclude that these allegations are sufficient that, if
proved, they could satisfy a court of equity to set aside the
foreclosure.
We therefore hold that the Parrishes raised a bona fide question of title
in the unlawful detainer proceeding, thereby divesting the general
district court of subject matter jurisdiction. Accordingly, the general
district court lacked subject matter jurisdiction to try the unlawful
detainer before it. The circuit court likewise lacked subject matter
jurisdiction while exercising its de novo appellate jurisdiction,
because its subject matter jurisdiction was derived from and limited to
the subject matter jurisdiction of the court from which the appeal was
taken. Its authority therefore was limited to dismissing the
proceeding without prejudice, thereby enabling the foreclosure
purchaser to pursue its choice of available remedies in the circuit
court under that court’s original jurisdiction.” (bold emphasis
added)
Further to Hampton’s Motion to Dismiss, at oral argument, Hampton
stated: “This should be sufficient evidence, all previously submitted and
pled, but NEVER previously “actually” tried, but if not I have more that I
could present.” It was believed, in light of Parrish, Hampton had raised a
31

App. 96

bona fide dispute of title, including its validity. And, in fact, Hampton’s
arguments, as previously presented by attorneys, have survived using the
same.
The Parrishes alleged that the foreclosure was invalid due to
violations of 12 CFR § 1024.41(g) - HAMP modification submittal 37 days
before foreclosure - JUST ONE of the many violations spelled out in
Hampton’s Supporting Memorandum of Law. But as can be seen in all the
pleadings, Hampton sought to invalidate the Trustee’s Deed, the Assignment
of the DOT to PROF, the Substitution of Trustee from Fay/PROF to SIW,
the 1st Assignment of the DOT from MERS to BANA, and the DOT itself...
of course, to set aside the wrongful foreclosure and prove to this court that
no one had the right to possession or the right to the remedy to foreclose.
Further to Hampton’s Petitition to SCOTUS, quoting Hornsby v.
Allen, 326 F.2d 605:
“The role of the courts is to ascertain the manner in which this
determination was or is made accords with constitutional standards of
due process and equal protection.” And “It follows that the trial court
must entertain the suit and determine the truth of the allegations.”
And as further stated in Hampton’s Reply Briefto SCOTUS:
“Further, beginning on pages 23-33, of Hampton’s Petition, she
had pled with “factual” evidence (exhibits) that drew a reasonable
inference that the defendants were liable for the misconduct alleged,
and for Hampton’s case not to be heard on the merits thereto is a
clear violation of her rights to procedural due process.
Hampton’s Constitutional Rights are supported by the
Jurisdictional Statement bridging pages 33 through 36. Clearly, this
Superior Court has jurisdiction over Hampton’s Appeal.”
Hampton request that this court review that Jurisdictional Statement from
the attached SCOTUS Petition, Exhibit A.
[Flora Dawn Fowler, Appellant v. Maryland State Board of Law Examiners, No.
77-801, 434 U.S. 1043, 98 S.Ct. 844, 54 L.Ed2d 793 (1977)]
And continuing with Hampton’s Reply Briefto SCOTUS:
“Petitioner in her “questions presented” and throughout her
Petition is seeking “clarity and uniformity” and believes that this case,
upon being heard, may aid in establishing the same.
32

App. 97

Continuing here from page 40 of Hampton’s Petition:
It would seem that in light of the bad practices of these
servicers, including Fay on behalf of PROF/US Bank, uniform
non-[judicial] foreclosure rules should be developed to protect
citizens nationwide from the unlawful taking of their homes in
violation of their Constitutional rights and without due process.
... It is time for the courts to stand up to these TBTF banks
and/or their servicers. The solution is always uniformity and
clarity must be achieved. Perhaps the better solution would be
to bar non-judicial foreclosures altogether until our faith in
home ownership can be restored.”
As seen in PROF’s Renewed Demurrer (p.3) and as argued at hearing:
See VA Code 8.3A-205(b) “... When endorsed in blank, an instrument
becomes payable to bearer and may be negotiated by transfer of possession
alone until specially endorsed.” ... As such, any possessor, even a thief is
entitled to enforce the Note, (bold emphasis added)
It is clear to Hampton this statement goes beyond anything Constitutional! A Note
can only be enforced if it is secured by a DOT, and at no time was PROF secured
by the DOT prior to exercising the powers of the DOT to Substitute a Trustee or to
foreclose, as is clear from Hampton’s evidence.
Still further to res judicata and due process in Hampton’s prior case:
“Due process in an administrative hearing includes a fair trial, conducted in
accordance with the fundamental principles of fair play and applicable
procedural standards established by law. Administrative convenience or
necessity cannot override this requirement.” Swift and Co. v. United States,
7 Cir, 1962, 308 F.2d 849; Hornsby v. Allen, 5 Cir., 1964, 326 F.2d 605.
This Court should find, given Hampton’s evidence herein (the majority of which
was in that prior case), that earlier case was dismissed on administrative con­
venience and was not properly reviewed. Further to Rule 12(b)(6):
33

App. 98

“The plaintiff must allege facts in the amended complaint that ‘state a claim
to relief that is plausible on its face’ and that ‘nudges [her] claims across the
line from conceivable to plausible.’ Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 570 (2007. A claim is plausible if the complaint contains ‘factual
content that allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged,’ and if there is ‘more than a
sheer possibility that a defendant has acted unlawfully.’ Ashcroft v. Iqbal,
129 S.Ct. 1937, 1949 (2009). The Court restated the substance and
application of the Bell v. Twombly test for the sufficiency of pleadings:
‘Determining whether a complaint states a plausible claim for relief will,
as the Court of Appeals observed, be a context-specific task that
requires the reviewing court to draw on its judicial experience and
common sense.”’ (bold emphasis added)
That prior court decision also charged Hampton with not pleading well, but
as found in Maty v. Grasselli Chemical Co., 303 U.S. 197 (1938):
“Pleadings are intended to serve as a means of arriving at fair and just
settlements of controversies between litigants. They should not raise barriers
which prevent the achievement of that end. Proper pleading is important, but
its importance consists in its effectiveness as a means to accomplish the end
of a just judgment.”
Still further from the Motion for Reconsideration:
“Hampton had requested and the court permitted a trial by jury, but
has been deprived of proving to the court that their bench trials have been
improper, unfair, and unconstitutional given the facts and evidence herein.
Clearly, these rulings are unconstitutional! And it would appear to Hampton
that a criminal, which she is not, has every right to a trial by jury, but
Hampton’s [case] has been dismissed and not permitted to be tried by jury,
but instead by a single judge.
Hampton has not committed a crime, but this court is doing so by
allowing these criminals (SIW, Fay, PROF, and whoever else identified or
not) to unlawfully take my home against my Constitutional rights to defend
the same and my entitlement to procedural due process and the protections
of the law. Hampton believes that Demurrers to non-judicial foreclosures
should be banned as Unconstitutional!”
34

App. 99

The integrity of the rule of law is at stake, as the most basic of our due
process rights are involved.
The Fourteenth Amendment to the U.S. Constitution provides:
“No State shall ... deprive any person of life, liberty, or property, without
due process of law ...”
Will this Court allow for a wrongful foreclosure to end in the theft of Hampton’s
property without due process? I pray not!
Granting Demurrers to non-judicial foreclosures appears to offer no
protections of the law and violate citizens’ Constitutional Rights to due process in
defending their Property from “unlawful takings.” This court can begin the process
to change what needs to be.
CONCLUSION
Appellant respectfully requests this court find that the Circuit Court erred in
sustaining Demurrer on Counterclaims & Sanctions, and that res judicata was
inappropriate to apply and that this case is of significant precedential value, and
find that Appellant was deprived of her Constitutional Rights to a “fair” trial by
jury, where “reasonable minds would have come to but one conclusion when
viewing the evidence,” and thus to grant this Appeal. Appellant should not have to
continue to defend her property from the “Unlawful Taking” by PROF, in clear
violation of her Constitutional Rights.

35

App. 100

Respectfully submitted,

Kathleen C. Hamptorff/wT? se
CERTIFICATE
The undersigned Appellant, Kathleen C. Hampton, in accordance with
VSCR 5:17(i), makes the following certification:
1.

Names of parties and full contact information for counsel:

Appellant (Plaintiff below):
Pro se

Kathleen C. Hampton
Kathleen C. Hampton, pro se
P.O. Box 154
Bluemont, Virginia 20135
540-554-2042
khampton47@yahoo.com (limited access)

Appellee (Defendant below):

PROF-2013-S3 LEGAL TITLE TRUST, by
U.S, BANK NATIONAL ASSOCIATION,
as Legal Title Trustee
Counselfor Plaintiff
Ronald J. Guillot, Jr., Esquire (VSB No. 72153)
SAMUEL I. WHITE, P.C.
596 Lynnhaven Parkway, Suite 200
Virginia Beach, Virginia 23452
(757) 217-9304 (Telephone)
(757) 337-2814 (Facsimile)
rguillot@siwpc.com

36

App.101

2.

I further certify that a copy of the Petition for Appeal was mailed USPS to

the above-named counsel for Appellee, at their office address listed, on this 8th day
of September, 2020.
3.

I further request the opportunity to state orally, in person, to a panel of the

Justices of the Supreme Court, the reasons why this Petition for Appeal should be
granted. I understand that should I choose to file a Reply Brief in Opposition that
will serve as a waiver of the right to such oral argument.

Kathleen C. HamptonTpro se

37

App. 102

IN THE SUPREME COURT OF VIRGINIA
KATHLEEN C. HAMPTON

)
)

Appellant / Plaintiff, pro se

)
)

v.

)

Record No. 201105

)
)
PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION, )
)
AS LEGAL TITLE TRUSTEE,
)

Appellee / Defendant.

)

RESPONSE TO MOTION TO DISMISS
PETITION FOR APPEAL
COMES NOW Appellant, Kathleen C.

Hampton (“Appellant” or

“Hampton”), pro se, and responds to the Motion to Dismiss filed by PROF-2013S3 Legal Title Trust, by U.S. Bank, National Association, as Legal Title Trustee
(“Appellee” or “PROF”), by counsel, and, as respectfully requested on Petition for
Appeal, further requests this response be reviewed together with the companion
response to Motion to Dismiss on Unlawful Detainer (Record No. 201103), heard
together below, and again requested to be heard together herein.
Under Rule 5:17(c)(l), Hampton did “list, clearly and concisely and without
extraneous argument, the specific errors in the rulings below ...” and did so on
pages iii, 1 and 23 and under a separate heading entitled “Assignment of Error.”

l

/7/

App. 103

Under Rule 5:l(c)(l)(iii), Hampton did “address the findings, rulings, or
failures to rule on issues in the trial court or other tribunal from which an appeal is
taken” and Hampton did not “merely state the judgment or award is contrary to law
and the evidence,” as can be seen beginning pages 23 through 35 of her Authorities
and Argument, all of which specifically address the findings, rulings, or failures to
rule on issues, and where the lower court ignored the preponderance of evidence as
can be seen in the “Statement of the Facts” on pages 6 through 22.
Under Rule 5(c)(l)(iv), Effect of Failure to Use Separate Heading or Include
Preservation Reference, “If there is a deficiency in the reference to the page(s) of
the ... record where the alleged error has been preserved ... including, with respect
to error assigned to failure of such tribunal to rule on an issue ... where the issue
was preserved in such tribunal, specifying the opportunity that was provided to the
tribunal to rule on the issue(s), a rule to show cause will issue pursuant to Rule
5:1 A.” Accordingly, Hampton believes there is no real deficiency as can be
determined from the contents of pages 6 through 35 of her Petition for Appeal,
where Hampton clearly quotes from most of that record, as filed prior to any Final
Orders, and as preserved therein. It is not believed that this Supreme Court will
find a need for rule to show cause required under Rule 5:1 A, but if this court so
determines, the same will issue and there need not be a dismissal of these cases.
Clearly, PROF does not want this case to be heard, thus its Motion to Dismiss.
2

App.104

As presented in Hampton’s Petition for Appeal, the Assignment of Error was
presented to this court without extraneous argument, but pointing directly to the
court’s ruling on sustaining Demurrer on Counterclaims & Sanctions, preserved in
the transcript, and stated as follows:
ASSIGNMENT OF ERROR
Whether the Circuit Court erred in sustaining Demurrer on Counterclaims &
Sanctions {Order of February 7, 2020, excerpt tr. 10-18-19, p.16,11. 2-8); whether
Res Judicata was appropriate to apply (tr. p.14, 1.21 - p.16, 1.8); whether
Demurrers to non-judicial foreclosures violate Citizens’ Constitutional Rights to
Due Process.
Apparently, PROF takes issue with the terminology used, which if this court
needs clarification, can be reworded as follows:
ASSIGNMENT OF ERROR
The Circuit Court erred in sustaining Demurrer on Counterclaims & Sanctions
{Order of February 7, 2020, excerpt tr. 10-18-19, p.16,11. 2-8) and erred as to Res
Judicata being appropriate to apply (tr. p.14, 1.21 - p.16, 1.8) and, thus, it appears
that Demurrers to non-judicial foreclosures violate Citizens’ Constitutional Rights
to Due Process.
There really should be no issue with the wording as Hampton posed her
errors as queries, because she felt the query would avoid her looking as if she was
drawing “a conclusion of law,” which is what the lower court and PROF, by
counsel, had accused her of doing before. More importantly, it is up to this
Supreme Court to decide or determine whether Hampton’s Petition is or isn’t
3

App. 105

sufficient; and given all the torts to this case, it is hoped that some clarification to
those torts and the significant precedential value, as well as substantial
constitutional questions as to these issues, should be determined as pled for in
Hampton’s Petition. A Motion to Dismiss would not obtain that goal, nor would it
be in the “interest ofjustice.”
PROF’s arguments in their Motion to Dismiss are unwarranted, as Hampton
has clearly presented the facts and arguments and prayers and one needs only to
read the Petition, in full, and the record, which they should be very familiar with
by now, particularly since arguments in the Petition were quoted from the record
and preserved therein as noted.
It would appear that counsel has neglected to read the full Petition and
record, so they could consider and address the alleged errors. However, PROF has
filed their Brief in Opposition, which continues to deceive the court stating such
things as “Hampton does not contest her default in payment” and in the case on
Summary Judgment “these material uncontested facts demonstrate PROF has a
superior right to possession against Hampton,” where these are the very facts and
issues contested as seen in Hampton’s Statement of Facts, and preserved in the
evidence below, and, thus, further demonstrates that the Petition and the record has
not been fully read. Further to res judicata, Hampton on page 33, that this court
should find, given Hampton’s evidence ... that earlier case was dismissed on
4

App. 106

administrative convenience and was not properly reviewed; nor did that court rule
on the counts on foreclosure or even speak a single word on the UD count.
Further to the Assignment of Errors* Hampton was deprived of her
Constitutional Rights to a “fair” Trial by Jury and from the ruling below, it also
appears that Demurrers to non-judicial foreclosures offer no protections of the law
and violate citizens’ Constitutional Rights to due process in defending their
Property from “unlawful takings.” Hampton requested the court to address these
matters and to change what needs to be.
WHEREFORE, Appellant respectfully requests that this Court dismiss
PROF’s Motion to Dismiss.
Respectfully submitted,

Kathleen C. Hampton 'pfose
P.O. Box 154
Bluemont, Virginia 20135
540-554-2042
khampton47@yahoo.com (limited access)

CERTIFICATE OF SERVICE
I further certify that a copy of this foregoing Response to Motion to Dismiss
Petition for Appeal was mailed USPS to counsel for Appellee, at their office
address listed below, on this 10th day of October, 2020.

5

App.107

E. Edward Farnsworth, Jr., Esq.
Ronald J. Guillot, Jr., Esq.
SAMUEL I. WHITE, P.C.
596 Lynnhaven Parkway, Suite 200
Virginia Beach, Virginia 23452

7
. /

Kathleen C. Hampton, pro^e

6

App.108

Petitioner’s filings to all Orders

App. 109

In the Circuit Court of
Loudoun County Virginia

App.110

IN THE CIRCUIT COURT OF LOUDOUN COUNTY

PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Appellee,
Plaintiff, Unlawful Detainer
Defendant, Counterclaim

)
)
)
)
)
)
)

v.

) CL00118604-00, Unlawful Detainer
) CLG0118605-00, Counterclaim
)
)

KATHLEEN C. HAMPTON
Appellant, prose
Defendant, Unlawful Detainer
Plaintiff, Counterclaim

)
)
)

APPELLANT’S OBJECTIONS TO THE FINAL ORDER
ON DEMURRER TO COUNTERCLAIMS & SANCTIONS ACTION
COMES NOW, Appellant/Defendant/Coimterclaim Plaintiff, Kathleen C. Hampton
(“Appellant” or “Hampton”), to submit her Objections to the Final Order on Demurrer to
Counterclaims & Sanctions Action as ruled on February 7, 2020, and as memorialized in the
Transcript of Hearing Excerpt from October 18,2019, in Judge Sincavage’s Final Order.
First, Hampton had filed Motions for Reconsideration (denied by Judge Sincavage), as
well as Motions for Rehearing or in the Alternative Motions for a Mistrial and Supporting
Memorandum of Law, deemed to be further Motions for Reconsideration, also denied at the
February 7, 2020, hearing on Final Order. Those motions and exhibits thereto, now on record,
presented evidence as to the wrongdoing that PROF, Fay Servicing and Samuel I. White, P.C.
have imposed upon Hampton. The following objections and/or arguments are being preserved
herein as they will be presented to the Supreme Court of Virginia on a still further appeal.
1

App. Ill

Second, Hampton believes that her Objections to the Final Order on Summary Judgment
in the Unlawful Detainer Action should be read and addressed prior to these objections, as they
were first addressed at the hearing therein ruling on both.
Addressing the issue of demurrer to the counterclaims and sanctions, the following is an
excerpt from Judge Sincavage’s ruling on December 6,2019, on the Motion to Release Bond:
“Hampton filed Motion to Reconsider and I have not reviewed yet. ... First on
ruling, I don’t believe I affirmed. Affirming has a couple meanings that apply. If
someone was to withdraw their appeal, then the General District Court ruling is affirmed.
There was no withdrawal in this case. Nor was this a review of General District Court
whether they made proper rulings or proper findings. This was a trial de novo”
[Hampton notes here: de novo review: when court decides without deference to a
previous court’s decision. Court decides all issues, as if case being heardforfirst time.]
(bold added for emphasis here)
“... So the court was starting from the beginning - not looking at what the District
Court did and seeing if there was any error. What the court in fact do was adjudicate
these matters de novo from the start and the court did so by granting summary
judgment on unlawful detainer and dismissing on demurrer the counterclaim. So
the court doesn’t feel that there’s an affirmation of the General District Court’s ruling in
their ruling and the result of both ruling would cause somebody to say that, but I think it
has a special significant meaning and I just want to be clear, that is what we are talking
about. ... Until I get a final order, the court has not really spoken as to what its
adjudication or rulings in this matter.” (bold added for emphasis here)
So here Judge Sincavage is stating that this was not a review of the General District
Court’s rulings or proper findings, but, in fact, a trial de novo, without deference to a previous
court’s decision. But yet, on demurrer, the court dismisses the trial de novo, based on the
prior case, where neither the Unlawful Detainer count was addressed or ruled on, nor the
“wrongful foreclosure” count. In addition, the Cease & Desist Letter of December 3, 2015,
Exhibit 24 admitted herein, was not part of the evidence submitted; nor were the violations as
presented herein; nor could they be since Hampton was not privy to all that information as an
attorney might be; nor were her cited cases available to her as a pro se litigant or decided prior to
2

App. 112

the time of that complaint; and still further, nor were the Judicial Notices with further evidence
considered; nor was such available at the time of filing the 2nd Amended Complaint, which
combined her Federal case with her State case. And as can be further seen from Hampton’s
Petition for Writ of Certiorari before the Supreme Court of the United States, attached hereto as
Exhibit A, together with its Appendix, her petition was based on her Constitutional Rights to
Due Process, not afforded by the lower courts. In further support herein, Hampton attaches
hereto as Exhibit B, Hampton’s Petition for Rehearing before the Supreme Court of Virginia.
This court should review those Petitions as clearly the Circuit Court in that earlier case failed
their duties and “did not seek or determine the truth of the allegations,” for if it had, it would not
have permitted the Demurrers and Pleas in Bar. All the defendants in Hampton’s case were
guilty of the alleged wrongdoing and deceived the courts with their responses. They knew full
well what they had done wrong, but admitted to nothing.
For the courts to allow these demurrers, what speaks to Hampton here is that the courts
find no “wrongful behavior.” This should not be the case, where a dismissal on demurrer is
designed to weed out cases for the courts, not to throw them out because it is too much to read
and/or comprehend as in Hampton’s case and her complained of “volumes of pages of a
Complaint and its exhibits,” where its size was necessary considering it spanned a 15-year period
of abuse, neglect and wrongful behavior. Here, again, a trial by jury is a Constitutional Right
and Hampton’s rights have been continuously denied by these demurrers.
Absent a full review of what has gone before in that prior case, this court on Unlawful
Detainer should not have accepted as true that res judicata applied here, as it was argued by
those who do not wish for the “truth of the allegations” to be heard and/or decided on its merits.

3

App.113

Further to the Counterclaims & Sanctions initially filed, which Judge Sincavage could
not make sense of, clearly because they were moot as based on the superior courts’ cases and
awaiting decisions, and the real Counterclaims & Sanctions were to be found in the Grounds of
Defense, where it was clear what Hampton was seeking - that being invalidation of all
documents that PROF had placed on file in this Court’s records.
As can be seen in Judge Sincavage’s Final Order, as memorialized by the Transcript
Excerpt of October 18, 2019, what Judge Sincavage stated therein as to the issue of demurrer
follows.
Continuing with Judge Sincavage’s rulings, where he stated “The demonstration of the
deed of foreclosure which has not been found to be invalid, for the reasons that have been
stated previously such an attack isn’t cognizable in this litigation” [p.10,1.19 - p.ll, 1.1] “and as
well because there’s been an attempt to attack in a previous case the validity of the foreclosure.
That case was dismissed at demurrer, and that is under the law a decision on the merits.” [p. 11,
11.1-5] and continuing through transcript pages 11 to 16, where Judge Sincavage further found:
“It was the same transaction and occurrence and all the issues relating to the foreclosure sale
either were or should have been litigated in that case, so on the ground I find that the
demurrer to the counterclaim should be - to the document called counterclaim and sanctions
should be sustained in all respects.” [p.16,11.2-8] (bold emphasis added)
Hampton disagrees as stated above and as stated in her Motions for Reconsideration, as
well as her Motions for Rehearing ... Mistrial deemed Motions for Reconsideration, and
Supporting Memorandum of Law thereto, still denied February 7, 2020. And still further, the
attached Petitions (Exhibits A & B) clearly demonstrate that Judge Irby did not seek the truths of
Hampton’s allegations, nor did she recognize any of the claims as can be seen therein.

4

App. 114

And restating from Hampton’s first Motion for Reconsideration:
“Yes, Hampton takes issue with this where clearly she has provided sufficient
evidence in her exhibits, as well as in Admissions to Discovery Requests from both sides*
for this court to determine that the documents of Deed of Foreclosure, as well as the
Assignment of the Deed of Trust, which it is based upon, are materially defective. It
appears from the transcript that the court has based its decision on what was presented at
hearing only, and has ignored the evidence in the exhibits and Admissions. What does it
take to prove that there is a material dispute or a defective Deed, or what does it take to
survive a Demurrer where clearly the evidence shows that before a trial by jury,
Hampton would have prevailed with a preponderance of the evidence. There is no
justice in dismissing on Demurrer, where the evidence can prove otherwise. It is
PROF who fears this outcome, because surely they would not survive a trial by jury. And
according to their Admissions, have challenged Hampton on the same. But if you look
more clearly, they wish to prevent all evidence, including witnesses, as they have
objected to the same. Again, Hampton considers this to be an “obstruction of justice.”
And this court has failed Hampton on her rights to defend her property from the
“unlawful taking” of the same against her Constitutional Rights to Due Process, and
this court has failed in protecting Hampton from the same.
Although Hampton, prior to receiving the e-mail with a copy of the transcript
attached, had filed her Motions for Reconsideration, based on her recollection at the
hearing, Hampton believes those motions and reconsiderations should be considered
herein, together with their attachments thereto.
It is clear from the transcript that the court did not review all documentation on
file, where particularly in Hampton’s Response to Summary Judgment and Demurrer,
Hampton was specific in her “submitted” Admissions to PROF’s Discovery Requests
that the documents on file were, in fact, defective and those material facts were in dispute
and, thus, PROF was not entitled to judgment as a matter of law. It appears that
Hampton’s filed Response and her “submitted” attachments thereto, which also included
the Admissions of PROF to Discovery Requests, which read more on denials, together
with Hampton’s exhibits, were not considered by the court. Clearly, the Admissions and
Exhibits demonstrated that there were defects to those documents, as well as to the
procedure leading up to and including those documents with regard to possession. And
Hampton knows that she would have prevailed at a trial by jury.” (bold emphasis
added)
Restating from Hampton’s Objections to the Final Order on Summary Judgment
“Thus, it appears to Hampton that the Circuit Court is stating here that on appeal
from the General District Court on an unlawful detainer, this court can only rule on an
unlawful detainer based on the unlawful detainer statute, that being the same as in the
5

App. 115

General District Court. If this is the case, what would be the purpose of an appeal to the
Circuit Court, if it was limited to what the General District Court can rule on? And why
would a Trial by Jury be granted on a de novo appeal, if you cannot consider anything
more than the unlawful detainer statute? Hampton was lead to believe that by appealing
an Unlawful Detainer suit from a General District Court, which is not a court of record,
she would be entitled to a de novo trial of record, and her Constitutional Right to a
Trial by Jury, where the jury would determine the outcome and not the bench. How
could this court’s decision be considered “fair,” particularly, where Hampton was further
imposed with not only the $8,000 Bond to appeal, but the cost of filing appeals fees; the
costs involved in pleadings; the costs involving expert witnesses, where a trial by jury
was not permitted; the time spent in researching and writing; the burden of trying to
prove these injustices, where she was not permitted to do so; and leaving Hampton still
with the burden of carrying on this appeal?” (bold emphasis added)
In light of the above, and as supported by Hampton’s Motions for Reconsideration,
Supporting Memorandum of Law and, still further, Motions for Rehearing ... Mistrial and more
particularly, as spelled out to the court (as Hampton would have to a jury) in her Motions for
Rehearing ... Mistrial Supporting Memorandum of Law, all the violations listed therein, and still
further to Hampton’s arguments and objections to the Final Order and/or rulings in this case on
Summary Judgment, where it is clear that PROF was not entitled to summary judgment, neither
should the Final Order on Demurrer be permitted to survive.
Hampton sincerely believes that the Supreme Court of Virginia on Appeal could find that
Parrish does apply to this particular case.
Here in Hampton’s Supporting Memorandum ofLaw, she has spelled out what she would
have to a panel of jurists, as well as the court, the violations to the DOT incorporated as a
condition precedent to foreclosure and the regulations that barred that foreclosure. Further, as
found in Parrish:
“We may further infer from their allegations that the foreclosure purchaser, Fannie Maej
was aware of the alleged violation of the deed of trust because it was the lender that
allegedly committed the violation. We conclude that these allegations are sufficient that,
if proved, they could satisfy a court of equity to set aside the foreclosure.
6
App. 116

We therefore hold that the Parrishes raised a bona fide question of title in the unlawful
detainer proceeding, thereby divesting the general district court of subject matter
jurisdiction. Accordingly, the general district court lacked subject matter jurisdiction to
try the unlawful detainer before it. The circuit court likewise lacked subject matter
jurisdiction while exercising its de novo appellate jurisdiction, because its subject matter
jurisdiction was derived from and limited to the subject matter jurisdiction of the court
from which the appeal was taken. Its authority therefore was limited to dismissing the
proceeding without prejudice, thereby enabling the foreclosure purchaser to pursue
its choice of available remedies in the circuit court under that court’s original
jurisdiction.” (bold emphasis added)
Further to Hampton’s Motion to Dismiss, at oral argument, Hampton stated: “This should
be sufficient evidence, all previously submitted and pled, but NEVER previously “actually”
tried, but if not I have more that I could present.” It was believed, in light of Parrish, Hampton
had raised a bona fide dispute of title, including its validity. And, in fact, Hampton’s arguments,
as previously presented by attorneys, have survived using the same.
The Parrishes alleged that the foreclosure was invalid due to violations of 12 CFR Sec.
1024.41(g) - HAMP modification submittal 37 days before foreclosure - JUST ONE of the
many violations spelled out in Hampton’s Supporting Memorandum of Law. But as can be
seen in all the pleadings, Hampton sought to invalidate the Trustee’s Deed, the Assignment of
the DOT to PROF, the Substitution of Trustee from Fay/PROF to SIW, the 1st Assignment of the
DOT from MERS to BANA, and the DOT itself ... and, of course, to set aside the wrongful
foreclosure and prove to this court that no one had the right to possession or the right to the
remedy to foreclose.
Further to Hampton’s Petitition to SCOTUS* quoting Hornsby v. Allen, 326 F.2d 605:
“The role of the courts is to ascertain the manner in which this determination was or is
made accords with constitutional standards of due process and equal protection.” And “It
follows that the trial court must entertain the suit and determine the truth of the
allegations.”

7

App. 117

The integrity of the rule of law is at stake, as the most basic of our due process rights are
involved.
And as further stated in Hampton’s Reply Briefto SCOTUS:
“Further, beginning on pages 23-33, of Hampton’s Petition, she had pled with
“factual” evidence (exhibits) that drew a reasonable inference that the defendants were
liable for the misconduct alleged, and for Hampton’s case not to be heard on the
merits thereto is a clear violation of her rights to procedural due process.
Hampton’s Constitutional Rights are supported by the Jurisdictional Statement
bridging pages 33 through 36. Clearly, this Superior Court has jurisdiction over
Hampton’s Appeal.”
Hampton request that this court review that Jurisdictional Statement from the attached SCOTUS
Petition, Exhibit A.
And continuing with Hampton’s Reply Briefto SCOTUS:
“Petitioner in her “questions presented” and throughout her Petition is seeking
“clarity and uniformity” and believes that this case, upon being heard, may aid in
establishing the same.
Continuing here from page 40 of Hampton’s Petition:
It would seem that in light of the bad practices of these servicers,
including Fay on behalf of PROF/US Bank, uniform non-foreclosure rules should
be developed to protect citizens nationwide from the unlawful taking of their
homes in violation of their Constitutional rights and without due process. ... It is
time for the courts to stand up to these TBTF banks and/or their servicers. The
solution is always uniformity and clarity must be achieved. Perhaps the better
solution would be to bar non-judicial foreclosures altogether until our faith in
home ownership can be restored.”
Again, Hampton believes that Demurrers to non-judicial foreclosures should be barred as
Unconstitutional!
It is Hampton’s prayer and belief that, with these supporting arguments and objections to
the rulings and subsequent Final Order, and further, upon a de novo review by the Supreme
Court of Virginia on Appeal, an outcome will result in “justice being served,” where a “fair”

8

App. 118

trial by juiy, on its merits, with witnesses and evidence supporting all her claims, might be
held, and it is hoped that the same may set some legal precedence to protect the citizens of this
country from the abuses by the TBTF banks. Hampton should not have to continue to defend her
property from the “Unlawful Taking” by PROF or otherwise, in violation of her Constitutional
Rights; but she will continue to do so, even before SCOTUS, once again, if necessary.
Respectfully submitted,

y'

"7

7

Kathleen C. Hampton, Appellant pro se
Defendant/Counterclaim Plaintiff

9

App. 119

CERTIFICATE OF SERVICE
I hereby certify that on February 21, 2020, a true copy of the foregoing Appellant's
Objections to the Final Order on Demurrer to Counterclaims & Sanctions is being sent via first
class US Mail, postage prepaid to:
Appellee
Plaintiff/Counterclaim Defendant
Ronald J. Guillot, Jr., Esq.
SAMUEL I. WHITE, P.C.
596 Lynnhaven Parkway, Suite 200
Virginia Beach, Virginia 23452
Counselfor PROF-2013-S3 Legal Title Trust,
by US Bank National Association, as Legal Title Trustee

Kathleen C. Hampton, Appellant pro se
P.O. Box 154
Bluemont, Virginia 20135
540-554-2042

10

App. 120

STATE OF VIRGINIA
COUNTY OF LOUDOUN

CERTIFICATION
I, Kathleen C. Hampton, hereby certify that I am the Appellant in this action. I have read
the foregoing Appellant’s Objections to the Final Order on Demurrer to Counterclaims &
Sanctions and it is true of my own knowledge, except as to those matters stated on information or
belief, and as to those matters, I believe it to be true.
I declare under penalty of perjury under the laws of the Commonwealth of Virginia that
the foregoing is true and correct.
Date of execution: February 21, 2020
... ^

Kathleen C. Hampton, Appellant pro se
SWORN to and subscribed before me, this 21st day of February, 2020.

"MlNOTARY

d

FVZUC
. : n-•v. TV-

/ }

My Commission Expires:

it' -7Sor£3.C®

3f, £-0 D-H

‘'A"';.
: X

•T

11

App.121

YY

IN THE CIRCUIT COURT OF LOUDOUN COUNTY
t

PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Appellee,
Plaintiff, Unlawful Detainer
Defendant, Counterclaim

)

)
)
)
)
)
)

v.

) CLG0118604-00, Unlawful Detainer
) CL00118605-00, Counterclaim

KATHLEEN C. HAMPTON
Appellant, pro se
Defendant, Unlawful Detainer
Plaintiff, Counterclaim

)
)
)
)

DEFENDANT* S MOTION FOR REHEARING
OR IN THE ALTERNATIVE MOTION FOR A MISTRIAL
SUPPORTING MEMORANDUM OF LAW
COMES NOW, Appellant/Defendant/Counterclaim Plaintiff, Kathleen C. Hampton
(“Defendant” or “Hampton”), to submit further, as reserved, Defendant's Motion for Rehearing
or in the Alternative Motion for a Mistrial Supporting Memorandum of Law on Summary
Judgment and Demurrer judgments at the hearing of October 18, 2019, and states as follows:
Hampton wishes to advise that to date Plaintiff has not “circulated” the transcript nor the
proposed “Final Order,” and, accordingly, this Supporting Memorandum is filed in further
support of Hampton’s Motion for Rehearing ... or Mistrial (deemed by the Honorable Judge
Sincavage to be a still further Motion for Reconsideration, where Hampton’s first Motion for
Reconsideration had been previously denied) and, as previously stated therein,
“... as that transcript clearly demonstrates that the court did not consider the
entire record on appeal, and especially the Bill of Particulars filed by Plaintiff, and
Defendant’s Grounds ofDefense, and instead relied on Defendant’s initial Counterclaims
and. Sanctions as filed two years ago, while her case was still active in the courts and still
1

/? P?Fa/z>/x S

App. 122

Y

&

developing in the General District Court. It should be noted here too that the prior state
case was only recently denied by the U.S. Supreme Court on October 7, 2019, but did not
affirm the lower courts decisions. Thus, it would seem to Hampton that the General
District Court’s decision to award possession on November 14, 2018, was also premature
and again should have been dismissed without prejudice re Parrish.
It is Defendant’s Grounds of Defense which this court should have consulted in
this appeal, and, from the District Court’s decision, it appears that court also failed to
consult the same, particularly given the evidence already presented to the court and of
record herein. And as noted on page 3 thereof, Hampton’s Response to Plaintiffs Motion
for Summary Judgment in the General District Court, where she was not required to file a
response (as dismissed below), but Hampton “did so in order to set the record straight,
since SIW was trying to prevent Hampton from even defending herself, misconstruing
nearly all the facts on record and attempting to paint an unfair picture of Hampton. ...
Hampton interprets this to be ‘an obstruction of justice’ and is, at minimum,
‘questionable’ or ‘unethical’ as to counsel.” (emphasis added)
Further to Hampton’s Grounds of Defense, it should be noted on page 10 under
Conclusion and Prayers for Relief, Hampton “prays that this Court award Hampton by
voiding those documents on file in our Court records, including the Assignment of
Substitute Trustee, Deed of Assignment, Deed of Foreclosure, and all other documents
filed on behalf of PROF, as being invalid. ... or do any further harm to Hampton as
against her property, her reputation, and her physical, mental and financial well being.”
It appears from the transcript that the court has based their judgment on what
transpired at the hearing itself, where the court stated “I’m not here today to hear and
decide a closing argument in a case ... so the issue on summary judgment ... are there
any genuine disputes of material facts. ... the most important words for this analysis is
material facts, (page 5, lines 13-22) Continuing on page 8, line 15 (at the top) “So when
we examine the record properly in this case of matters that can be considered on
summary judgment, including admissions, we have listed as Exhibit 1 to the motion for
summary judgment the deed of foreclosure which was referenced in the request for
admissions ... And among the responses to that is Ms. Hampton’s admission that it’s a
true copy of what Samuel I White filed in the county records ... Those matters being
admitted in the court’s view leave no material issue in genuine dispute because they
conclusively demonstrate as a matter of law that Prof is entitled to possession of the
subject property under the unlawful detainer statute.” (emphasis added)
Yes, Hampton takes issue with this where clearly she has provided sufficient
evidence in her exhibits, as well as in Admissions to Discovery Requests from both sides,
for this court to determine that the documents of Deed of Foreclosure, as well as the
Assignment of the Deed of Trusty which it is based upon, are materially defective. It
appears from the transcript that the court has based its decision on what was presented at
hearing only, and has ignored the evidence in the exhibits and Admissions. What does it
2

App.123

take to prove that there is a material dispute or a defective Deed, or what does it take to
survive a Demurrer where clearly the evidence shows that before a trial by jury,
Hampton would have prevailed with a preponderance of the evidence. There is no justice
in dismissing on Demurrer, where the evidence can prove otherwise. It is PROF who
fears this outcome, because surely they would not survive a trial by jury. And according
to their Admissions, have challenged Hampton on the same. But if you look more clearly,
they wish to prevent all evidence, including witnesses, as they have objected to the same.
Again, Hampton considers this to be an “obstruction of justice.” And this court has failed
Hampton on her rights to defend her property from the “unlawful taking” of the same
against her Constitutional Rights to Due Process, and this court has failed in protecting
Hampton from the same.
Although Hampton, prior to receiving the e-mail with a copy of the transcript
attached, had filed her Motions for Reconsideration, based on her recollection at the
hearing, Hampton believes those motions and reconsiderations should be considered
herein, together with their attachments thereto.
It is clear from the transcript that the court did not review all documentation on
file, where particularly in Hampton’s Response to Summary Judgment and Demurrer,
Hampton was specific in her “submitted” Admissions to PROF’s Discovery Requests
that the documents on file were, in fact, defective and those material facts were in dispute
and, thus, PROF was not entitled to judgment as a matter of law. It appears that
Hampton’s filed Response and her “submitted” attachments thereto, which also included
the Admissions of PROF to Discovery Requests, which read more on denials, together
with Hampton’s exhibits, were not considered by the court. Clearly, the Admissions and
Exhibits demonstrated that there were defects to those documents, as well as to the
procedure leading up to and including those documents with regard to possession. And
Hampton knows that she would have prevailed at a trial by jury.
Further, as to the Demurrer in the lower court there was none and no Demurrer
filed herein admits to any truths or allegations as can be seen from again the Admissions.
Hampton did not file an Appeal and post an “unaffordable Bond of $8,000”
(for which she has two additional years to pay on and comprises l/6lh of her social
security income), in addition to the “unrefundable” retainer fee of $1,500 for an
expert witness, where the trial was dismissed based on these wrongful Summary
Judgment and Demurrer filings, and where Plaintiff seeks to impose a further bond on
Appeal from this court on Property which they have no right to and have never had a
right to possession, to be DENIED her “Trial by Jury.” According to Code of Virginia
8.01-129, “Trial by jury shall be had upon application of any party.” Hampton appealed
the lower court decision, knowing she would prevail before a jury trial, but has been
denied her most basic rights of what the judicial system is designed to do ... and that is,
let justice prevail. And this denial has come at a very costly expense to her and her
welfare, not to mention her reputation and her physical, mental and financial well being.
3

App.124

This trial court, while still awaiting the proposed Final Order and the transcript of
the judgment from the hearing of October 18, 2019, should consider this motion on the
grounds that the fairness of the trial was infected by improper evidence as Plaintiff
argued that the Admissions of Hampton were clear admissions of fact, and where from
those Admissions, it can be seen that Hampton denied as “true” Plaintiff s Exhibits since
they are defective and inaccurate, and only admitted to their “wrongful” filing of the
same in the court system.
Hampton had requested and the court permitted a trial by jury, but has been
deprived of proving to the court that their bench trials have been improper, unfair, and
unconstitutional given the facts and evidence herein. Clearly, these rulings are
unconstitutional! And it would appear to Hampton that a criminal, which she is not, has
every right to a trial by jury, but Hampton’s [case] has been dismissed and not permitted
to be tried by jury, but instead by a single judge.
Hampton has not committed a crime, but this court is doing so by allowing these
criminals (SIW, Fay, PROF, and whoever else identified or not) to unlawfully take my
home against my Constitutional rights to defend the same and my entitlement to
procedural due process and the protections of the law. Hampton believes that Demurrers
to non-judicial foreclosures should be banned as Unconstitutional!”
Since this court has made a decision from the bench, without considering the evidence
that would have been presented in the trial by jury, and although it is difficult to offer up all
evidence as would have been presented in that three day trial, Hampton attempts herein to supply
key factors/evidence that would have been presented. This evidence is in addition to what this
court has already received in the record, and particularly in addition to those exhibits identified
in the Discovery Requests and Responses or Answers thereto, which already demonstrate the
defective nature of the Assignments and Deeds placed on file in our own Circuit Court.
First, as identified in Hampton’s initial and Amended List of Exhibits and Witnesses, as
Exhibit 38 Certified Forensic Loan Auditors, LLC Property Securitization Analysis Report,
prepared initially January 26, 2015, and updated September 27, 2019, by expert witness Andrew
P. Lehman, J.D., provided herein, would have been offered up to the jury, together with a shorter
version referenced as “Highlights from the Bloomberg Audit.” The expert witness would have
demonstrated and educated the court and the jury on who/what PROF is (still a trust of Fannie
4

App.125

Mae and Fannie Mae is still the investor on the site of MERS, as well as BANA is still listed
as servicer) and how all the Assignments should be held as invalid. A portion of this report was
submitted to SCOTUS in Hampton’s Reply Brief and again to this court with regard to the
hearing on Hampton’s Motion to Dismiss. This report demonstrated that the Note and the loan
secured by the Deed of Trust (DOT) had separated giving no one the right to the remedy of
foreclosure, and the Assignments of the DOT were invalid, identified on pages 66-67 (Exhibit 1
attached to the Audit). Auditor recommended reading pages 10 - 37 particularly in support of his
standing on this audit.
Further Hampton draws attention to the highlighted portions on page 27 regarding
conducting foreclosure proceedings when Fannie Mae is the mortgagee and the Auditor’s note
following on page 28; and further report summary on page 30, where clearly MERS should have
assigned the DOT to Fannie Mae and Fannie Mae could have assigned BANA as servicer. Again
on page 34, Fannie Mae did not assign this latest Assignment and thus, it fails as being valid.
Page 37 explains this even further in terms that a jury could understand. The Auditor goes on to
explain what a trust such as PROF is and how it operates on pages 61-62. It was believed that to
demonstrate the contents of this report to a jury, Hampton’s retained expert witness would need a
four-hour period to do so.
As to Hampton’s second witness Jeffrey T. Burch (of Virginia Law PLC and Hampton’s
Loss Mitigation Specialist since 2011), his testimony would have been supported further by all
exhibits following his involvement, but particularly with regard to PROF/Fay/SIW in Exhibit 24
from Hampton’s Amended List ofExhibits, provided herein, Burch’s Demand to Cease & Desist
Foreclosure Proceedings dated December 3, 2015, sent to both Samuel I. White PC (SIW), as
Trustee, and Fay Servicing, on behalf of PROF. This Court should carefully review this

5

App. 126

communication, together with the attachments of the Audit Highlights and further documents
listed as (a) through (f). Further Hampton spells out to this court the violations to the DOT and/or
federal and/or state regulations applicable as follows:
At no time has SIW acted as an unbiased fiduciary, and together with Fay, have acted
more as debt collectors (and, in fact, all their communications identified them as such) violating
the Fair Debt Collections Practices Act (FDCPA) by:
Not following proper notice requirements such as:
1) Unfair Notice of Trustee Sale where such Notice might have been received within two
weeks of the foreclosure date, but it was given during the Thanksgiving Holiday and Hampton
was only afforded 7 lA days to do anything about it, during a time period where not only the
courts were closed, but attorneys were unavailable as well. Also, Hampton did not receive this
Notice until after it was published in the newspaper, which again should not be viewed as fair.
2) Hampton never received a Default Letter or any of the other notices that were to be
sent to her, in breach of the DOT, paragraph 22, where Notice must specify:
(a) The Default; (b) the action to cure the default; (c) date not less than thirty days from
date of notice; and (d) notice of right to reinstate after acceleration and right to bring court
action.
Further to the above, Section 55-59.l.B of the Code of Virginia, requires proper and
timely notice, which was not provided to Hampton or other beneficiaries.
3) In further breach of the DOT, paragraph 16, Governing Law; Severability; Rules of
Construction, calls for all conditions precedent as required by Federal and/or Virginia Law,
including but not limited to:

6

App. 127

(a) the Virginia Supreme Court ruling in Mathews v. PHH. Mortg. Corp., 724 S.E.2d 196,
283 Va. 723 (2012) regarding the failure to conduct the HUD face-to-face meeting required by
HUD regulations (24 CFR section 203.604);
(b) failing to offer the mandated HAMP modification approved initially July 29, 2009,
under Fannie Mae Guidelines, and further approved in early 2013, in the review of the
Independent Foreclosure Review and its Remediation Framework, a program which followed US
Bank NA’s, on behalf of their Trusts, “Consent Orders” with the OCC/US Treasury (as well as to
its predecessor BANA), which also did not require a complete modification application, as it had
already been approved;
(c) failing to address the full and complete modification package which was submitted,
with confirmation to Fay Servicing on December 1, 2015, together with the Third Party
Authorization, which had not been previously accepted prior to that date and prior to foreclosure
notices, which also in turn delayed the submission of the same by Hampton’s Loss Mitigation
Specialist. And had Fay accepted the Third Party Authorization, when first boarding the loan,
Hampton’s further modification application could have been submitted 37 days before the
foreclosure date making the foreclosure invalid per prohibition under 12 CFR Section
1024.41(g).
(d) failing to let the offer of a Deed in Lieu expire prior to foreclosure, where expiration
date was December 31, 2015, and where foreclosure action took place December 7, 2015, in
further violation of 12 CFR section 1024.41 - Loss Mitigation Procedures.
Even more specifically, the FDCPA is a strict liability statute which specifically prohibits
“[t]he use of any false representation or deceptive means to collect or attempt to collect any debt
or to obtain information regarding a consumer.” 15 USC section 1692e(10). The FDCPA was

7

App. 128

enacted “to eliminate abusive debt collection practices by debt collectors, to ensure that those
debts collectors who refrain from using abusive debt collection practices are not competitively
disadvantaged, and to promote consistent State action to protect consumers against debt
collection abuses.” Miller v. Javitch, Block & Rathbone, 561 F.3d 588, 591 (6th Cir. 2009)
(quoting 15 U.S.C. Section 1692(e)).
To assess whether particular conduct violates the FDCPA, courts use the “least
sophisticated debtor” standard. See Swanson v. Southern Oregon Credit Service, Inc., 869 F.2d
1222, 1227 (9th Cir. 1988). This objective standard “ensurefs] that the FDCPA protects all
consumers, the gullible as well as the shrewd.” Clomon v. Jackson, 988 F.2d 1314, 1318-19 (2nd
Cir. 1993).
When applying the “least sophisticated consumer” standard, the misleading statement
must also be materially false or misleading to violate FDCPA 15 U.S.C. Section 1692e. Miller at
596-97. “The materiality standard simply means that in addition to being technically false, a
statement would tend to mislead or confuse the reasonable unsophisticated consumer.” Wallace
v. Washington Mut. Bank, FA., 683 F.3d 323, 326-27 (6th Cir. 2012).
Here in this case it is clear that Fay committed numerous violations using false
representations and unfair and deceptive practices to collect against Hampton, beginning with
their very first 404 Notice of Sale of Ownership of Mortgage Loan (Hampton’s Exhibit C to
Discovery Admissions) informing Hampton that PROF was the New Creditor as sold on
6/19/2015. Since Hampton had already commissioned CFLA to conduct the Bloomberg Audit in
January of 2015, and having received and studied the same, Hampton knew that PROF could not
be a new creditor since these trusts must have pooled all loans into the trust back in 2013 within

8

App.129

90 days of the pooling and servicing agreement. Also, Fannie Mae was still claiming to be the
investor at that time.
Accordingly, Fay misrepresented to Hampton that this entity had a right to foreclose,
where clearly they did not, and as further evidenced by the Bloomberg Audit. Here, Fannie Mae,
the investor, was clearly the only One who might have been able to foreclose had MERS assigned
that first Assignment to them instead of BANA, and thereafter appointed BANA as servicer. Fay
also advised Hampton that they would make sure that a modification would be made and they
would be Hampton’s last customer service manager (since Hampton had more than 25 CSMs
with BANA). Further, Fay advised that the HAMP modification was no longer available, which
was clearly not true since it did not cease until December 31, 2016. However, before Fay had
time to even “board” the loan or followed through with any of the above, they had instructed
SIW to proceed with foreclosure in mid-August, 2015.
Further Fay, early on, had advised that if Hampton had legal representation that they
would communicate with them, and Hampton advised of the same and Burch, Hampton’s Loss
Mitigation Specialist, contacted them in mid-August regarding the same. However, it was not
until December 1, 2015, that Fay accepted the "Third Party Authorization” together with the
modification application. SIW also did not accept the “Third Party Authorization” together with
the December 3, 2015, Cease & Desist Letter until that date. That letter was also copied to Fay,
and warned of violations to the DOT, FDCPA, etc., and that Hampton would file suit, which she
did, the following day, December 4,2015, if they failed to call off the Trustee Sale scheduled for
December 7,2015.
So in addition to all the violations listed above and in Burch’s Cease & Desist, including
the Audit Highlights, the need for the Corrective Affidavit to correct the Property description

9

App. 130

(“Cloud on Title”), invalid assignments, lack of required notices, and the actual filing of a suit
against them in an attempt to stop the same, SIW and Fay proceeded with the “wrongful” Trustee
Sale on December 7, 2015. Hampton’s belief that Fay acted merely as a “foreclosure mill” and
misrepresented PROF was the beneficiary of Hampton’s loan, where clearly Fannie Mae was the
beneficiary, but had never been assigned the DOT as it should have within three months of
acquiring the same, it should be found that this constituted a false representation in connection
with the collection of a debt and a deceptive practice in the conduct of trade or commerce in
violation of 15 U.S.C. Section 1692e. All of this coupled with the fact that the signer of the
Assignment from BANA to PROF, shows further confusion as to PRMF’s acquisition of the loan
as of June 19, 2015, the same date that Fay claimed PROF had acquired the same. Given the
wide range of misrepresentations, the “least sophisticated consumer” would clearly have
difficulty ascertaining who owns the loan, and who can foreclose or resolve the loan.
Still further, the FDCPA prohibits a debt collector from communicating with a consumer
in connection with the collection of any debt “if the debt collector knows the consumer is
represented by an attorney ...” 15 U.S.C. Section 1692c(a)(2). Fay, as well as SIW, knew in midAugust that Hampton was represented by counsel and, more specifically, the firm’s Loss
Mitigation Specialist Jeff Burch, but failed to accept the Third Party Authorization until
December 1st and 3rd, 2015, respectively, and right before the Trustee Sale of December 7,2015.
4) Further to the above, Hampton had claimed that by the violations previously stated to
SCOTUS, as well as in this court as presented at hearing on Motion to Dismiss:
(a) the DOT should be determined void ab initio\
(b) the Assignment of the DOT from MERS to BANA should be held invalid, as it should
have been assigned to Fannie Mae and then Fannie Mae could have assigned to BANA;

10

App.131

(c) the Substitution of Trustee (SOT) from PROF to SIW should be held invalid as PROF
was never the Noteholder (Fannie Mae was), nor was the note secured by the DOT, nor was
PROF the beneficiary of the same and had no authority to assign, nor to exercise the remedy of
foreclosure; and further no Power of Attorney (POA) was given to Fay as is evident therein and,
in the first POA submitted to the Commissioner of Accounts, it failed to list PROF in US Bank
NA’s POA to Fay; and where clearly, the wrong party made assignment; and further that no
assignment to the security instrument from BANA to PROF was filed before or concurrently
with the SOT giving PROF such authority to assign or foreclose;
(d) the subsequent Assignment of the DOT should be held invalid as it relied on the first
Assignment of the DOT and PROF, as a Trust, could not bid on any new loan and was never the
Lender who could have, and Countrywide, the Lender, had ceased to exist. As to facial defects,
this Assignment bears a “bogus” description of the property, an incorrect pin number, which is
critical to its identification, and is executed.by a further party Avenue 365 as attorney-in-fact for
BANA, concealing true ownership of the loan to PRMF Acquisitions as of June 19, 2015, where
Fay claimed the same was sold to PROF on that date;
(e) the Deed of Foreclosure (DOF) should be found invalid, as it relied on the
Assignment of the DOT and the Trustee Sale, all of which should be held invalid and set aside
by a court in equity. As to facial defects, first the sidebar on page 1 should read “Lot No. 3,
Parkview Estates II,” per its proper recorded identification yet to be submitted via “Corrective
Affidavit;” at the top right of the page, “Title Insurance underwriter unknown to the preparer,”
where it is believed that the Trustee is suppose to be in receipt of the same in order to proceed
with foreclosures; in the third paragraph, “WHEREAS, by instrument recorded in the Clerk’s
Office, Samuel I. White, PC was appointed Substitute Trustee under the DOT,” this SOT is

11

App.132

invalid as Fay on behalf of PROF was not the proper party to assign; in the fourth paragraph, the
Trustee failed to comply with the requirements of the DOT prior to exercising foreclosure; in the
last paragraph on page 1, PROF, as a trust, could not bid nor take in any loan as the closing date
for doing so was back in 2013, and is not the Lender, who could do bidding. On page 2 of the
DOF, as to the first paragraph, at no time did the Trustee inquire, but should have; as to the legal
description, SIW copied the description received by Owens & Owen regarding the “Corrective
Affidavit,” which they approved with one correction, but remained to be approved by Hampton
and filed in the court herein, which to date has not occurred due to late receipt, after the Trustee
Sale, as well as the description is still not accurate to what is recorded with the Register of Deeds
(see Exhibit T to Admissions as to procedures to follow on “Corrective Affidavits”), and herein
there are further errors as to incorrect page nos. cited, and, more importantly, the description is to
state verbatim as to the DOT it relies on and does not.
5) The Note itself might be held defective as well by the Commissioner of Accounts’
stamp listing the foreclosure date as of November 7, 2015, whereas it should be December 7,
2015. And as further alleged by Hampton, the signature on this Note is believed to be forged.
6) Still further, PROF’s claim to the Probate Court Order affirming as “true” or
“accurate” as to the Accounting submitted by SIW, deceives this court as the Probate Court
Order specifically states that it does not approve on the “accuracy” of anything therein.
There is much more supporting evidence as can be seen in Hampton’s Amended List of
Exhibits & Witnesses, but this court should once again carefully review both Hampton’s
Admissions to PROF’s Discovery Requests and, even more particularly, PROF’s Admissions to
Hampton’s Discovery Requests and Exhibits A through T provided therein, where Hampton lays

12

App.133

out her case to be presented to her “jury trial,” where PROF denies most and challenges
Hampton to show proof, which she was prepared to do at the trial by jury.
Hampton’s allegations should be sufficient to state a bona fide claim that the foreclosure
sale and Trustee’s Deed could be set aside in equity, as well as all the Deeds on file. Hampton
has herein, as she would have before a jury, identified the requirements in the DOT that
constitute conditions precedent to foreclosure; has alleged facts that indicate the Trustee failed to
comply with those requirements and that no power to foreclose had accrued before or at the time
of foreclosure; and still further, not only was the foreclosure purchaser the wrong party to bid or
foreclose, but Fannie Mae - the true owner of the trust PROF - knew or should have known of
these defects.
Still further, should this Court deem all of the above to be “conclusions of law,” it is
Hampton’s belief that her jury would conclude, that by law, all of the above would be found as
true and all Deeds found void or invalid, and the foreclosure “wrongful.”
Hampton also refers your Honor to her “12-6-19 Notes for hearing on Bond Release,”
together with her submissions therein and herein request for a full and complete review in hopes
that you will draw the conclusion that PROF (a Trust of Fannie Mae’s) has deceived this court,
as it has deceived Hampton, and is not entitled to Summary Judgment, nor Demurrer, where
Hampton can show a preponderance of evidence to survive the same, and further the General
District Court’s decision was premature and Hampton should have never needed to appeal or
post an $8,000 Bond.
WHEREFORE, for all of the reasons previously submitted and further stated above, and
as supported in the exhibits attached hereto and those previously submitted, Hampton
respectfully requests this Court grant this Rehearing ... Mistrial, and/or to serve justice by

13

App. 134

placing this case back on the docket for a “fair” trial by jury and on its merits. Hampton should
not have to continue to defend her property from the “Unlawful Taking” by PROF, in violation
of her Constitutional Rights.
Respectfully submitted,

■->>x

L V

s

v*

Kathleen C. Hampton, Appellant pro se
Defendant/Counterclaim Plaintiff

14

App.135

CERTIFICATE OF SERVICE
I hereby certify that on December 20, 2019, a true copy of the foregoing Defendant's
Motion for Rehearing or in the Alternative Motion for a Mistiial Supporting Memorandum of
Law is being sent via first class US Mail, postage prepaid to:
Appellee
Plaintiff/Counterclaim Defendant
Lisa Hudson Kim, Esq.
SAMUEL I. WHITE, P.C.
596 Lynnhaven Parkway, Suite 200
Virginia Beach, Virginia 23452
Counselfor PROF-2013-S3 Legal Title Trust,
by US Bank National Association, as Legal Title Trustee
A'"

Kathleen C. Hampton, Appellant pro se
P.O. Box 154
Bluemont, Virginia 20135
540-554-2042

15

App. 136

•V
• *.

STATE OF VIRGINIA
COUNTY OF LOUDOUN

CERTIFICATION
I, Kathleen C. Hampton,, hereby certify that I am the Appellant in this action. I have read
the foregoing Defendant’s Motion for Rehearing or in the Alternative Motion for a Mistrial
Supporting Memorandum of Law and it is true of my own knowledge, except as to those matters
stated on information or belief, and as to those matters, I believe it to be true.
I declare under penalty of perjury under the laws of the Commonwealth of Virginia that
the foregoing is true and correct.
Date of execution: December 20, 2019

Kathleen C. Hampton, Appellant pro se
SWORN to and subscribed before me, this 20th day of December, 2019,

'-vIcul, g -n CvjjA,
NOTARY

My Commission Expires: 11 RM.

r
ffl ajL' Nk
I W, t
&

^

Mary E. McCauley
Commonwealth oi Virginia
h.'.tliiry Public
Commission No. 116683
My Commission Expires 1/31/2020

16

App.137

m THE CIRCUIT COURT OF LOUDOUN COUNTY
■

PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Appellee,
Plaintiff, Unlawful Detainer
Defendant. Counterclaim

j

i.

)

)
)
)
)
)
)

v.

) CL00118604-00, Unlawful Detainer
) CL00118605-00, Counterclaim

KATHLEEN C. HAMPTON
Appellant, pro se
Defendant, Unlawful Detainer
Plaintiff, Counterclaim

)
)
)
)

DEFENDANT* S MOTION FOR REHEARING
OR IN THE ALTERNATIVE MOTION FOR A MISTRIAL
COMES NOW, Appellant/Defendant/Counterclaim Plaintiff, Kathleen C. Hampton
(“Defendant” or “Hampton”), to submit Defendant's Motion for Rehearing or in the Alternative
Motion for a Mistiial on Summary Judgment and Demurrer judgments at the hearing of October
18, 2019, and further reserves the right to file a subsequent Supporting Memorandum of Law,
and states as follows:
First, Hampton wishes to advise that opposing counsel has via e-mail only on November
8, 2019, supplied her with a copy of the transcript of the Summary Judgment hearing (attached
hereto), and to date Plaintiff has not “circulated” this transcript nor the proposed “Final Order,”
and accordingly, this motion is filed as that transcript clearly demonstrates that the court did not
consider the entire record on appeal, and especially the Bill of Particulars filed by Plaintiff, and
Defendant’s Grounds of Defense, and instead relied on Defendant’s initial Counterclaims and
Sanctions as filed two years ago, while her case was still active in the courts and still developing
S X 7~~
App. 138

1

in the General District Court. It should be noted here too that the prior state case was only
recently denied by the U.S. Supreme Court on October 7, 2019, but did not affirm the lower
courts decisions. Thus, it would seem to Hampton that the General District Court’s decision to
award possession on November 14, 2018, was also premature and again should have been
dismissed without prejudice re Parrish.
It is Defendant’s Grounds of Defense which this court should have consulted in this
appeal, and, from the District Court’s decision, it appears that court also failed to consult the
same, particularly given the evidence already presented to the court and of record herein. And as
noted on page 3 thereof, Hampton’s Response to Plaintiffs Motion for Summary Judgment in the
General District Court, where she was not required to file a response (as dismissed below), but
Hampton “did so in order to set the record straight, since SIW was trying to prevent Hampton
from even defending herself, misconstruing nearly all the facts on record and attempting to paint
an unfair picture of Hampton. ... Hampton interprets this to be ‘an obstruction of justice’
and is, at minimum, ‘questionable’ or ‘unethical’ as to counsel.” (emphasis added)
Further to Hampton’s Grounds of Defense, it should be noted on page 10 under
Conclusion and Prayers for Relief, Hampton “prays that this Court award Hampton by voiding
those documents on file in our Court records, including the Assignment of Substitute Trustee,
Deed of Assignment, Deed of Foreclosure, and all other documents filed on behalf of PROF, as
being invalid. ... or do any further harm to Hampton as against her property, her reputation, and
her physical, mental and financial well being.”
It appears from the transcript that the court has based their judgment on what transpired
at the hearing itself, where the court stated “I’m not here today to hear and decide a closing
argument in a case ... so the issue on summary judgment ... are there any genuine disputes of

2

App. 139

material facts. ... the most important words for this analysis is material facts, (page 5, lines 1322) Continuing on page 8, line 15 (at the top) “So when we examine the record properly in this
case of matters that can be considered on summary judgment, including admissions, we have
listed as Exhibit 1 to the motion for summary judgment the deed of foreclosure which was
referenced in the request for admissions ... And among the responses to that is Ms. Hampton’s
admission that it’s a true copy of what Samuel I White filed in the county records ... Those
matters being admitted in the court’s view leave no material issue in genuine dispute because
they conclusively demonstrate as a matter of law that Prof is entitled to possession of the subject
property under the unlawful detainer statute.” (emphasis added)
Yes, Hampton takes issue with this where clearly she has provided sufficient evidence in
her exhibits, as well as in Admissions to Discovery Requests from both sides, for this court to
determine that the documents of Deed of Foreclosure, as well as the Assignment of the Deed of
Trust, which it is based upon, are materially defective. It appears from the transcript that the
court has based its decision on what was presented at hearing only, and has ignored the evidence
in the exhibits and Admissions. What does it take to prove that there is a material dispute or a
defective Deed, or what does it take to survive a Demurrer where clearly the evidence shows that
before a trial by jury, Hampton would have prevailed with a preponderance of the evidence.
There is no justice in dismissing on Demurrer, where the evidence can prove otherwise. It is
PROF who fears this outcome, because surely they would not survive a trial by jury. And
according to their Admissions, have challenged Hampton on the same. But if you look more
clearly, they wish to prevent all evidence, including witnesses, as they have objected to the same.
Again, Hampton considers this to be an “obstruction of justice.” And this court has failed
Hampton on her rights to defend her property from the “unlawful taking” of the same against her

3

App. 140

Constitutional Rights to Due Process, and this court has failed in protecting Hampton from the
same.
Although Hampton, prior to receiving the e-mail with a copy of the transcript attached,
had filed her Motions for Reconsideration, based on her recollection at the hearing, Hampton
believes those motions and reconsiderations should be considered herein, together with their
attachments thereto.
It is clear from the transcript that the court did not review all documentation on file,
where particularly in Hampton’s Response to Summary Judgment and Demurrer, Hampton was
specific in her “submitted” Admissions to PROF’s Discovery Requests that the documents on
file were, in fact, defective and those material facts were in dispute and, thus, PROF was not
entitled to judgment as a matter of law. It appears that Hampton’s filed Response and her
“submitted” attachments thereto, which also included the Admissions of PROF to Discovery
Requests, which read more on denials, together with Hampton’s exhibits, were not considered by
the court. Clearly, the Admissions and Exhibits demonstrated that there were defects to those
documents, as well as to the procedure leading up to and including those documents with regard
to possession. And Hampton knows that she would have prevailed at a trial by jury.
Further, as to the Demurrer in the lower court there was none and no Demurrer filed
herein admits to any truths or allegations as can be seen from again the Admissions.
Hampton did not file an Appeal and post an “unaffordable Bond of $8,000” (for
which she has two additional years to pay on and comprises 176th of her social security income),
in addition to the “unrefundable” retainer fee of $1,500 for an expert witness, where the
trial was dismissed based on these wrongful Summary Judgment and Demurrer filings, and
where Plaintiff seeks to impose a further bond on Appeal from this court on Property which they

4

App. 141

have no right to and have never had a right to possession, to be DENIED her “Trial by Jury.”
According to Code of Virginia 8.01-129, “Trial by jury shall be had upon application of any
party.” Hampton appealed the lower court decision, knowing she would prevail before a jury
trial, but has been denied her most basic rights of what the judicial system is designed to do
and that is, let justice prevail. And this denial has come at a very costly expense to her and her
welfare, not to mention her reputation and her physical, mental and financial well being.
This trial court, while still awaiting the proposed Final Order and the transcript of the
judgment from the hearing of October 18, 2019, should consider this motion on the grounds that
the fairness of the trial was infected by improper evidence as Plaintiff argued that the Admissions
of Hampton were clear admissions of fact, and where from those Admissions, it can be seen that
Hampton denied as “true” Plaintiff’s Exhibits since they are defective and inaccurate, and only
admitted to their “wrongful” filing of the same in the court system.
Hampton had requested and the court permitted a trial by jury, but has been deprived of
proving to the court that their bench trials have been improper, unfair, and unconstitutional given
the facts and evidence herein. Clearly, these rulings are unconstitutional! And it would appear to
Hampton that a criminal, which she is not, has every right to a trial by jury, but Hampton’s has
been dismissed and not permitted to be tried by jury, but instead by a single judge.
Hampton has not committed a crime, but this court is doing so by allowing these
criminals (SIW, Fay, PROF, and whoever else identified or not) to unlawfully take my home
against my Constitutional rights to defend the same and my entitlement to procedural due
process and the protections of the law. Hampton believes that Demurrers to non-judicial
foreclosures should be banned as Unconstitutional!

5

App. 142

WHEREFORE, for all of the reasons stated above, and as supported in the copy of the
transcript attached hereto, and Hampton’s further Supporting Memorandum of Law,

io come.

Hampton respectfully requests this Court grant this Rehearing, and/or to serve justice by placing
this case back on the docket for a “fair” trial by jury and on its merits. Hampton should not have
to continue to defend her property from the “Unlawful Taking” by PROF, in violation of her
Constitutional Rights.
Respectfully submitted,

A. y -•

Kathleen C. Hampton, Appellant pro se
Defendant/Counterclaim Plaintiff

6

App. 143

CERTIFICATE OF SERVICE
I hereby certify that on November 18, 2019, a true copy of the foregoing Defendant's
Motion for Rehearing or in the Alternative Motion for a Mishial is being sent via first class US
Mail, postage prepaid to:
Appellee
Plaintiff/Counterclaim Defendant
Lisa Hudson Kim, Esq.
SAMUEL I. WHITE, P.C.
5040 Corporate Woods Drive, Suite 120
Virginia Beach, Virginia 23462
Counselfor PROF-2013-S3 Legal Title Trust,
by US Bank National Association, as Legal Title Trustee

Kathleen C. Hampton, Appellant pro se
P.O. Box 154
Bluemont, Virginia 20135
540-554-2042

7

App. 144

STATE OF VIRGINIA
COUNTY OF LOUDOUN
CERTIFICATION
I, Kathleen C. Hampton, hereby certify that I am the Appellant in this action. I have read
the foregoing Defendant's Motion for Rehewing or in the Alternative Motion for a Mistrial and
it is true of my own knowledge, except as to those matters stated on information or belief, and as
to those matters, I believe it to be true.
I declare under penalty of perjury under the laws of the Commonwealth of Virginia that
the foregoing is true and correct.
Date of execution: November IS, 2019

Kathleen C. Hampton, AppejMntpro se
SWORN to and subscribed before me, this 18th day of November, 2019.

[)Anun'hdo<*r\
My Commission Expires:

NOTARYbeptdy Ckrfc.

8

App. 145

fv

IN THE CIRCUIT COURT OF LOUDOUN COUNTY

PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Appellee,
Plaintiff, Unlawful Detainer
Defendant, Counterclaim

)
)

r;.

)
)

o

o:

)
)
)

v.

) CL00118604-00, Unlawful Detainer
) CL00118605-00, Counterclaim

KATHLEEN C. HAMPTON
Appellant*/vo se
Defendant, Unlawful Detainer
Plaintiff, Counterclaim

)
)
)
)

MOTION FOR RECONSIDERATION
OF FURTHER SUPPORT TO MEMORANDUM OF LAW
TO THE HONORABLE STEPHEN E. SINCAVAGE
COMES NOW, Appellant/Defendant/Counterclaim Plaintiff, Kathleen C. Hampton
(“Defendant” or “Hampton”), to submit her Motion for Reconsideration of Further Support to
Memorandum of Law, as follows:
As previously stated in Motionfor Reconsideration filed October 25, 2019:
“Hampton’s case is a clear case under Parrish, wherein the Trustee’s Sale was not
valid, since neither PROF nor Fay had power to assign or conduct the same, but did so;
title was challenged judicially prior to foreclosure; facially the Deeds are defective; and
yes, a court of equity should set aside the same; and further res judicata does not apply
where the prior suit never ruled on the “merits,” and further never ruled on the
Foreclosure or the Unlawful Detainer Counts and never addressed the same therein.
These are not “naked allegations” and this court should recognize the same and follow
through with adjudicating title, because the title is not valid at law and should be set aside
by a court in equity.
Wherein this Court should have either conducted a de novo trial by jury, including
the new issues raised supporting further the void ah initio DOT, adjudicated the deeds on
i

App.146

file, and set aside the “wrongful” foreclosure, or, if not allowing the de novo trial to
proceed, should have dismissed without prejudice and PROF should have to file their
claim in the Circuit Court, as the Unlawful Detainer is only “lawful” if PROF had a right
to foreclose, which they did not; and as is evident from that which Hampton has already
submitted herein, particularly in Hampton’s Discoveiy Requests, with evidence/exhibits,
and PROF’s responses thereto.
There is no justice on dismissing on Demurrer, where clearly with the evidence
raised and the dismissal based on the Demurrer in a prior case, which were wrong since
Judge Irby did not “seek the truth of the allegations,” was completely confused as to void
ah initio DOT, and Property Description requiring a “Corrective Affidavit,” and did not
rule on Count VIII Wrongful Foreclosure or on Count XII the Unlawful Detainer, and
dismissed on Demurrer as to all counts, as a housekeeping matter.
PROF has been so eager to provide the entire Second Amended Complaint with
their Opposition to Hampton's Motion to Dismiss without Prejudice, together with most
prior court Orders and PROF’s prior Demurrer thereto, which once again claim they
could not find anything to defend, and where they never addressed the wrongful
foreclosure, nor the unlawful detainer, in their Demurrer.
Clearly, this Court failed to review the Counts to Hampton’s Second Amended
Complaint, together with the transcript of Judge Irby’s ruling, which Hampton includes
herein, and at the very base of Hampton’s claim re void ah initio DOT, Hampton points
to the transcript page 38, beginning at line 20, where Judge Irby rules: “I find that the
claim allegations with respect to the DOT was altered is without merit. Plaintiff’s own
exhibits reveal that the DOT was re-recorded in October of 2005 to correct the legal
description. Plaintiff did not specifically state how the DOT was allegedly altered, who,
when it was altered, or who altered it. ... There’s no cognizable cause of action for an
alteration for a DOT and Property Description.” Clearly, Judge Irby failed to read all
allegations and exhibits since the evidence/exhibits were clearly explained. ...
This Court on Appeal, should have consulted with the transcript as well as
Hampton’s Motion for Reconsideration and Memorandum in Support of Motion for
Reconsideration, also provided herein, that states in detail why Judge Irby’s rulings
“failed to consider or misinterpreted as to some of the evidence submitted supporting
Plaintiffs allegations.”
This Court should have never considered Demurrers herein, where the prior
Demurrers never addressed all applicable issues, nor did the court rule on those issues or
claims, and further misinterpreted most of the evidence thereto, and no res judicata or
other doctrine should apply, as never ruled on specifically to this Unlawful Detainer, nor
the underlying Wrongful Foreclosure therein.
How can this court turn a blind eye to the wrongful foreclosure and the Deeds
which should be voided regarding the same, particularly with the evidence which proves
the same?”
2

App.147

In further support ofHampton’s Reconsideration, Hampton is providing the 209 pages of
evidence/exhibits that were part of the Second Amended Complaint by permitted reference from
th eFirst Amended Complaint, which is the bulk of the real proof or evidence of the wrongdoing
as laid out in that prior case (Hampton v PROF-2013 Legal Title Trust et ah CA 98163). This
Court can take judicial notice of the First Amended Complaint Exhibits (before it was combined
in the Second Amended Complaint, with that of the U.S. Federal District Court case, filed before
foreclosure), pursuant to Virginia Code 8.01-389 (1950, as amended) and Rule 2-201 of The
Rules of the Supreme Court of Virginia. Since PROF has already supplied the Second Amended
Complaint as previously mentioned, it was felt that Your Honor should have the full package and
evidence/exhibits referenced in that prior complaint.
WHEREFORE, for all of the reasons stated above, and supported in this further
attachment heieto, Hampton respectfully requests this Court’s further Reconsideration, and to
serve justice by either placing this case back on the docket for a “fair” trial by jury and on its
merits, or dismiss this case without prejudice, which should have been done in the General
District Court. PROF may file their claim in Circuit Court or perhaps they will come to the
settlement table as they should have done ten (10) years ago. Hampton should not have to
continue to defend her property from the “Unlawful Taking” by PROF, in violation of her
Constitutional Rights.
Respectfully submitted,

A

A

^—S'?

Kathleen C. Hampton, Appellant pro se
Defendant/Counterclaim Plaintiff

3

App.148

CERTIFICATE OF SERVICE
I hereby certify that on November 1, 2019, a true copy of the foregoing Motion for
Reconsideration of Further Support to Memorandum of Law to the Honorable Stephen E.
Sincavage, with attachments, is being sent via first class US Mail, postage prepaid to:
Appellee
Plaintiff/Counterclaim Defendant
Lisa Hudson Kim, Esq.
SAMUEL I. WHITE, P.C,
5040 Corporate Woods Drive, Suite 120
Virginia Beach, Virginia 23462
Counsel for PROF-2013-S3 Legal Title Trust,
by US Bank National Association, as Legal Title Trustee
/

Kathleen C. Hampton, Appellant pro se
P.O.Box 154
Bluemont, Virginia 20135
540-554-2042

4

App. 149

STATE OF VIRGINIA
COUNTY OF LOUDOUN
CERTIFICATION
I, Kathleen C. Hampton, hereby certify that I am the Appellant in this action. I have read
the foregoing Motion for Reconsideration of Further Support to Memorandum of Law to the
Honorable Stephen E. Sincavage and it is true of my own knowledge, except as to those matters
stated on information or belief, and as to those matters, I believe it to be true.
I declare under penalty of perjury under the laws of the Commonwealth of Virginia that
the foregoing is true and correct.
Date of execution: November 1, 2019

Kathleen C. Hampton, Appellant pfo se
SWORN to and subscribed before me, this 1st day of November, 2019.

\

NOTAEWf

My Commission Expires:

<U4tl'2A
U‘

a

If:

5

App. 150

'

VIRGINIA
•* r

•

IN THE CIRCUIT COURT OF LOUDOUN COUNTY

PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Appellee,
Plaintiff, Unlawful Detainer
Defendant, Counterclaim

)

)
>
)
)
>
>

v.

)
)

KATHLEEN C. HAMPTON
Appellant, pro se
Defendant, Unlawful Detainer
Plaintiff, Counterclaim

)

CL00118604-00, Unlawful Detainer
CL00118605-00, Counterclaim

)
)
)

MOTION FOR RECONSIDERATION
AND SUPPORTING MEMORANDUM OF LAW
TO THE HONORABLE STEPHEN E. SINCAVAGE
COMES NOW, Appellant/Defendant/Counterclaim Plaintiff, Kathleen C. Hampton
(“Defendant” or “Hampton”), to submit her Motion for Reconsideration and Supporting
Memorandum ofLaw', as follows:
First, the General District Court erred in not dismissing this case without prejudice and
causing Hampton to further appeal to this court, with the burden of imposing an $8,000 bond on
Hampton, wherein this court cannot under Parrish rule on the same. The General District Court
should have dismissed the same and PROF would have had to bring a suit against Hampton in
the Circuit Court, wherein Hampton, as a defendant, would still have been entitled to a trial by
jury and been permitted to bring in all of her evidence and witnesses, and further where there
would be no Demurrer or resjudicata or other doctrine barring the same.
1

0??fA/£/X

/

App.151

As argued on November 14, 2018, in General District Court:
“Your honor, I would like to address the court, this is the 12th time that I have appeared
in this court over what I consider to be a “Wrongful” Unlawful Detainer, where I have
called into question not only the validity of the foreclosure, but the validity of the Deed
of Foreclosure and all Assignments leading up to it, including the Deed of Trust, and
PROF’s claim to my property by Wrongful Foreclosure conducted Dec. 7,2015, where I
had already challenged that foreclosure via filing suit Dec. 4, 2015, prior to that
foreclosure, where Samuel I. White on behalf of PROF should have been barred from
proceeding.
As pled before the Supreme Court 10-16-18, the Circuit Court should have found
predatory lending, a void ab initio Deed of Trust and the “Cloud on Title” evident
requiring a “Corrective Affidavit” and clearly with the violation of the Consent Orders
with the OCC/US Treasury, a “wrongful foreclosure” had occurred and, more
particularly, I had exercised my rights to file suit before the same challenging the
foreclosure, which SIW on behalf of Fay/PROF ignored. ...
... I shall continue to fight for my due process rights to defend my property from its
unlawful taking by PROF.
Meanwhile, it is my request herein that this court refuse to entertain this unlawful
detainer case any further and dismiss this case based on that fact that I have raised bona
fide dispute of title from the foreclosure sale. And, specifically, in Parrish v. Federal
National Mortgage Association, 292 Va. 44, 787 S.E.2d 116 (2016), the Supreme Court
of Va. held that, where a borrower raises a bona fide question as to the validity of title in
a case originally filed in the General District Court (or subsequently appealed to the
Circuit Court from the General District Court), the case must be dismissed without
prejudice because the General District Court lacks original subject matter jurisdiction to
adjudicate the validity of title. This Court had admitted on 8-3-18 that it could not
invalidate the Deed of Foreclosure or any other deeds on record and further there was no
recordation of trial. In these circumstances, I have alleged facts sufficient to place the
validity of the trustee’s deed in doubt. In such cases, the General District Court’s
lack of subject matter jurisdiction to try title supersedes its subject matter
jurisdiction to try unlawful detainer and the court must dismiss the case without
prejudice. (Hampton’s emphasis added)
Additionally, in two cases, Ramos v. Wells Fargo Bank, 770 S.E.2d 491 (2015) and
Mathews v. PHHMortgage Corp283 a. 723, 724 S.E.2d 196 (2012), the Supreme Court
of Virginia confirmed that any challenge to a foreclosure based on the pre-foreclosure
conduct of the lender must be filed before the foreclosure sale has taken place, if the
borrower wants to avoid a foreclosure sale. Clearly, I had filed my first suit Dec. 4,2015,
2

App. 152

prior to the foreclosure of Dec. 7, 2015, which foreclosure should be found “wrongful”
and/or “void” by the fact that I have filed before the foreclosure action took place.”
Clearly, the General District Court erred in awarding possession and imposing a bond of
$8,000 on Hampton should she appeal the same, where again the General District Court’s lack
of subject matter jurisdiction to try title “supersedes” its subject matter jurisdiction to try
unlawful detainer and the court must dismiss the case without prejudice.
Here, again, where Hampton filed her Motion to Dismiss in this Circuit Court on Appeal,
realizing that she may not be afforded a fair trial based on the merits of her case, the undeniable
evidence and the testimony to support the same, she was denied the same primarily on the basis
of not surviving a Demurrer in her prior suit, which was against far more than just PROF, and on
far more issues than just the Unlawful Detainer. Why Was Hampton lead to believe she could
have a fair trial (one of record) in this Court and reviewed de novo, where in fact she was
imposed with an $8,000 bond to appeal, and where this Court will not entertain that fair trial by
jury? Obviously, this court should have again dismissed this case without prejudice and PROF
should have filed their suit against Hampton in a separate action before a court of equity and of
record.
Hampton’s case is a clear case under Parrish, wherein the Trustee’s Sale was not valid,
since neither PROF nor Fay had power to assign or conduct the same, but did so; title was
challenged judicially prior to foreclosure; facially the Deeds are defective; and yes, a court of
• equity should set aside the same; and further res judicata does not apply where the prior suit
never ruled on the “merits,” and further never ruled on the Foreclosure or the Unlawful Detainer
Counts and never addressed the same therein. These are not “naked allegations” and this court
should recognize the same and follow through with adjudicating title, because the title is not
valid at law and should be set aside by a court in equity.
3

App.153

Wherein this Court should have either conducted a de novo trial by jury, including the
new issues raised supporting further the void ab initio DOT, adjudicated the deeds on file, and
set aside the “wrongful” foreclosure, or, if not allowing the de novo trial to proceed, should have
dismissed without prejudice and PROF should have to file their claim in the Circuit Court, as the
Unlawful Detainer is only “lawful” if PROF had a right to foreclose, which they did not; and as
is evident from that which Hampton has already submitted herein, particularly in Hampton’s
Discovery Requests, with evidence/exhibits, and PROF’s responses thereto.
There is no justice on dismissing on Demurrer, where clearly with the evidence raised
and the dismissal based on the Demurrer in a prior case, which were wrong since Judge Irby did
not “seek the truth of the allegations,” was completely confused as to void ab initio DOT, and
Property Description requiring a “Corrective Affidavit,” and did not rule oh Count VIII
Wrongful Foreclosure or on Count XII the Unlawful Detainer, and dismissed on Demurrer as to
all counts, as a housekeeping matter.
PROF has been so eager to provide the entire Second Amended Complaint with their
Opposition to Hampton’s Motion to Dismiss without Prejudice, together with most prior court
Orders and PROF’s prior Demurrer thereto, which once again claim they could not find
anything to defend, and where they never addressed the wrongful foreclosure, nor the unlawful
detainer, in their Demurrer.
Clearly, this Court failed to review the Counts to Hampton’s Second Amended
Complaint, together with the transcript of Judge Irby’s ruling, which Hamptonjncludes herein,
and at the very base of Hampton’s claim re void ab initio DOT, Hampton points to the transcript
page 38, beginning at line 20, where Judge Irby rules: “I find that the claim allegations with
respect to the DOT was altered is without merit. Plaintiffs own exhibits reveal that the DOT was

4

App. 154

$

re-recorded in October of 2005 to correct the legal description. Plaintiff did not specifically state
how the DOT was allegedly altered, who, when it was altered, or who altered it. ... There’s no
cognizable cause of action for an alteration for a DOT and Property Description.” Clearly, Judge
Irby failed to read all allegations and exhibits since the evidence/exhibits were clearly explained.
Further, it is this very alteration of the DOT, as Hampton has raised in this Appeal, and as
submitted to the Supreme Court of the US that makes the DOT void ab initio:
“Petitioner believes this Superior Court should request a response of Bank of America,
N.A., Fannie Mae, and Countrywide Home Loans, Inc. (“CW”) (“Bank Defendants”),
particularly since the loan origination began with predatory loans dating back to 2005,
and resulting in the subject predatory re-finance loan of 2006, and the Deed of Trust,
which accompanied it, which should be found void ab initio.
Further, in investigations pending in the Virginia Office of Attorney General,
Predatory Lending Unit, Hampton has learned more violations to the Deed of Trust:
As to Countrywide (“CW”) and the origination of Hampton’s loans:
Under Code of Virginia Section 6.2-1629. Prohibited practices; authority of the
Attorney General: A. ... no person that is engaged in the business of originating
residential mortgage loans in the Commonwealth shall use any deception, fraud,
false pretense, false promise, or misrepresentation in connection with a
mortgage loan transaction, (emphasis added; also under [B] Code 59.1-9.10
from 2000 with slight rewording)
Hampton was deceived, fraud is evident in the transaction staged with HSBC, and she
was sold a re-finance loan they clearly knew was subprime and/or unaffordable.
CW’s wrongdoing, once again, is further evidenced in the Deed of Trust, where:
“Under Code of Virginia Section 6.2-1614. Prohibitions applicable to mortgage
lenders and mortgage brokers. No mortgage lender ... shall
1. Obtain any agreement or instrument in which blanks are left to be filled in
after execution; ... 5. ... submitting false information in connection with an
application for the mortgage loan, breaching any representation or covenant
made in the agreement or instrument, or failing to perform any other
obligations undertaken in the agreement or instrument; ... 7. Knowingly or
intentionally engage in the act or practice of refinancing a mortgage loan
within 12 months following the date the refinanced mortgage loan was
5

App.155

originated, unless the refinancing is in the borrower’s best interest ...”
(emphasis added)
Clearly, the blanks in the DOT at time of signing the same were a violation of the above.
The blanks referred to page nos. of the re-financed [subprime] loans, and were never
filled in thereafter and, in fact, they were struck through as if it were not a re-finance,
concealing the fact that CW was not entitled to a prepayment penalty for an in-house
refinance, in addition to the fraud and deceit in recorded documentation with the Clerk’s
Office, in support of Hampton’s claim to a void ab initio DOT. Notable also is this
refinance was done within 11 months and was not in Hampton’s best interest, since it was
set to fail, as clearly it was “unaffordable.
In addition, Hampton’s loan increased by nearly $17,000 for a re-finance, recorded
NOT as a re-finance and without cash out.
As to the re-recorded DOT in October of 2005, that re-recorded DOT only corrected the
acreage listed from 27 plus acres described to the 5.24 acres conveyed. Along with the refinance
of 2006, CW further altered that corrected property description, which obviously Judge Irby had
consulted with the wrong exhibits, and further to all those recorded DOTs, they still had the
wrong “metes and bounds” description of the property requiring still further the “Corrective
Affidavits,” which were required as to all the deeds on record. And which Samuel I. White in the
Deed of Foreclosure altered the property description to what he had approved in the “Corrective
Affidavit,” which required his approval since he was the original Trustee, and obviously the new
(still wrong) description does not convey that of the DOT, which is required to state verbatim
that which is being conveyed. Further still all Deeds require the “Corrective Affidavits.” Judge
Irby had not consulted with all the exhibits, which clearly could show the need for the same, and
it was clear she was confused as to the same being already corrected in 2005.
As to Judge Irby’s ruling on page 42, beginning line 15, “Count VIII, Lack of Standing to
Foreclose, Wrongful Foreclosure as to BofA, PROF, Fay and White. The Plaintiff argues that
Countrywide and its successors lacks the power of exercise on behalf of the PSA. The Plaintiff
6

App. 156

furthermore disputes the validity of the assignment of the DOT. The Plaintiff admits in her
pleadings that she does not allege specifically to each defendant as to their actions are
accountable.” Judge Irby does not rule hereon and moves on to the next count.
On page 44, line 21 through page 45, line 1, Judge Irby leaves off with sustaining the
Demurrer to Count X with prejudice and without leave to amend. Judge Irby never made a ruling
on the Wrongful Foreclosure, only citing what the claim was, and never ruled on the Count XI Fraud with the IRS and Count XII - Unlawful Detainer.
It does appear from the Judge’s rulings that she followed along with whatever PROF’s
counsel had said, both at hearing and in their Demurrer, and the judge failed to address the
“allegations as truth,” finding no cause of action, no cognizable claim, no fraud pled with
specificity, and barred by the statute of limitations. Still further she never addressed the Pleas for
Judicial Notice, which clearly showed that: the wrong party foreclosed; both banks had violated
their Consent Orders with the OCC/US Treasury to follow the remedies of the IFR Remedial
Framework they were mandated to follow, including rescission of the foreclosure and offering
the HAMP modification, based on approval back in July 29, 2009; SEC Attestation that showed
no registration by PROF, thus not secured by the DOT; and further, documentation showing
when Statute of Limitations began.
So in that prior case, where perhaps no such claim might have been heard in this state
before, the Judge failed to “seek the truth of the allegations” and violated Hampton’s due process
rights, by prematurely sustaining the Demurrers and not allowing Discovery with her Pleas for
Judicial Notices. This was a clear case, which should have set legal precedence, since there has
never been a case with as many torts, and violations of Codes and violations of all precedents to

7

App.157

the DOT being fulfilled prior to exercising the power of foreclosure, as well as wrong party
proceeding.
Further, as pled before this court and the Supreme Court of the US:
“Pertinent constitutional and statutory provisions were set forth in the Appendix
to Hampton’s Petition (App. N), which Hampton draws this Court’s attention to the last
paragraph on the last page thereof:
“The party secured by the deed of trust, or the holders of greater than fifty percent
of the monetary obligations secured thereby, shall have the right and power to
appoint a substitute trustee or trustees. The instrument of appointment shall be
recorded in the office of the clerk wherein the original deed of trust is recorded
prior to or at the time of recordation of any instrument in which a power,
right, authority or duty conferred by the original deed of trust is exercised.”
(emphasis added)
Here, PROF appointed a substitute trustee, while they did not own the loan nor were they
secured by the DOT, as it had been sold to PRMF Acquisitions on June 19, 2015 (and not PROF
as indicated in Fay’s. 404 Notice), and exercised a “power, right, authority or duty conferred by
the original deed of trust” without being assigned the same or recording the same “in the office
of the clerk wherein the original deed of trust was recorded.” This is but one merit to Hampton’s
case that was pled and Judicially Noticed. Thus, wrong party appointed a substitute trustee and
could not make claim to being secured by the Deed of Trust, nor had an Assignment of the Deed
of Trust been made to them prior to exercising foreclosure and still further, PROF could only
bring in loans 90 days within their closing date sometime back in 2013.
Where further shown in the Bloomberg Audit Reports Highlights taken from pages 24-31
of the Second Amended Complaint:
“Bloomberg Loan Securitization Audit Report HIGHLIGHTS
1. There is no evidence on Record to indicate that the Mortgage was ever transferred
concurrently with the purported legal transfer of the Note, such that the Mortgage
8

App. 158

and Note has been irrevocably separated, thus making a nullity out of the
purported security in a property, as claimed.” ...
•

Although MERS records an assignment in the real property records, the
promissory note which creates the legal obligation to repay the debt has not been
transferred nor negotiated by MERS.” ...

•

MERS is not a party to the alleged mortgage indebtedness underlying the security
instrument for which it serves as “nominee”. ...

The loan was originally made to Countrywide Home Loans, Inc. and may have
been sold and transferred to Fannie Mae Remic Trust 2006-67. There is no record of
Assignments to either the Sponsor or Depositor as required by the Pooling and
Servicing Agreement.
In Carpenter v. Longan 16 Wall. 271,83 U.S. 271, 274, 21 L.Ed. 313 (1872), the U.S.
Supreme Court stated “ The note and mortgage are inseparable; the former as
essential, the latter as an incident. An assignment ofthe note carries the mortgage
with it, while assignment of the latter alone is a nullity. ”
An obligation can exist with or without security. With no security, the obligation
is unsecured but still valid. A security interest, however, cannot exist without an
underlying existing obligation. It is impossible to define security apart from its
relationship to the promise or obligation it secures. The obligation and the
security are commonly drafted as separate documents - typically a promissory
note and a Mortgage. If the creditor transfers the note but not the Mortgage, the
transferee receives a secured note; the security follows the note, legally if not
physically. If the transferee is given the Mortgage without the note
accompanying it, the transferee has no meaningful rights except the possibility of
legal action to compel the transferor to transfer the note as well, if such was the
agreement. (Kelley v. Upshaw 91952) 39 C.2d 179,246 P.2d 23; Polhemus v.
Trainer (1866) 30C 685).
“Where the mortgagee has “transferred” only the mortgage, the transaction is a nullity
and his “assignee” having received no interest in the underlying debt or obligation,
has a worthless piece of paper (4 Richard R. Powell), Powell on Real Property, §
37.27 [2] (2000).
By statute, assignment of the mortgage carries with it the assignment of the debt...
Indeed, in the event that a mortgage loan somehow separates interests of the note and
the Mortgage, with the Mortgage lying with some independent entity, the mortgage
9

App.159

may become unenforceable. The practical effect of splitting the Mortgage from the
promissory note is to make it impossible for the holder of the note to foreclose, unless
the holder of the Mortgage is the agent of the holder of the note. Without the agency
relationship, the person holding only the trust will never experience default because
only the holder of the note is entitled to payment of the underlying obligation. The
mortgage loan becomes ineffectual when the note holder did not also hold the
Mortgage.”
Thus, Hampton’s claim to no one having a right to foreclose, where MERS assigned the
DOT to BANA when it should have assigned to Fannie Mae and then Fannie Mae could
have assigned servicing to BANA. Here there has been a patently clear separation of the
Note and the Mortgage, making a nullity out of the latter. And further, the Note has lost its
security of the DOT, and thus, no Noteholder has a right to foreclose.
This Court on Appeal, should have consulted with the transcript as well as Hampton’s
Motion for Reconsideration and Memorandum in Support of Motion for Reconsideration, also ^
provided herein, that states in detail why Judge Irby’s rulings “failed to consider or
misinterpreted as to some of the evidence submitted supporting Plaintiffs allegations.”
This Court should have never considered Demurrers herein, where the prior Demurrers
never addressed all applicable issues, nor did the court rule on those issues or claims, and further
misinterpreted most of the evidence thereto, and no res judicata or other doctrine should apply,
as never ruled on specifically to this Unlawful Detainer, nor the underlying Wrongful
Foreclosure therein.
How can this court turn a blind eye to the wrongful foreclosure and the Deeds which
should be voided regarding the same, particularly with the evidence which proves the same?
Again, this court has denied Hampton her due process rights to her 3-day trial by Jury
this week, where it is believed by the end of the same, Hampton would have proven by a
preponderance of evidence that PROF has never been entitled to the remedy of foreclosure, since
10

App. 160

at no point in time were they secured by the DOT, and as no right to Assign a Substitute Trustee
and proceed with a foreclosure action had accrued, and thus was a “wrongful” foreclosure,
particularly since Hampton had filed suit prior to the same to stop the same, and further not all
conditions precedent to the DOT were fulfilled prior to proceeding.
This Appeal scheduled for a three (3)-day Trial by Jury for October 21-23, 2019, which
was ordered on February 4, 2019, over eight months ago. Also ordered at that time was the
Uniform Pretrial Scheduling Order setting Pretrial Conference for September 20, 2019, and the
following orders applied:
“V. Dispositive Motions: All dispositive motions shall be presented to the court for
hearing as far in advance of the trial date as practical. All counsel of record are
encouraged to bring on for hearing ail demurrers, special pleas, motions for summary
judgment or other dispositive motions 60 days after being filed.”
PROF had more than ample time to bring on any dispositive motions “as far in advance of the
trial date as practical,” since February 4, 2019, wherein the Uniform Pretrial Scheduling Order
was set, and should have further done so prior to and concluded by the Pretrial Conference date
of September 20,2019.
“VII. Pretrial Conferences: Pursuant to Rule 4:13 of the Rules of the Supreme Court of
Virginia, when requested by any party or upon its own motion, the court may order a
pretrial conference wherein motions in limine, settlement discussions or other
pretrial motions which may aid in the disposition of this action can be heard.”
Again PROF’s motions should have been brought on earlier and disposed of or concluded by
Pretrial Conference.
“VIII. Motions In Limine: Absent leave of court, any motion in limine which requires
argument exceeding five minutes shall be duly noticed and heard before the day of trial.”
Again, see VII above “wherein motions in limine, settlement discussions or other pretrial
motions which may aid in the disposition of this action can be heard.”
11

App.161

Hampton had hoped that as a dispositive matter, her Motion to Dismiss might be
considered at the Pretrial Conference. However, at that Pretrial Conference, the Honorable Judge
Sincavage advised that would be unfair notice to PROF and, after consulting with counsel on
time needed to respond, set September 27, 2019, as a response date for PROF’s reply thereto,
one week before the hearing on the same October 4, 2019. Judge Sincavage also advised both
Hampton and counsel that two motions could not be heard on the same day, and since
Hampton’s Motion to Dismiss took priority, she left it on the motions hearing date of October 4,
2019. Further to this, Hampton’s Motion to Compel Discovery had to be dismissed for motions
day of October 4, 2019, and re-praeciped for scheduling date of September 30, 2019, which
motion was particularly in response to PROF’s answers to Discovery Requests, and which
Hampton needed in order to aid her in preparation for trial.
On September 30, 2019, the hearing for the Motion to Compel Discovery was set for
Tuesday, October 15, 2019, less than a week before trial. Had both motions been heard on
October 4, 2019, Hampton might have been afforded those Discovery Requests to aid her in
preparation for trial and where the court found Hampton could have subpoenaed witnesses and
documents, but October 15, 2019, was not within the required ten day time limit to issue
subpoenas, thus not ample time for trial.
The first dispositive motions, Motion for Summary Judgment and Renewed Demurrer to
Hampton’s Counterclaim, were-both filed on September 20, 2019, on the day of Pretrial
Conference (held one month before trial), and both of which were praeciped for scheduling on
September 30, 2019. At the scheduling hearing, Judge Irby, after setting Hampton’s Motion to
Compel Discovery for October 15, 2019, indicated that there was no space on the docket to hear
PROF’s motions before trial. Hampton also brought up the fact that Judge Sincavage had

12

App. 162

informed both Hampton and counsel that two motions could not be heard on one day, but Judge
Irby said otherwise and, after questioning counsel on the Renewed Demurrer (which did not exist
as renewed in this case) and realizing it was a Demurrer to the former case heard and ruled on by
Judge Irby and dismissed on Demurrer, Judge Irby found a 45-minute slot on October 18, 2019,
to hear both the Motion for Summary Judgment and the Renewed Demurrer, and giving Hampton
until October 11, 2019, for her replies to both. On this same scheduling date, September 30,
2019, PROF filed their Motion in Limine with their Praecipe for scheduling docket for October
7, 2019 (one week later), and at that scheduling docket, Judge Irby scheduled the Motion in
Limine to be heard on October 15, 2019, on the same hearing date of Hampton’s Motion to
Compel Discovery.
So here Judge Irby had scheduled two motions together, twice, and all four motions
to be heard within four days of each other, and regardless of their late filings, and right
before a Trial by Jury, where time should be spent on preparation for the Trial. And if
Hampton wanted to respond to this late Motion in Limine, she was not afforded any “fair”
time to do so. The Clerk’s office informed Hampton that in order for her response to be
considered at that hearing date on October 15, 2019, Hampton would have to file the same
within four (4) days or by October 11, 2019, together with her other two responses that
were due by that date. It is not believed that this is “fair process” and Judge Irby, who has
been disqualified under Rule 2:11 as to any hearings, acted with prejudice therein.
All three of PROF’s motions were not only “not timely filed,” but could have and should
have been filed months ago, as claimed “dispositive,” possibly even eliminating the time needed
for Pretrial Conference, Discovery Requests, etc., should they succeed; and it is believed that the
same was only brought on because of Hampton’s Discovery Requests, and the Motion in Limine

13

App. 163

brought on further by Hampton’s Responses to PROF’s Discovery Requests. It is quite obvious
that counsel sought to make this case solely upon the Unlawful Detainer and their limited proof
as to having a right to possession and wished to dismiss all of Hampton’s evidence and
witnesses, which can prove otherwise. Hampton should have been entitled to a fair trial and the
right to present her evidence and witnesses to the jury, and none of those motions should have
survived Hampton’s Constitutional Rights to Due Process.
Further, just because Hampton’s Petition before the United States Supreme Court, was
denied, as being part of the 99% which does not get accepted, this was not an affirmation of the
lower court’s decision, as counsel would have you believe. Hampton’s Petition before this
highest court was based on her Constitutional Rights to defend her property from the “unlawful
taking” of the same without Due Process. And to date, no court has afforded her the same,
since her earlier Complaints were Dismissed on Demurrers and Pleas in Bar as to “finding
no cause of action, insufficiently pled as to fraud, and finding no cognizable claim, and
barred by the Statute of Limitations.” That judgment never addressed the merits of the
case, nor the evidence that supported them. And, in fact, there was no Trial, no Discovery, no
witnesses examined and/or cross-examined, just a hearing where the Honorable Judge Jeanette
A. Irby found in favor of PROF and the other Defendants (predecessors to PROF), and where
Hampton’s objection to that ruling in the Order, stated clearly “... the dismissal of the claim is
a material injury constituting a deprivation of Plaintiffs right to procedural due process.”
Addressing this court’s decision to grant summary judgment on PROF’s Motion for
Summary Judgment and Renewed Demurrer to Counterclaim, Hampton repeats that PROF is not
entitled to judgment where “summary judgment shall not be entered if any material fact is
genuinely in dispute.” (Rule 3:20) Clearly, there is a “preponderance of evidence” that material

14

App. 164

facts were genuinely in dispute as to the Assignment of the DOT and the Deed of Foreclosure,
and as can be seen from Hampton’s Responses to Requests for Admissions, where clearly she has
disputed and has not admitted to any material facts that would permit summary judgment
to PROF.
It should be noted here from page 4 of Hampton’s Admissions that she denies any
allegations as to the “accuracy” of Exhibit A, the Deed of Foreclosure ... “Hampton will
admit that SIW has altered the property description in the Deed of Foreclosure from that of the
Deed of Trust, which is to be stated verbatim.” This should be considered as a facially-invalid
title and certainly Hampton challenged it on the same.
In further support as to PROF not being entitled to summary judgment, Hampton
submitted PROF’s Responses to Hampton’s Requests for Admissions, together with the Exhibits
referenced therein, and wherein it should have been clear to this court that they denied all
allegations as stated and demanded strict proof thereof, which Hampton was prepared to do at the
trial by jury.
Although, Hampton believed all PROF’s responses to admission should be read, she
directed attention to admission 13, on page 10, Exhibit M, again as to their Deed ofForeclosure
to PROF ... “that SIW has altered the property description from that of the DOT, which is to be
stated verbatim, and has done so with the knowledge and its own approval to a “Corrective
Affidavit” which “was” to be filed/recorded ... to correct the property description creating a
“Cloud on Title,” ... further needed Defendant’s approval.” Where PROF’s response is
“Plaintiff lacks present sufficient knowledge, information, and belief to respond as to
allegations regarding same, and as such, denied the same and demands strict proof thereof.
... denies any title defects and/or clouds on title and the germaneness of same to this

15

App.165

possession suit in the eviction appeal and demands strict proof thereof.” Hampton again was
prepared to prove the same at trial, and these combined suits were not limited to possession, nor
had anything on the merits of Hampton’s allegations ever been “actually” litigated or ruled on
the “merits” in any prior case.
Turning to admission 9, on page 7, Exhibit I, again as to SIW’s Assignment of Deed of
Trust dated December 17, 2015, filed electronically and recorded in the public land records of
Loudoun County Circuit Court on December 28, 2015, ... whereby Bank of America, N.A.
grants, conveys, assigns to PROF all beneficial interest under that certain DOT executed by
Defendant ... with an invalid description of the property, ... TOGETHER with the note or
notes therein described and secured thereby. Said Assignment of DOT was prepared by PROF,
but returned to Avenue 365. To which PROF responds “... legal instruments speak for
themselves ... all contrary allegations are denied thereto and strict proof is demanded
thereof.... the Substitution of Trustee instrument and Limited Power of Attorney are legal
instruments that speak for themselves.” Hampton again was prepared to prove the same at
trial, and even further to this Assignment of DOT, the document contained an incorrect pin
no. in addition to the “bogus” description, which by virtue of those facts alone should be
considered as a facially-invalid title, and Hampton challenged it on the same, as well as
challenging this Assignment which was filed 21 days after foreclosure, evidencing that PROF
had not been previously secured by the DOT and had no power to Substitute a Trustee
(Exhibit E), nor were they permitted to exercise the remedy of foreclosure, when they did
so.
Further, to Hampton’s claim was Exhibit J, the Limited Power of Attorney from BAN A
to Avenue 365 under the terms of sale of Hampton’s loan to PRMF Acquisition LLC resulting

16

App.166

from an auction on June 19, 2019, thus concealing true ownership of said loan and evidence
that the wrong party proceeded with the SOT and foreclosure proceeding/Trustee Sale.
Here is where true evidence of collusion appears, where the loan was sold, but yet Fay on
behalf of PROF and SIW file a SOT without any power to do so, and where that power had
been sold to PRMF, and where neither BANA nor the “concealed” PRMF assign that power to
PROF, until after the foreclosure (filed 21 days later).
Accordingly, what Hampton has raised herein is that PROF was not entitled to
possession, as they were never secured by the DOT, were not permitted to Assign a Trustee and
exercise the power of foreclosure and, at the time they did so, were no longer the owner of the
Note and further the subsequent Assignment of the DOT to PROF from BANA and the Deed of
Foreclosure are facially invalid, as well.
Repeating here from Hampton’s Response as to resjudicata, etc.:
“Further, to correct counsel on its position as this matter having been litigated
fully and exhaustively through companion or corollary affirmative litigation, even to the
Highest Court of the Land, counsel deceives this court with their claims under res
judicata, issue preclusion, collateral estoppels, and judicial economy, where at no time
was Hampton’s prior case heard on the merits, nor “actually” litigated and “tried” on
the merits, as apparently none of the defendants could find a cause of action to
defend, could find no fraud pled with specificity, could not find a cognizable claim,
and nearly all counts were barred by the statute of limitations, and Judge Irby ruled
the same.
Here, on PROF’s motion for summary judgment, page 10, states that Judge Irby’s
Final Order after the exhaustive four (4)-hour Demurrer hearing conclusively and readily
demonstrates that Hampton’s title-attacking claims failed to meet the Parrish threshold
and survive a demurrer by the Defendants, to which Hampton says is totally bogus as
the hearing was forty-eight (48) minutes long and never addressed Parrish therein,
and again was dismissed as to not finding a cause of action, nor a cognizable claim,
nor fraud pled with specificity, and further Count XII on the Unlawful Detainer was
never addressed by defendants, particularly PROF as it only applied to them, nor
ruled on by Judge Irby, but all counts were dismissed with prejudice as prompted
by counsel as “a final housekeeping note.”
17

App.167

Obviously, in the courts final ruling, “the complaint failed to meet the pleadings
standard; was unable to find a cause of action; being exhaustively litigated for a number
of years (13 months and 3 months offiling the COMBINED 2nd amended complaint);
where foreclosure [wrongful] had concluded; and was an inappropriate use of court’s and
parties’ resources.” How could this court conclude such as a fair trial? ... “that parties be
allowed opportunity to know opposing parties’ claims, to present evidence to support
their contentions, and to cross-examine opposing parties’ witnesses, but strict adherence
to common law rules of evidence at hearing is not required.” (quoting Hornsby v. Allen,
326 F.2d 605)
The circuit court should have found predatory lending, a void ab initio Deed of
Trust and the “Cloud on Title” evident requiring a “Corrective Affidavit,” and clearly
with the violation of the Consent Orders, HUD requirements, and breaches of the DOT, a
“wrongful foreclosure” had occurred and, more particularly, Hampton had exercised her
rights to file suit before the same challenging the foreclosure, which Plaintiff and SIW
ignored.
As stated on p25 of Hampton’s Petition before the Supreme Court of Virginia and
further to Hornsby v. Allen:
“The role of the courts is to ascertain the manner in which this determination was
or is made accords with constitutional standards of due process and equal
protection.” And “It follows that the trial court must entertain the suit and
determine the truth of the allegations.”
The integrity of the rule of law is at stake, as the most basic of our due process
rights are involved.
It is a fundamental principle that one has the right to protect his or her property
from its unlawful taking by another. Consistent with the US Constitution, the Virginia
Constitution states that “no person shall be deprived of his life, liberty, or property
without due process of law.” The federal government, the states, and the courts of all
levels, are tasked with the daunting task of protecting the property rights of citizens
from theft, conversion, fraud, and otherwise unlawful “takings.” That earlier case
was a civil action to protect Hampton’s property rights from the unlawful taking of those
rights by either Bank Defendants or Trust Defendants, but Hampton never experienced
any protections of the law, since her Complaint was dismissed on Demurrer without
determining the truths of the allegations and nothing was ruled on any merits, (emphasis
added)
Hampton has challenged all Assignments on record and particularly the Deed of
Trust as being void ab initio, and challenged the foreclosure first warning of the same via
her Loss Mitigation Specialist, Jeffrey Burch’s December 3, 2015, “Cease & Desist”
18

App. 168

letter (Exhibit G attached) to both SIW and Fay Servicing, and when it became obvious
that they would not Cease & Desist the foreclosure, Hampton filed suit in US District
Court to stop the same on December 4, 2015. SIW ignored this case filing and foreclosed,
in violation of and breach of the DOT as to not fulfilling all conditions precedent as
required, and as found in Virginia Supreme Court ruling in Mathews v. PHH Mortgage
Corp724 S.E.2d 196 (Va., 2012).
Further repeating: Hampton has raised the fact that SIW has abused their fiduciary duties,
where Hampton filed suit against PROF and others December 4, 2015, prior to foreclosure on
December 7, 2015, challenging foreclosure, which SIW ignored; in addition to improper notices
to foreclosures; invalid 404 notice; failure to send Default Letter; breaches to the DOT as not all
conditions precedent met, including HUD violations, and violations of “Consent Order” with
OCC/US Treasury; improper or voidable Assignments; wrong party proceeding with
foreclosure; despite a known “Cloud on Title” requiring a “Corrective Affidavit;” and despite a
Cease & Desist Letter from Hampton’s Loss Mitigation Specialist, including Highlights from a
Bloomberg Audit, demonstrating why the initial assignment of the DOT to BANA failed as a
valid instrument.
That based on the violation of not conducting the HUD face-to-face meeting alone,
Hampton should have survived earlier and should have survived herein any Demurrer. And
further to the National

Mortgage Settlement (NMS), “The banks have agreed to major

reforms ... borrowers will have the right to see all of their loan documents to make sure
any potential foreclosure is legal” (taken from page 9 of the NMS). Clearly, PROF (nor
BANA) have ever complied with this major reform, but should have done so.
Addressing further those dispositive motions, under the doctrine of res judicata, “[a]
party whose claim for relief arising from identified conduct, a transaction, or an occurrence, is
decided on the merits by a final judgment, shall be forever barred from prosecuting any

19

App.169

second or subsequent civil action against the same opposing party or parties (this is reference to
individual persons not entities) on any claim or cause of action that arises from that same
conduct, transaction or occurrence, whether or not the legal theory or rights asserted in the
second or subsequent action were raised in the prior lawsuit...” This argument cannot apply to a
case dismissed on Demurrer that could find “no cause of action, no cognizable claim, not pled
fraud with specificity, or barred by the statute of limitations,” which was never decided on the
merits by a final judgment, and further those issues were never “actually” litigated, since they
were dismissed on Demurrer before any actual discovery was permitted.
Since Judge Welsh in the General District Court ruled in favor of PROF, moving on their
earlier dismissed Summary Judgment, and without considering Hampton’s response thereto, it
became necessary for Hampton to file an appeal to protect her rights from the “Unlawful
Taking” by PROF, in violation of her Constitutional Rights, and she was informed by Judge
Welsh, that both the Unlawful Detainer and the Counterclaim had to be appealed together.
As previously argued, Hampton considered any imposed bond unfair, since she too has
her own damages, where she has not been afforded the benefits of loan payments against her
taxes for ten years; has been forced into bankruptcy several times (once on Bank of America’s
requirement for the HAMP modification/twice on stopping foreclosures); has had to pay higher
prices on all lines of credit and insurance; has been deprived of her right to quiet title, which the
Deed of Trust is purported to give; where she has been damaged further by the unlawful detainer
suits; where these losses have spanned a period of ten years, not to mention the Predatory loans
and the cost of the same.
Still further Hampton has had to go to the expense of these continued litigations, and
prior cost of attorneys, loss mitigation specialists, bankruptcy attorneys, auditors, courts, printing

20

App.170

and, in general, deprived of seeking employment or furthering her desire to start a healing
practice; open her doors to veterans; and lacks time to further volunteering with Wounded
Warriors and Sanctuary on the Trail, in Bluemont, which is how Hampton would like to retire.
This state of never knowing what is next, and continually having to fight for her rights, take a
real toll on Hampton’s quality of life.
Plaintiff (and all predecessors) could have and should have offered the HAMP
modification, for had they done so according to the Independent Foreclosure Review Remedies,
there would never have been a need for litigation. Where it was the banks, including PROF/US
Bank’s, obligation to fulfill the remedies of the IFR Remediation Framework and offer the
HAMP, as it should have been offered ten (10) years ago - that is, a new loan that starts all over
again, and based on the terms when they should have offered it. The banks/PROF at any time
could have had a working loan, but choose instead to “unlawfully take” Hampton’s property.
Hampton believed in the success of her case herein and, particularly since she would
finally have a court of record trial by jury, with the court’s and jurists’ findings of justice on the
“merits” of her case; and further believed that by October 23, 2019, this case would finally be
put to rest in Hampton’s favor.
PROF has deceived this court at every level of these procedures, because they knew with
the “truth of the allegations” and the supporting evidence, they could not possibly win at trial by
jury - thus the last minute dispositive motions, which were clearly in response to Hampton’s
Discovery Requests, of record herein, which also should have been fully read.
This court has found that Hampton, once again, did not survive either a Demurrer or res
judicata and it is hoped that, Your Honor, will read the attached transcript (at least to its rulings)
and accompanying Motion for Reconsideration and Memorandum in Support of in that prior

21

App.171

case, and farther determine that PROF has clearly misled this court as to those Demurrers and
resjudicata.
Hampton has unfairly been denied her rights to present her evidence to a “fair” trial, as
her “fair” trial by jury was cancelled as to those dispositive motions. Please tell me where is
there justice in this. This is clearly a violation of my Constitutional Rights to due process, since
no court has afforded the same.
Hampton has already been burdened with a bond, which will take her two more years to
pay off, and which should never have been imposed on her, and now this court is allowing
thieves to take her home of nearly twenty-five (25) years, and again, without due process.
Hampton should not have to Appeal again, but will and hopefully, with her pleadings and
evidence provided herein, the Supreme Court will remand the same, where she will be heard on
the “merits” with all of her evidence and witnesses permitted again before atrial by jury.
WHEREFORE, for all of the reasons stated above, and supported in the attachments
hereto, Hampton respectfully requests this Court’s Reconsideration, and to serve justice by either
placing this case back on the docket for a “fair” trial by jury and on its merits, or dismiss this
case without prejudice, which should have been done in the General District Court. PROF may
file their claim in Circuit Court or perhaps they will come to the settlement table as they should
have done ten (10) years ago. Hampton should not have to continue to defend her property from
the “Unlawful Taking” by PROF, in violation of her Constitutional Rights.
Respectfully submitted,

/f—
Kathleen C. Hampton, Appellant pro se
Defendant/Counterclaim Plaintiff

22

App. 172

1

►

CERTIFICATE OF SERVICE
I hereby certify that on October 25, 2019, a true copy of the foregoing Motion for
Reconsideration and Supporting Memorandum of Law to the Honorable Stephen E. Sincavage,
with attachments, is being sent via first class US Mail, postage prepaid to:
Appellee
Plaintiff/Counterclaim Defendant
Lisa Hudson Kim, Esq.
SAMUEL I. WHITE, P.C.
5040 Corporate Woods Drive, Suite 120
Virginia Beach, Virginia 23462
Counselfor PROF-20J3-S3 Legal Title Trust,
by US Bank National Association, as Legal Title Trustee

Kathleen C. Hampton, Appellant pro se
P.O.Box 154
Bluemont, Virginia 20135
540-554-2042

28

App.173

STATE OF VIRGINIA
COUNTY OF LOUDOUN

CERTIFICATION
L Kathleen C. Hampton, hereby certify that I am the Appellant in this action. I have read
the foregoing Motion for Reconsideration and Supporting Memorandum of Law to the
Honorable Stephen E. Sincavage and it is true of my own knowledge, except as to those matters
stated on information or belief, and as to those matters, I believe it to be true.
I declare under penalty of perjury under the laws of the Commonwealth of Virginia that
the foregoing is true and correct.
Date of execution: October 25, 2019

Kathleen C. Hampton, AppelJ^^prose
SWORN to and subscribed before me, this 25th day of October, 2019.

NOTAR'

/T

3

Mary E. McCauleyJ

Commonwealth of Virginia
Notary Public
Commission No. 116683
My Commission Expires 1/31/2020

24

App.174

My Commission Expires:

/sar^<J

{F< V *

VIRGINIA:
IN THE CIRCUIT COURT OF LOUDOUN COUNTY
KATHLEEN C. HAMPTON,
Plaintiff
v.

CASE NO.:

PROF-2013-S3 LEGAL, TITLE

CL00098163-00

TRUST, BY U.S. BANK
NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
et al.,
Defendants
x
Tuesday, January 3, 2017
Leesburg, Virginia

Hearing before The Honorable Jeanette A. Irby, at
the Loudoun County Circuit Court, 118 East Market
Street, Leesburg, Virginia 20176 and all parties
were present.

App. 175

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

PROCEEDINGS

2
3
4

Professional Legal Title, 98163.

5

THE COURT:

6

MS. KIM:

7

THE COURT:

8

Good morning, Your Honor.
Okay.

I've read the file.

Parties can have a

I believe this is

the Defendants' demurrer, correct?

11

MR. LEE:

12

THE COURT:

13

Morning.

seat.

9
10

Kathleen C. Hampton versus

COURT CLERK:

That's correct, Your Honor.
All right.

Are you prepared

to go forward?

14

MS. KIM:

15

THE COURT:

16

MS. KIM:

17

THE COURT:

18

Yes
Okay.
we are, Your Honor.
Okay.

Go ahead.

You can go ahead and have a seat.

19

MS. KIM:

May it please the Court, Your

20

Honor, Lisa Kim and Amy Czekala here from Samuel

21

I.

White, P.C.

We're here defending three

PRECISE REPORTING SERVICES (301) 210-5092
App. 176

(877) 4 A STENO

2

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

3

Defendants and moving for demurrer to the Second

2 Amended Complaint.
3

For the sake of the record, our clients

4

are Fay Servicing as Servicing Agent and Attorney

5

in Fact for PROF-2013-S3 Legal Title Trust by U.S.

6 Bank N.A. as Legal Title Trustee, MERS, Mortgage
7 Electrical Systems, and, lastly, Samuel I. White,
8
9

P.C. as Substitute Trustee.
And the Court is probably aware we've

10 been here before, this is the third complaint in
11

this suit.

12

Ms. Hampton has filed to forestall foreclosure

13

and/or eviction proceedings on a home on

14

Snickersville Turnpike in Round Hill, Virginia.

15

The second suit of two suits that

That first suit was filed in this Eastern

16

District of Virginia pre-foreclosure in December

17

2015 and was voluntarily dismissed on the eve of a

18

motion to dismiss hearing.

And a Judge Brinkema

19 entered that dismissal order; and then this suit
20 was filed four days after the foreclosure, somehow
21

seeking to enjoin it post-sale.

And we've gone

PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App.177

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

through two considerations of amendments and we're

2

now here on the second amended complaint.

3

Largely, this 150-page document, Your

4

Honor, seems to be plucked from the Internet.

5

lot of California Law and "Show Me The Note" or

A

6 what we call "Show Me The Noteholder" authority
7

claims, saying things along the lines of "this

8

Trust wasn’t properly securitized, guidelines

9

under HAMP or the Office of Comptroller or

10

Treasury weren’t properly adhered to, HAMP and

11

loan modification provisioning were not granted to

12

her, and the substitution of Trustee instrument

13

fails, there's no authority to foreclose, things

14

along these lines.

15

called "illegal foreclosure".

16

Also, short-circuited and

Your Honor, in a judicial foreclosure

17

jurisdiction like Virginia, all Of these claims

18

ring hollow.

They are summarily dismissed.

The

19. body of jurisprudence is sacrosanct that they fall
20
21

on deaf ears in the Court and otherwise.
Had Ms. Hampton filed anything citing a
PRECISE REPORTING SERVICES (301) 210-5092

App.178

(877) 4 A STENO

4

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

single violation from the Deed of Trust, which is

2

the operative mortgage loan document here or her

3

Promissory Note, both signed in 2006 -- I have

4

that original note, "Wet Ink Note" here today

5

5 bearing her signature that matches the signature
6

on the pleadings.

7

Honor, so it's bearer paper, and Countrywide

8

signed that original endorsement that is in blank.

9

So anybody processing this note is entitled to and

10

It is a blank endorsement, Your

enforced it.

11

I also have the Substitution of Trustee

12

instruments that are recorded in the public land

13

records of this Court, but, Your Honor, there is

14

nothing within the four corners of the Complaint

15

that cites to a Deed of Trust violation or a note

16

violation or any of the operative code sections in

17

Virginia, found in Section 55-59.1 et seq, to

18

allege any kind of malfeasance with this sale

19

along the lines of notices were inadequate or bids

20

were improperly calculated, collusion, fraud,

21

anything like that.
PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App. 179

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

Instead the fraud is all the allegations

2

of it which do not rise to the level of

3

specificity and particularity required in

4 Virginia, but it's along the lines of the way the
5

note was secur

6 pooled.

the loan was securitized and

Nothing for which she has standing and

7

nothing that is recognized in this jurisprudence

8

of Show Me the Note or Show Me The Noteholder

9

authority that is disallowed in this jurisdiction.

10

And Ms. Hampton recognizes that, because

11

her own latest pleading, her opposition that was

12

filed I believe on the 27th of December to our

13

demurrer briefs, says she has no standing and no

14

authority to make those allegations, yet she does.

15

So claims like "illegal foreclosure",

16

"violation of HAMP guidelines", "no authority to

17

foreclose", "IIED", Intentional Infliction of

18

Emotional Distress, they're not pled with anything

19

more than the recitation of the elements, there

20

are no supporting facts, and case law says that

21

simply the stress of foreclosure is not sufficient
PRECISE REPORTING SERVICES (301) 210-5092

App.180

(877) 4 A STENO

6

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

for an TIED claim, something more must be pled and

2

certainly supporting factual allegations, yet

3

those are not found within the Second Amended

4

Complaint.

5

apple, fourth bite overall, that she's had to

And this is now the third bite at the

6 perfect these claims.
7

7

And I might note also, this

defaults stems from a Notice of Intention to

8 Accelerate, which is found within the facts of her
9 Memorandum 2008.
10

So we're talking about a person residing

11

in a property who hasn't made payments for eight

12

to nine years, and a foreclosure that occurred,

13

was put to record and the Deed of Foreclosure was

14

filed and recorded over a year ago in December

15

2015.

16

We would submit, Fay Servicing, U.S.

17

Bank, the Trust, who holds the Deed of Trust or

18

held the Deed of Trust and note prior to the

19

foreclosure. They need to be able to move on and

20

evict and sell this bank-owned property, enough is

21

enough.

There have been no good faith bases to

PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App. 181

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

repay this loan; there’s no monthly bond in place,

2

the prejudice continues; and these serial

3

litigation claims and suits that Ms. Hampton

4

filed, notably the Federal suit and the State

5

suit, concurrent in December of 2015 until that

6

dismissal of the Federal suit in May of 2016 are

7

at severe prejudice in terms of fees and costs and

8

time delay to these Defendants.

9

May I also add, Your Honor, that the

10

claim for Slander of Title that Ms. Hampton makes

11

fails because the elements required for the prima

12

facie case of uttering and publication of

13

slanderous words, falsity of those words, malice,

14

and special damages are not adequately pled.

15

There's no malice and reckless disregard in

16

foreclosing on a conceded default on a failed

17 mortgage loan.
18
19

And then, finally, Your Honor/ in terms
of the remedy that Ms. Hampton seeks in her Second

20 Amended Complaint, she’s pleading legal damages,
21

compensatory and punitive, but also seeking
PRECISE REPORTING SERVICES (301) 210-5092

App. 182

(877) 4 A STENO

8

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

judicial rescission to unwind that sale as an

2

extraordinary equitable remedy after the fact.

9

3 And when they’re adequate legal damages that are
4

there and are available and are, indeed, are pled,

5

jurisprudence says, in case law of this

6

jurisdiction, that the equitable remedy of

7

rescission is not appropriate.

8

availability of the legal damages that she has

9 pled.

She has the very

The Virginia Supreme Court has held that

10

only the post-sale, such as this, after December

11

2015 when this sale was concluded, only adequate

12

remedy of law exists when a borrower seeks money

13

damages in a complaint filed post-sale.

14

particular case cited in our brief, a prerequisite

15

to sale, and the Matthews case was cited, here

16

it's more along the lines of arguments about the

17

possession of the note and the authority to

18

enforce the note.

19

adequate legal remedy, she has indeed pled it and

20

so it is inappropriate to rescind a sale over a

21

year later, eight to nine years post-default.

In the

But here, notably, she has that

PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App.183

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

She should have filed this suit before

2

the sale when seeking to enjoin it or to seek an

3

equitable remedy like rescission.

4

And one might ask, well, are there

5

exceptions to that and there are, along the lines

6

of collusion, pricing building, rigging, conflicts

7

of interest, self-dealing of the Trustee, but here

8

the only thing she alleges is fraud and it's fraud

9

in the loan origination process along the lines of

10

securitization of the Trust, nobody's told me who

11

sold my note to whomever.

It's not Samuel I.

12 White and Bank of America colluded or conspired in
13

the sale, or the publication in the newspaper was

14

not in a proper newspaper of general circulation

15

or anything along those lines.

16

And, finally, Your Honor, there's nothing

17

to state that the — the Bank, the Trust,

18

short-circuited as U.S. Bank, that's bought this

19 property as the high bidder at sale is not a bona
20

fide purchaser.

They paid the high bid, they

21

recorded the Deed of Foreclosure, as you're
PRECISE REPORTING SERVICES (301) 210-5092

App. 184

(877) 4 A STENO

10

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

this court is aware, most recently in the last one

2

to two weeks there were exceptions filed by

11

3 Ms. Hampton to that sale with the Commissioner of
4 Accounts and the Court has entered an order that
5 has overruled those exceptions.

So the sale had

6 been found appropriate to the Commissioner of
7 Accounts, the reviewing body found in the court,
8

and in this jurisprudence; and then this Court has

9

then overruled the exceptions that she's filed

10 which are reiterated or re-pasted into these
11 pleadings.
12
13

And for those reasons, Your Honor, we
seek to have her

the demurrers to her Second

14 Amended Complaint of these three Defendants
15

sustained this time, Your Honor, with prejudice —

16

last time they were sustained without prejudice --

17

and for her to be given no further lead to amend

18

as it would be futile.

19

or resurrect or these claims that are largely

20

Internet California seq pleadings that do not

21

resonate in Virginia jurisprudence and are akin to

There's no way to salvage

PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App.185

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1 prohibited Show Me the Note or Show Me the
2

Noteholder authority claims not recognized in this

3

jurisdiction.

4

THE COURT:

Thank you.

5

Did you have an opportunity to review

6 Ms. Hampton's pleadings that she filed this
7 morning at 8:07?
8
9

MS. KIM:

I did not, Your Honor, I was

travelling from Virginia Beach.
Did you, Your Honor?

10

MS. HAMPTON:

11

THE COURT:

12

show it to opposing Counsel.

13
14

I have it.

MS. HAMPTON:

Why don’t you

I brought another copy for

you, and a copy for both of the Defendants.

15

THE COURT:

How about if I give you a

16

couple of minutes to look that over in case

17

there’s anything that you feel you need to respond

18

to.

19

can take care of very --

Because I think there's some paperwork that I

20

MS. KIM:

21

THE COURT:

Okay.
— quickly.

Okay.

PRECISE REPORTING SERVICES (301) 210-5092
App. 186

(877) 4 A STENO

12

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
(Counsel reviewing documents.)

1

MS. KIM:

2

(Court docket resolutions.)

3

THE COURT:

4

And, Ms. Hampton, do you want

to go ahead and respond to their demurrer?
And I'll give you a chance in your

5
6

response to address any issues that you may have

7

with respect to the judicial notice issue.

8

Okay.

9

MS. HAMPTON:

10

13

Go ahead, Ms. Hampton.
Well, in addition to the

request of judicial notices which I feel are very

11 primary to this case in support of the evidence
12
13

needed.
First, Plaintiff does not believe that

14

she has failed to state any factual or legal basis

15

for any of her counts and, in fact, has introduced

16

clear evidence of the 59 exhibits identified in

17

the initial Amended Complaint, permitted to be

18

referenced in the Second Amended Complaint and in

19

addition to an added 19 exhibits, all of which

20 have been identified in a list of exhibits on page
21

151 thereto — thereof, that supports her facts
PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App.187

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

and allegations to the wrongdoings of both

2

Defendants and Trust Defendant

3

and Trust Defendants have caused Plaintiff to

Bank Defendants

4 bring this action.
5

As previously stated, if Bank Defendants

6 had not violated the HAMP Guidelines, as set out
7 by the investor Fannie Mae and as mandated by
8

Fannie Mae, by approval of the HAMP modifications

9

as of July 29, 2009, this cause of action would

10

not be before this Court and Plaintiff would be

11

enjoying peaceful quiet title to her home and

12 would not have suffered the financial, physical,
13

and mental damages that she had incurred by Bank

14

Defendants' actions.

15

In Plaintiff's opinion, Bank Defendants

16

failures are the primary basis to which they could

17

have and should have corrected under their Consent

18

Order with the OCC, which they violated by their

19

failure to suspend foreclosure and extend that

20

same modification, approved on July 29th, 2009,

21

under the Independent Foreclosure Guidelines as
PRECISE REPORTING SERVICES (301) 210-5092

App. 188

(877) 4 A STENO

14

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017

15

1 mandated therein and further failed to extend that
2 modification prior to changing hands.
As to Trust Defendants, they did not

3
4

fulfill their obligations as a new server, failed

5

to "board” the loan prior to initiating

6

foreclosure proceedings, further were under a

7

Consent Order with the OCC Treasury, mandated to

8

suspend foreclosure and extend that modification

9

as approved on July 29th, 2009 and proceeded to

10

foreclose without proper notice and in clear

11

violation of Nonjudicial Foreclosure Laws.

12

not believed that Trustee White had the proper

13

documentation to carry this foreclosure out as

It is

14 mandated under the Nonjudicial Foreclosure Laws,
15

nor was it conducted under the terms of the Deed

16

of Trust.

17
18

It is with these actions that Trust
Defendants caused Plaintiff to file her first suit

19 prior to the scheduled Trustee sale in the U.S.
20

District Court for the Eastern District of

21 Virginia, Alexandria Division on December 4th,
PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App. 189

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

which Trustee White did not honor as called for in

2

the Deed of Trust and thus proceeded with the

3 proceed -- with the foreclosure, December 7th, and
4

by doing so caused this Plaintiff to file her suit

5 here in the Circuit Court, December 11th.
6

In Plaintiff's opinion, Trust Defendants

7

failures are the primary basis for the filing of

8

these cases.

9

Plaintiff has also pled, for request for

10

Judicial Notices is herein and request this Court

11

to make determinations on all documents filed in

12

this Court particularly with regard to Probate

13

Case Number 061608, which resulted from the above

14

Foreclosure Trustee Sale and Plaintiff's petitions

15

exceptions to the report to the Commissioner of

16 Accounts.
17

Although Plaintiff is aware that the

18 Honorable Judge Douglas L. Fleming, Jr. Had been
19

assigned both this case as well as the Probate

20

case and has reviewed those exceptions, Plaintiff

21 believes that the Deed of Trust and subsequent
PRECISE REPORTING SERVICES (301) 210-5092
App.190

(877) 4 A STENO

16

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

assignments should be ruled as to validity prior

2

to ruling on the Defendants' demurrers.

3

the Court find that the loan was one of predatory

4

lending and its alteration of the Deed of Trust

17

Should

5 void ab initio, all subsequent assignments become
6

invalid as well.

7

Pursuant to Virginia Codes 801-386 and

8

801-389 and further Virginia Rules of Evidence,

9

Rule 2:104 (b), relevancy conditioned on proof of

10

connecting facts:

Whenever the relevancy of the

11

evidence depends upon proof of the connecting

12

facts, the Court may admit the evidence upon or in

13

the Court's discretion subject to the introduction

14

of proof sufficient to support a finding of the

15

connecting facts.

16

Judicial Notices are relevant, and with the

17

evidence on notice, this Court will have more

18

complete evidence to rule upon the issues, which

19

are not avail

20

at filing of the Second Amended Complaint.

21

Plaintiff’s request for admission fulfilled under

All of Plaintiff’s request of

which were not available earlier

PRECISE REPORTING SERVICES

(301) 210-5092

And

(877)

4 A STENO

App. 191

KATHLEEN C, HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1
2

Rule 4:1.
With regard to both Bank Defendants and

3 more particularly Trust Defendants' demurrer
4

stating the Second Amended Complaint is largely

5

nonsensical, ambiguous, vague and, frankly, hard

6

to decipher and comprehend, let alone defend

7

efficiently and effectively, and further fails to

8

state any plausible valid recognized Virginia

9

claim upon which relief can be granted.

Should

10

this Court agree, under Rule 3:7, a bill of

11

particulars may be ordered to amplify any pleading

12

that does not provide notice of the claim or

13

defense adequate to permit to adversary a fair

14

opportunity to respond or prepare the case.

15

However, Plaintiff believes that she has

16

not failed to state any factual or legal basis for

17

any of her counts, and by Plaintiff's further

18

pleas or request for Judicial Notice, she has

19

called in further evidence to connecting the facts

20

in this case.

21

Still, should the Court agree with the
PRECISE REPORTING SERVICES (301) 210-5092

App.192

(877) 4 A STENO

18

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

Defendants, this Court may order a bill of

2

particulars under Rule 3:7, and Plaintiff will

3

comply.

4

19

With regard to Counts I through IV, Count

5

I, Predatory Lending and Fraud in the Inducement

6

as to Countrywide 05; Count II, Fraud in the

7

Inducement, Fraud in the Concealment, Alteration

8

of the Deed of Trust and Property Descriptions and

9 Violations of the TILA/RESPA and Rescission,
10

Countrywide 06; Count III, Fraud in the

11

Concealment as to Countrywide and BANA regarding

12

the securitization, Country

13

the Inducement, secured trust having the power of

14

sale contained in the DOT/mortgage, Countrywide

15

and BANA, mainly through the Bloomberg audit.

16

Count IV, Fraud in

Is court cases, the Court will look at

17

each of the factors making up the loan and decide

18

whether the factors, taken as a whole, constitute

19

predatory lending.

20

loan was predatory, it can order the lender to

21

modify the terms of the loan or cancel the debt or

If a court determines that a

PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App. 193

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

take any other equitable action.

2

In 2003, the OCC ordered banks to

3

establish appropriate due diligence and monitoring

4

procedures to ensure that they avoid becoming

5

involved in predatory lending, as such, predatory

6

lending can be raised as a defense to foreclosure

7

by borrowers.

8

the introduction of facts, allegations, and these

9

counts, and this Court should make a determination

Plaintiff has raised this issue in

10

on predatory lending as well as the validity of

11

the DOT in connection with these loan

12

transactions, and further support in the evidence

13

requested for Judicial Notice.

14
15

As to Count V, Breach of Contract as to
Countrywide, Plaintiff has requested Judicial

16 Notice as it may pertain to this Count and is not
17

barred by the statute of limitations as previously

18

pled.

19

As to Count IV (sic), Violations of HAMP,

20

IFR Guidelines and the Consent Order with

21

OCC/Treasury —^ that's to Countrywide, BANA, Fay,
PRECISE REPORTING SERVICES (301) 210-5092

App.194

(877) 4 A STENO

20

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

PROE/U.S. Bank), clearly neither Bank Defendants

2

nor Trust Defendants admit to their failures under

3

this Count, nor do they address it appropriately

4

with the OCC or consumers and thus the request for

5

Judicial Notice from both.

6

21

Bank Defendants further misinterpret

7

Plaintiff's allegations and claim Plaintiff

8

asserts that BANA violated the Home Affordable

9 Modification Program, when, in fact, what
10

Plaintiff alleges is BANA violated the Fannie Mae

11

Guidelines mandated to solicit and offer the HAMP

12

to all eligible homeowners.

13

denoted as arising under a Consent Order by which

14

Plaintiff presumably means the National Mortgage

15

Settlement reached with the U.S. Department of

16

Justice and State Attorneys General, although

17

Plaintiff makes no attempt to allege any facts

Additionally, BANA

18 pertaining to these subjects.
19

Bank and Trust Defendants should both

20

know that the National Mortgage Settlement with

21

the U.S. Department of Justice in 49 states,
PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App. 195

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

including ours, is a separate settlement from that

2

of the OCC based on the Independent Foreclosure

3 Review; and, additionally, BANA should have
4

solicited Plaintiff or the National Mortgage

5

Settlement per predatory loan practices and

6

wrongful foreclosure, but did not.

7

That "wrongful foreclosures", Your Honor,
for — included wrongful attempts

8

is also for

9

at foreclosures and — and not properly servicing.

10

The language of the Consent Judgment

11

indicates — this is a quote -- "The language of

12

the Consent Judgment indicates that the parties to

13

the agreement did not intend the individual

14

borrowers to be able to sue to protect the

15 benefits the Consent Judge confers".

This Consent

16

Judgment does not apply to the OCC Consent Order

17

and the IFR guidelines, and under that review

18

borrowers were -- are able to sue to protect their

19 benefits for noncompliance with those guidelines.
Plaintiff does not

20

Plaintiff does not state

21

state a cause of action under HAMP alone, but does
PRECISE REPORTING SERVICES (301) 210-5092

App. 196

(877) 4 A STENO

22

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

not state — this is a quote again, I think -

2

Plaintiff does not state a cause of action under

3

HAMP alone

4

cause of action under Fannie Mae's Guidelines that

no, that's fine

23

but does state a

5 mandated the solicitation and offering of the
6 HAMP.
7

And BANA's noncompliance with both that

8

as well as the subsequent Independent Foreclosure

9

Review Guidelines and subsequent Consent Order

10

with the OCC, where they were mandated to provide

11

the loan for which she was approved for on July

12

29th, 2009.

13

As to Trust Defendants as successors to

14

the loan and as U.S. Bank on behalf of their

15

Trust, under their own Consent Order, they were

16 mandated to provide the- same but instead elected
17

to foreclose before properly "boarding" the loan.

18

Both BANA and U.S. Bank violated their Consent

19

Orders.

20
21

As to Count VII, Violation of the
Virginia Code, Countrywide, BANA/Fay/PROF/White,
PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App.197

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

Deeds of -- Deeds of Corporations with regard to

2

signatures, assignments, et cetera, together with

3

Count VIII, Lack of Standing to Foreclose/Wrongful

4

Foreclosure, clearly Plaintiff has pled for

5 validity to the actual assignments or the party's
6

rights to foreclose, after discovery that all the

7

assignments per the Audit were invalid and by the

8

securitation (sic) process did not possess the

9 power of assignment.

This will be further

10

evidenced by the requested Judicial Notices pled

11

for herein.

12

This is also supported, once again, in

13

that BANA and PROF/U.S Bank were mandated to

14

suspend foreclosure per Consent Order and

15

Independent Foreclosure Guidelines, and if

16

foreclosure had already taken place and still

17

remained in noteholders' hands, they were mandated

18

to rescind that foreclosure and pay Plaintiff even

19

higher funds.

20
21

As to Count IX, International Infliction
of Emotional Distress, and Count X, Slander of
PRECISE REPORTING SERVICES (301) 210-5092

App. 198

(877) 4 A STENO

24

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

Title, Plaintiff has pled that all of the

2

Defendants contributed to the wrongdoings imposed

3

on Plaintiff, and clearly all they needed to do

4

was to offer the OCC IFR's Guidelines mandated by

5

the Consent Order that being the HAMP modification

6

she had been approved for July 29, 2009, and this

7

case would not have existed.
Neither BANA nor PROF followed through

8
9

25

and did so knowing full well they were inflicting

10

emotional distress.

11

followed through, Plaintiff would never have

12

discovered the predatory lending and -- loan

13

the predatory loan and fraud charges they now

14

face.

15

the 11 years plus, Plaintiff has been through

16

hell; and Defendants, all of them, know quite well

17

their intentional infliction of emotional distress

18

was created by them, and the further stress from

19

the slander of title which gives rise to a great

20

deal of physical injury resulting from stress as

21

well as to be determined by this Court at trial.

Also, had Bank Defendants

In addition to all of the injustices over

PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App. 199

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

As to Count XI, Fraud with the IRS, and

2

Count XII, Unlawful Detainer of Both Counts

3

against Fay as Servicer and Power of Attorney for

4

PROF/U.S. Bank, Trust Defendants do not bother to

5

address, but has pled therein has caused and will

6

continue to cause irreparable financial damage,

7

and is a serious act of extortion against her

8 property, her reputation and her physical, mental
9

and financial well-being, again to be determined

10 by Court at trail.
11
12

In addition, Your Honor, I might add that
through my plea for this, which is attached and

13 which has the attachment of the Power of Attorney
14

that was submitted -- or the Power of Attorney

15

that BANA had signed over there — had transferred

16

or made that assignment from BANA to PROF did not

17

indicate any ownership as to this Power of

18 Attorney that the lender, who signed the document
19

— it went to a hedge fund, it was sold, the

20

"Seller", Bank of America presumably being the

21

seller, sold to this Hedge Fund, PRMF, and there
PRECISE REPORTING SERVICES (301) 210-5092

App. 200

(877) 4 A STENO

26

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

is no mention of them anywhere.

2

concealed all of that as well.

3

have concealed a great deal.

4

by -- even by their demurrers, they continue to

5

want to conceal what Plaintiff’s trying to bring

6

out through evidence of these documents that I’ve

27

They have
They have -- they

And I think

7 proposed.
8

THE COURT:

9

Any response?

10
11

All right.

MS. HAMPTON:

Thank you.

Oh, Your Honor, one more

thing.

12

THE COURT:

13

MS. HAMPTON:

Okay.
I do not seek to

to
I seek my

14

avoid having them take over the house.

15

home of 21 years.

16

of 21 years.

17

a great deal of payments, and, in fact, I’ve made

I do not want to leave my home

And I have made payments.

I’ve made

18 payments through the end of 2009, not nine to ten
19

years ago.

20

or the refinance.

21

Ten years ago, it was the loan itself

And I have since that point been trying
PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App.201

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1
2

to get this all taken care of.
I have this HAMP, which was put into law
09.

I have

and I knew

3

on my birthday, and in

4

at that time that -- I didn't know I was going to

5 have to take it this far, but I knew at that time
6

that I qualified.

7 have no reason

And it may — I noted that I
I have no reason to doubt that
But

8

they don't want discovery to go any further.

9

I believe that. I am entitled to take this further

10

and discover the wrongs that they have created.

11

THE COURT:

Thank you.

12

MS. HAMPTON:

And I do. this on behalf of

13

not just myself, I believe that there are millions

14

others that have been abused.

15

THE COURT:

16

Any response?

17

MS. KIM:

Thank you.

Your Honor, we don't speak for

18 Countrywide and Bank of America.

Attorney Lee is

19 here to make those arguments, but we would, as a
20

housekeeping matter, point out that because of

21

these assignments, which have been recorded in the
PRECISE REPORTING SERVICES (301) 210-5092

App. 202

(877) 4 A STENO

28

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

Public Lands Records, it’s not even appropriate to

2

have those two Defendants here today.

3
4

29

There is no dispute in our understanding
that Fay Servicing is the servicer for this loan

5 pre-foreclosure, and that U.S. Bank or the Trust
6

that we're calling "PROF" today is -- was the Deed

7

of Trust lienholder and noteholder.

8

With respect to the pleading filed this

9 morning, thank you for the indulgence of an
10

opportunity to review it, unfortunately it is a

11

reiteration of the opposition in previous

12

pleadings that have been filed with Ms. Hampton.

13

So Counsel is intimately familiar with same.

14

It seeks Judicial Notices to be made

15

which would strike me as being more of proffers or

16

stipulations that we may make if this survives

17

demurrer prior to trial, or what I see is

18

something more akin to a declaratory judgment

19

seeking multiple declaratory findings to be made

20 by the Court when a Dec action hasn't been filed.
21

So I'm returned, Your Honor, to the
PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App.203

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1 procedural posture of today’s hearings, which is a
2

demurrer, and the standard for a demurrer under

3

8.01-273 is within the four corners of the

4

Complaint, have any of the Counts, with respect to

5

the three Defendants I am defending, Fay

6

Servicing, the Trust, and Samuel I. White, the

7

Substitute Trustee, have any of those been stated

8

in their prima facie elements in supporting

9

factual allegations adequately and sufficiently as

10

a matter of law to equip us to defend this suit

11

and to be on notice of these claims r with the

12

exception of fraud, and then it must be pled very

13

specifically and very particularly.

14

None of the claims that she has cited, in

15

this 150-page document are recognized in Virginia

16

or adequately pled.

17

are recognized potentially had they been

18

adequately pled are Intentional Infliction of

19

Emotional Distress and Slander of Title, and we've

I believe the only two that

20 previously argued why those are deficient with
21

just a reiteration at best of the prime facie
PRECISE REPORTING SERVICES (301) 210-5092

App. 204

(877) 4 A STENO

30

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1
2

31

elements and even those are lacking.
But when I return to hearing Ms. Hampton

3

and in reading her pleadings, she's very

4

articulate, but these are all malfeasances in

5

Servicing and in loan origination.

6

nothing to do with the actual sale and the

7

recording of that sale.

8

and authority and securitization and pooling.

This has

It is all about ownership

9 None of these things does she have a standing to

io enforce. None of these things are equivalent to
11

rising to the level of a private right of action.

12

And we have the authority in this FAM versus Bank

13

of New York Mellon case, recognized by the Eastern

14

District of Virginia in 2012 that says, very

15

plainly, "just as a noteholder is not required to

16

come to a court of law and prove its authority or

17

standing to foreclose on secured property so too a

18

nominal beneficial or substitute trustee, like

19

Samuel I. White, should not be required to prove

20

in court that it has the noteholder’s authority to

21

foreclose, or to conclude otherwise would allow
PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App. 205

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1 borrowers to compel Judicial intervention in any
2

foreclosure proceeding where a Deed of Trust has

3

changed hands or where a substitute trustee has

4 been appointed”, because Virginia law
5

unequivocally disallows a Show Me the Note claim

6

against a noteholder; it also disallows similar

7

Show Me the Noteholder Authority claims against

8

Defendants such as MERS and Substitute Trustees.

9

That is, Your Honor, exactly what we have

10

in this illegal foreclosure, failure to have

11

authority to foreclose, a lack of securitization

12

of the note and a lack of recording of

13

authorizations and similar claims that have been

14

reiterated in this now third bite of the apple in

15

this suit.

16

So respectfully, Your Honor, without

17

speaking for Defendants Countrywide and BANA, we

18

would ask that these three Defendants be dismissed

19 with prejudice and without granting further leave
20
21

to this Plaintiff to amend.
THE COURT:

All right.

Thank you.

PRECISE REPORTING SERVICES (301) 210-5092
App. 206

(877) 4 A STENO

32

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

With respect to the other Defendants.

2

MR. LEE:

Yes, Your Honor.

Patrick Lee

3

here representing Countrywide, Bank of America,

4

and Fannie Mae.

5

co-Defendants has eloquently gone through

6

essentially the arguments in the case.

7

33

My colleague representing

Bank of America is a former servicer of
Servicing was transferred in 2015 to

8

the loan.

9

Fay; Bank of America had nothing further to do

10 with it at that point.

There’s nothing — Bank of

11

America doesn't have a standing in foreclosing at

12

this point, it doesn’t have any authority at all

13 within the loan anymore.

All that authority

14

entitled us, Fay, as servicer of the Trust.

15

Many of the other allegations made

16

against Bank of America relates to the loan

17

origination or events in 2008 and 2009.

18

that part what's called the Statute of Limitations

19

as argued in our Plea in Bar.

All of

But, again, Bank of

20 America, Countrywide, which doesn't really exist
21

anymore as an entity, and Fannie Mae really had
PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App. 207

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

nothing to do with the foreclosure itself.

2

allegations regarding that should be solely

3

directed to Fay even if they were correctly

4

stated.

5

So any

She doesn't plead any Count in her

6

Complaint with any specificity to survive the

7

demurrer, so we request that it be dismissed

8

without, you know.

9

THE COURT:

10

All right.

And with respect to the Plea in Bar, are

11

you standing on the argument with respect to the

12

Statute of Limitations for Counts I, II, III, IV,

13

and V?

14

MR. LEE:

15

THE COURT:

16

Do you have any response to the Plea in

17

That's correct, Your Honor.

Bar?

18

MS. HAMPTON:

19

As to the

20
21

Okay.

Yes, Your Honor.
what I have, claimed here

with the predatory lending —
THE COURT:

Well, I just want you to

PRECISE REPORTING SERVICES (301) 210-5092
App.208

(877) 4 A STENO

34

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

address specifically with respect to the Statute

2

of Limitation issue with respect to Counts I, II,

3

III, IV, and V.

4

•

MS. HAMPTON:

With respect to that, Your

5

Honor, with respect to Counts I through IV, as to

6

the Statute of Limitations, since discovery of

7

this did not — Plaintiff’s discovery of this did

8

not happen until January of 2015 with

9

Blank Rome’s letter, dated December 31st of 2014.

10

Plaintiff did not discover the documents that were

11

in the loan of 2016

12

when I received them for the first time, because

13

they were not upon my settlement package,

14

Plaintiff believes that this is where that begins.

15

35

or 2006.

And at that point

But upon finding -- but upon — but in

16

review all of those things, I also discovered what

17

I believed to be and has developed over the course

18

of this time, almost two years, the discovery of

19

the fraud and the predatory lending, and only

20

discovered it because of Bank of America's failure

21

— if they had given me the modification that they
PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App. 209

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

were mandated to give me, I wouldn't have had to

2

even request a qualified written request.

3

And in their

in Blank Rome's

4

response, when they provided all the documents

5

which I had not seen and I'm not even sure were

6

really truly at settlement, it was through that

7

discovery that -- that Plaintiff believes that her

8

statute of limitations begins. Because she could

9

not possibly have known to go and seek after these

10
11

documents.
I had no idea of their

there was no

12

reason for Countrywide not to have sent the

13

documents to me except for that fact, I believe,

14

that they were concealing -- they were actually

15

concealing the loan and its terms.

And I truly do

16 believe this to be the time of discovery, and I
17

have filed suit within that time.

18

THE COURT:

19

MS. HAMPTON:

All right.

Thank you.

As to Count V, the Breach

20

of Contract, that was something that

21

Countrywide -- involved Countrywide.

And

PRECISE REPORTING SERVICES (301) 210-5092
App.210

(877) 4 A STENO

36

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

37

Plaintiff believes that her information may have

2 been sold to someone who may, at this point, be
3 part of the ownership of it now.
4

And I opted out of a Class Action suit

5

against them and reserved the right to sue at a

6

later date.

7

out of that suit, for which I have provided in one

8

of the Exhibits, that there was no stature,

9

further Statute of Limitations with regard to it.

And for my understanding/ by opting

10

THE COURT:

11

MS. HAMPTON:

12

All right.

Thank you.

Also, under

under

Predatory Lending -THE COURT:

13

Ma’am, that's not -- I just

14

wanted you to limit yourself — I've already heard

15

the Predatory Lending arguments, I just wanted you

16

to limit yourself to the Statute of Limitation

17

response.

18

MS. HAMPTON:

Okay.

19

THE COURT:

20

Anything on behalf of the Defendants?

21

MR. LEE:

All right.

None, Your Honor.

PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App. 211

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

THE COURT:

2

MS. KIM:

All right.
Only, Your Honor, that we join

3

also in these Pleas in Bar and demurrer arguments

4

that are common to all Defendants.

5

THE COURT:

Okay.

6

All right.

Very good.

7

With respect to count I, Predatory

8

Lending and Fraud in the Inducement as Countyside

9

(sic), I find that Plaintiff failed to allege a

10

cause of action for fraud based upon general

11

allegations in the demurrer, will be sustained

12

without leave to amend.

13

With respect to Count II, Fraud in the

14

Inducement, Fraud in the Concealment, Alteration

15

of the Deed of Trust, and Property Descriptions

16

and Violations of TILA/RESPA and Rescission, the

17

Court finds that there’s no allegation with

18

respect to fraud that was alleged with sufficient

19 particularity.
20
21

I find that the claim allegations with
respect to the Deed of Trust was altered is
PRECISE REPORTING SERVICES (301) 210-5092

App.212

(877) 4 A STENO

38

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1
2

without merit.
Plaintiff's own exhibits reveal that the

3

Deed of Trust was re-recorded in October of 2005

4

to correct the legal description.

5

Plaintiff did not specifically state how

6

the Deed of Trust was allegedly altered, who -

7

when it was altered, or who altered it.

8

MS. HAMPTON:

9

THE COURT:

Can I object —
No, ma'am, I'm ruling.

10

MS. HAMPSON:

11

THE COURT:

12

amount of damages was pled.

13

39

Okay.
In additional, no specific

There's no cognizable cause of action for

14

an alteration for a Deed of Trust and Property

15

Description.

16

respect to a claim for Violation of RESPA/TILA or

17

Rescission, so the demurrer to Count II will also

And there was no elements pled with

18 be sustained.
19
20
21

With respect to Count III is sustained
and with prejudice.
With respect to Count III, Fraud in the
PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App.213

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

Concealment as to Countrywide and Bank of America,

2

I find that there was not sufficient allegations

3

of fraud with particularity.

4

statements that she would have not entered into

5

the loan had the truth been disclosed is a

6

conclusory statement.

7

misrepresentations and concealment were also

8

conclusory, but they further failed to allege

9

any actions with particularity.

10

Count III should also

11

without leave to amend.

12

The general

The statements about

So demurrer to

will also be sustained

Count IV, Fraud in the Inducement as to

13

Countrywide and Bank of America, again I find that

14

the Plaintiff failed to allege fraud with

15

sufficient particularity as well as to what

16

specific misrepresentations were made.

17

Furthermore, the foreclosure sale is conducted and

18

completed over a year ago.

19

I am going to sustain the demurrer as to

20

Count IV, with prejudice, without leave to amend.

21

Count V, Breach of Contract, I'm going to
PRECISE REPORTING SERVICES (301) 210-5092

App. 214

(877) 4 A STENO

40

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
Plaintiff did not

1

sustain that demurrer as well.

2

allege how an alleged disclosure of her personal

3

information constituted a breach of contract.

4

failed to specifically indicate what provision of

5

what contract was allegedly breached.

6

allegations are based upon her belief and

7

therefore are insufficient.

8

an amount of damages; only that she was damaged in

9

an amount to be proven at trial.

She

Her

She failed to specify

10

Count VI, Violations of HAMP, IFR

11

Guidelines, the Consent Order with OCC/Treasury as

12

to Countrywide, Bank of America, Fay, PROF Bank

13

and U.S. Bank, Plaintiff appears to take issue

14

with Plaintiff's failure to offer HAMP

15 modification.

41

Further she argues that Defendants

16 have violated Plaintiff by not complying with
17
18

Fannie Mae's mandated guidelines.
I find that she was failed to state the
cogni — can’t say the word —

19

cognizical (sic)

20

a claim -- or a cause of action with respect to

21

Count VI, and thus the demurrer to Count VI will
PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App. 215

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

also be sustained without leave to amend and with

2 prejudice.
3

Count VII, Violation of Virginia Code

4

Section 55-119 as to Countrywide, Bank of America,

5

Fay, PROF and White.

6

argument that the Deeds of Trust were not properly

7

assigned to be without merit.

8

there's any authorization that -- that the statute

I find that Plaintiff's

I don't find that

9 would authorize a cause of action by a person such
There's no reported cases

10

as the Plaintiff.

11

regarding this statute and the cause of action-

12

such as the one that the Plaintiff alleges. I,

13

therefore, am going to sustain Count VII without

14

leave to amend and with prejudice.

15

Count VIII, Lack of Standing to

16

Foreclose, Wrongful Foreclosure as to BofA, PROF,

17

Fay and White.

18

Countrywide and its successors lacks the power of

19

exercise on behalf of the PSA.

20

furthermore disputes the validity of the

21

assignment of the Deed of Trust.

The Plaintiff argues that

The Plaintiff

The Plaintiff

PRECISE REPORTING SERVICES (301) 210-5092
App. 216

(877) 4 A STENO

42

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

admits in her pleadings that she does not allege

2

specifically to each Defendant as to their actions

3

are accountable.

4

In Counts IX and X, however, she also

5

claims Intentional Infliction of Emotional

6

Distress and Slander of Title through an attempt

7

to foreclose, Bait and Switched, Methods in

8

Servicing, Dual Tracking, you know, running the

9

Plaintiff through the mill over seven years of

10

HAMP applications.

11

Again, I find that she's failed to allege

12

facts sufficient to support a cause of intentional

13

infliction of emotional distress..

14

allegations are conclusory.

15

any actual emotional distress for which she sought

16 medical attention.

Plaintiff's

She does not allege

Rather, she stated that she

17

suffers from a lack of sleep, anxiety, and

18

depression as a result of the Defendants

19

attempting to collect a debt.

20
21

43

I am going to demurrer the Count -- I am
going to grant the demurrers to Count IX, with
PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App. 217

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1 prejudice without leave to amend.
Count X, Slander of Title as to all the

2

3 Defendants listed.

Plaintiff admits in her

4 pleadings that she has no special damages. These
5

Defendants did not conduct a foreclosure and

6 they're not properly named in this particular
7

count.

8

She does not specifically allege as to

9

each Defendant as to what their actions for which

10

they need to be held accountable in Counts IX and

11 X.
12

Her claim of Intentional Infliction of

13 Emotional Distress and Slander of Title through an
14

Intent of Foreclosure or Bait and Switch, Dual

15

Tracking, again, the HAMP applications are not

16

appropriate.

17

of slanderous words, a falsehood, a malicious

18

intent and special damages, she's done none of

19

those, therefore, her allegations are not

20

sufficient.

She must demonstrate a dissemination

Again, I find are merely conclusory.

21 And the demurrer to Count X will also be sustained
PRECISE REPORTING SERVICES (301) 210-5092
App.218

(877) 4 A STENO

44

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1
2

with prejudice and without leave to amend.
With respect to the Plea in Bar as to the

3

Defendants of Bank of America, Fannie Mae,

4

Countrywide, to Plaintiff's Second Amended

5

Complaint, the Court will grant the Plea in Bars

6

to Counts I, II, III, and V, as to be barred under

7

the two-year statute of limitations period for

8

fraud is set forth in Virginia Code Section

9

8.01-243 (a) .

10

45

In addition, I'm going to find Count II

11

is barred by this one-year statute of limitations

12

under RESPA, U.S. Code Section 12, Section 2614.

13 And I will further find that Rescission could be
14 barred under TILA 15 U.S. Code Section 1635 af.
15
16

I have also considered the five-year
statute of limitations with respect to Count V.

17

In addition, I know they — the

18

Defendant, BANA, contended that no cause of action

19

arose under 55.119 as alleged in Count VII, and in

20

the extent that it could have arisen, it would-be

21

barred by the two-year statute of limitation as
PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App. 219

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

set forth in 8.01-248.

2

With respect to the demurrer of the

3

Defendants of Fay Servicing, MERS, Samuel White, I

4

find that it is appropriate to sustain the

5

demurrer as to all counts.

6

to meet the pleadings standard.

7

demurrer to the Defendants of the Second Amended

8

Complaint, actually the third lawsuit.

9

also litigated in Federal Court.

I find that it fails
Again, this is a

This was

This matter has

10 been exhaustively litigated for a number of years.
11

The foreclosure sale has been conducted.

I don't

12

find that the Plaintiff has any cause of action at

13 this point that would allow this suit to continue,
14

and granting her leave I believe would be

15

inappropriate use of the Court's resources and of

16

the parties' resources, and I am, again,

17

sustaining all of the demurrers with prejudice

18 without leave to amend at this point.
Are there any questions about the Court's

19
20
21

ruling?
I just want to — are there any
PRECISE REPORTING SERVICES (301) 210-5092

App. 220

(877) 4 A STENO

46

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

questions, any clarifications?
MS. KIM:

2
3
4

47

Your Honor, we have a proposed

order.
THE COURT:

Okay.

If you would then

5

share that with Ms-. Hampton so that she can note

6

her objections and provide it to the Bailiff and I

7

will sign it.

8

Anything else?

9

MR. LEE:

Just for clarification.

You

10 mention the three Defendants.
11
12
13

THE COURT:

I meant — well, okay.

- well, Fay, MERS, Sam White -

is that

So
I' ve

got — Fay, MERS, Sam White, and I have Bank of

14 America, Fannie Mae, Countrywide.
15

Okay.

16

MR. LEE:

17

THE COURT:

Right?

Thank you, Your Honor.
Because some of them were in

18

some — I tried to get them all, but some were in

19

some counts, not in the others.

20
21

So to the extent that I wasn't clear,
demurrers as to all parties.

Pleas in Bar as to

PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App. 221

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1
2

some.
MS. KIM:

So just as a final housekeeping

3

note, we had an order for the demurrer to be

4

sustained as to all Counts with prejudice to my

5

three Defendants, we already added his three,

6

Countrywide/BANA/Fannie Mae, and then I have an

7

order separate and apart for -- to memorialize the

8

Court's ruling on your Plea in Bar?

9

THE COURT:

Correct.

10

All right.

Very good.

Okay.
And then, again,

11

ma' am, you can note your objections when you sign

12

the order.

All right?

13

MS. HAMPTON:

Thank you, Your Honor.

14

THE COURT:

15

Court will stand in recess.

16

(Whereupon, the hearing was concluded.)

All right.

Thank you.

17
18
19
20
21
PRECISE REPORTING SERVICES (301) 210-5092
App. 222

(877) 4 A STENO

48

KATHLEEN C. HAMPTON vs. PROF-2013-S3 LEGAL
CONDUCTED ON 1/3/2017
1

COUNTY OF PRINCE GEORGE'S:

2

STATE OF MARYLAND

3

49

SS:

I, E. Marsellas Coates, a Notary Public of

4

the State of Maryland, do hereby certify that

5

these proceedings were recorded by the Loudoun

6

County Circuit Court at the time and place herein

7

set out, and the proceedings were transcribed by

8 me from a CD format and this transcript is a true
9

record of the proceedings.

10
11

I further certify that I am not of counsel

12

to any of the parties, nor an employee of counsel

13

nor related to any of the parties, nor in any way

14

interested in the outcome of this action.

15
16
17

As witness my hand and notarial seal this
30th day of January, 2017.

18
19

My commission expires

20

December 14, 2020

Notary Public

21
PRECISE REPORTING SERVICES (301) 210-5092

(877) 4 A STENO
App.223

VIRGINIA

#c

osv £?. /a ^

Zf&#'SC??M/7<>'y

IN THE CIRCUIT COURT OF LOUDOUN COUNTY

KATHLEEN C. HAMPTON

)
)

Plaintiff, pro se

)

I'-O

rc?
<~n

)
V.

)

CASE NO. 98163

>

PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE, et al.

)

)
)
)

Defendants.

era

c

••

?,

•. :

o
7)

r-o
ro
CJT

)

PLAINTIFF’S MOTION FOR RECONSIDERATION
NOW COMES Plaintiff Kathleen C. Hampton (hereinafter "Plaintiff5’) and submits
Plaintiff5s Motion for Reconsideration as follows:
First, the hearing held January 3, 2017, was not only set for hearing of Defendants’
Demurrers and Pleas in Bar, but included Plaintiff’s Opposition to the Demurrers and Pleas in
Bar and further Pleas for Requests of Judicial Notice, as were filed together with Praecipe
indicating the same hearing date. At the scheduling hearing to set the January 3, 2017, hearing,
Defendants stated they would only need 20 to 30 minutes, but Plaintiff requested two hours on
the Demurrers (since previously in her experience with the earlier hearing on her First Amended
Complaint where all Counts (I thru IV) were dismissed for failure to pled sufficiently, it took
approximately 45 minutes. In that earlier Complaint, Plaintiff had not combined her Federal case
with the Circuit case, but was permitted to Amend the same to permit her to do so, which the

1

App.224

Second Amended Complaint is the result of. Thus with the Second Amended Complaint stating
new Counts (I through XII), not at issue in the First Amended Complaint, Plaintiff felt she
needed at least two hours, and Plaintiff also requested an additional hour for the Pleas for
Requests of Judicial Notice, and was granted the same, for a total of three hours to plead.
Accordingly, this hearing was to include a ruling on the Pleas for Requests of Judicial Notice,
filed according to Rule 4:1, and this Court failed in not permitting the further evidence to be
presented, which evidence clearly would support Plaintiff s allegations and arose and discovered
after the facts to the Second Amended Complaint; and had the new evidence been permitted, it is
believed that this Court would have come to a different conclusion and judgment on what
Plaintiff has pled as to the "continuous wrongful or negligent treatment” that the Defendants
have placed on Plaintiff since the initial loan in 2005, in addition to supporting Plaintiffs
allegations of fraud.
Had the Court accepted the further evidence, Plaintiff could have made motion for
summary judgment of the same and this court could have found instead that, in fact, the Deed of
Trust was void ab initio and, as such, was not barred by the Statute of Limitations; and, as has
been pled in this case and the Probate case. With the claim to Predatory Lending to the loan
itself, the court could have found and ordered the lender to modify the terms of the loan or cancel
the debt, or take any other equitable action and the same was not barred by the Statute of
Limitations, particularly as discovered at a later date, as part of the continuous wrongful and
negligent manner that Defendants have imposed on Plaintiff. These issues have been pled
throughout Plaintiffs Second Amended Complaint and further pleadings, but the failure of the
court to allow the further evidence, has deprived Plaintiff of procedural due process, as noted in
her objection to this Court*s Final Order.
2

App.225

As to the Legal Standard: “A plea in bar asserts a single issue, which, if proved, creates a
bar to a plaintiff’s recovery.” Hawthorne v. VanMarter, 279 Va. 566, 577, 692 S.E.2d 226, 233
(2010). In the absence of evidence in support of a plea in bar, this Court is to only consider the
pleadings and the facts as stated in the complaint are deemed true. Lostrangio v. Laingford, 261
Va. 495, 497, 544 S.E.2d 357, 358 (2001).
To this Plaintiff notes Defendants have not produced any evidence in support of a plea in
bar, and further Plaintiff has requested the Judicial Notices in support of her claim and as pled
under the following:
“Under Virginia Rules of Evidence, approved and promulgated, Supreme Court of
Virginia, September 12, 2011, Rule 2:104 Preliminary Determinations, (b) Relevancy
conditioned on proof of connecting facts: Whenever the relevancy of evidence depends
upon proof of connecting facts, the court may admit the evidence upon or, in the court’s
discretion, subject to, the introduction of proof sufficient to support a finding of the
connecting facts.
Further, under Code of Virginia §8.01-389. Judicial records as evidence; full faith
and credit; recitals in deeds, deeds of trust, and mortgages; “records” defined;
certification, A. The records of any judicial proceeding and any other official records of
any court of this Commonwealth shall be received as prima facie evidence provided that
such records are certified by the clerk of the court where preserved to be a true record,
through F. The certification of any record pursuant to this section shall automatically
authenticate such record for the purpose of its admission into evidence in any trial,
hearing, or proceeding.
Still, further, under Code of Virginia §8.01-386. Judicial notice of laws (Supreme
Court Rule 2:202 derived in part from this section). A. Whenever, in any civil action it
becomes necessary to ascertain what the law, statutory or otherwise, of this
Commonwealth, of another state, of the Unites States, of another country, or of any
political subdivision or agency of the same is, or was, at any time, the court shall take
judicial notice thereof whether specially pleaded or not. And B. The court, in taking such
notice, may consult any book, record, register, journal, or other official document or
publication purporting to contain, state, or explain such law, and may consider any
evidence or other information or argument that is offered on the subject.

3

App. 226

Under the above Rules and Codes, Plaintiff requests this Court to give Judicial
Notices ... in accordance with her Pleas as pled throughout her Oppositions to both Bank
Defendants’ and Trust Defendants’ Demurrers, and more particularly as pled, this new
evidence supports Plaintiff’s allegations and arise and discovered after the facts to the
Second Amended Complaint”
As to the Court’s Final Order dated January 3, 2017, Plaintiff has objected to the Court
ruling, as noted throughout her Complaint and pleadings that: “The result of Plaintiff s inability
to obtain the information necessary to Rule 9(b), the dismissal of the claim, is a material injurfy]
constituting a deprivation of Plaintiff s right to procedural due process,”
This court did not consider Plaintiffs pleas, nor rule on them prior to ruling on the
Demurrers, which Plaintiff had not only requested be done following acceptance of the same, but
instead seems to accept Defendants’ position wherein they claimed such evidence as merely
reiterative, and claimed the Probate Court confirmed that the foreclosure was ruled on as to their
acceptance, when, in fact, Probate Court’s confirmation did not apply “as to the correctness and
validity of the classifications and amounts set forth under ‘Amounts Credited to Note’ or similar
language on the Account of Sale, nor the amount of alleged deficiency, express or implied, if
any, on the Account of Sale.” Clearly, the Probate Court does not consider the validity of the
actual documents placed on file, as they would have found those documents improper. Plaintiff
had already been advised by the Commissioner of Accounts as to her hands being tied as to their
authority to rule on the same. She also advised that if she had more authority to do so, a good
deal of cases would not need to be filed in civil actions, although her burden in ruling would be
greater, but Loudoun County has not permitted those authorities yet, as have been permitted in
other counties in Virginia.
Further, as pled by Defendants, the statement that Plaintiff has lived in her home free
over the past eight to nine years, is simply not true and, as pled, Plaintiff has been harmed by
4

App.227

having to file Bankruptcy three times, not to mention the cost of the same, which by the filing
thereof, has caused substantial damage to her reputation, physical damage to her health from
stress, and financial damage which is obvious from her credit bureau record (which the first
bankruptcy carries through until December of 2019 - filed per the requirements of BANA
regarding the HAMP modification - and the final bankruptcy carries through April of 2022 filed to stop a foreclosure proceeding which occurred right before the purported sale of the loan
to PROF - and further damages, more likely than not, of being unable to secure a position in the
workforce since this wrongful behavior commenced. In addition, as pled, Plaintiff was forced to
pay higher taxes on her income and was not permitted to have payments to her attorney (funds of
over $30,000) credited to her taxes, which payments could have and should have been made to
BANA, under the HAMP modification had they provided the same.
Bank Defendants continuous negligent behavior is clearly evident by the Independent
Foreclosure Review’s (IFR) findings and the violations of BANA/TRUST’s “Consent Orders”
with the Office of Comptroller of the Currency (OCC)/Treasury mandated the remedy which
Plaintiff has pled for both in and out of Court for over seven years, although as can be shown
from the evidence already in this case and the evidence to which Plaintiff pled in Requests for
Judicial Notice, Defendants’ negligent behavior emanates from the original Countywide loan in
2005 per Predatory Lending. Further, to this, Bank Defendants claim that Plaintiff has no right
under their Consent Judgment under the National Mortgage Settlement; however, Plaintiff at no
time claimed to have a right under that settlement, as Plaintiff was neither solicited to participate,
as BANA should have done, nor was a participant. But under the Consent Order with the OCC
under Guidelines of the IFR, both Banks were mandated to comply and neither of them have, in
clear violation of their Order. Clearly, this is negligent behavior and the Request for Judicial

App.228

Notice to the OCC and Consumer Financial Protection Bureau (CFPB) records would support
these findings and confirm that Plaintiff is also entitled to bring action on these matters for
Defendants failure to comply.
The clear evidence that has been submitted in this Second Amended Complaint, which
has substantially been expanded on from the First Amended Complaint, should have been
recognized by this Court, as this Court had suggested to Defendants previously in the First
Amended Complaint that: “I would like both parties - again, I can’t order this - to explore the
possibility of a loan modification ... Because when this is all over, the Bank is going to have to
find and sell this property. I mean at the foreclosure sale, the Bank would be the person who
bought it?” ... followed by Ms. Czekala: “Yes.” ... with the Court continuing: “Right. So you’re
holding it on your books and just looking for a pragmatic solution. You’ve got somebody who
wants to be here. If there’s a loan modification that can address this issue, perhaps that would be
the viable solution. ... again, that’s a suggestion. I can’t order anyone to do anything. I will grant
the Plaintiff’s need to file her second amended complaint within 21 days from this date.” It
appears to Plaintiff that this Court did recognize that the extension of the loan modification was a
viable solution to this case and this is what Plaintiff has requested continuously both prior to and
within her case before this Court. And as she has specifically pled were mandated by the IFR
Guidelines and the Consent Order with the OCC with both BANA and US Trust.
That at the hearing, Plaintiff specifically pled, as follows:
“With regard to both Bank Defendants’ and, more particularly, Trust Defendants’
Demurrer stating the Second Amended Complaint ‘is largely non-sensical, ambiguous,
vague, and frankly hard to decipher and comprehend, let alone defend efficiently and
effectively’ and further ‘fails to state any plausible, valid, recognized Virginia claim upon
which relief can be granted,’ should this Court agree, under Rule 3:7, ‘a bill of particulars
may be ordered to amplify any pleading that does not provide notice of a claim or defense
6

App. 229

adequate to permit the adversary a fair opportunity to respond or prepare the case.’
However, Plaintiff believes she has not failed to state any factual or legal basis for any of
her Counts and by Plaintiff s further Pleas for Request for Judicial Notice, she has called
in further evidence to connecting the facts in this case. Still, should this Court agree with
the Defendants, this court may order a Bill of Particulars under Rule 3:7 and Plaintiff will
comply.”
This Court did not grant the same to Plaintiff, but according to its own findings, this should have
been permitted, particularly since this Second Amended Complaint was being heard on new
Counts that were not in the First Amended Complaint, nor Plaintiffs initial Complaint. Plaintiff
was not trying to ‘take two (or three) bites of the apple” (emphasis added) and was not
attempting to forestall an ultimate sale per foreclosure sale — she has always been fighting for her
home of 21 years, which the Defendants have continuously, through their negligent behavior,
failed to offer the modification that she was entitled to and in clear violation of Defendants’
Consent Orders.
Had the Court ruled to allow the further evidence that clearly connects the evidence, the
Court could have found both the DOT void ab initiot for which there is no statute of limitations,
and could have ruled on the Predatory Lending practice, as plaintiff had pled the court to do so,
both here in this case as well as the Probate Court; and had the evidence been allowed, Plaintiff
would have made motion to do so. By this Court’s failure to admit the evidence, Plaintiff has
been denied due process and the right of discovery.
The court ruled in favor of Defendants’ Demurrers and took them at their word, when in
fact, Defendants deceived the court on many issues, particularly never addressing those Consent
Orders and the mandated modifications that should have been extended and, had they done so,
there would be no issue before any court, and Plaintiff has made it very clear as to this being the
crux of her Complaints; and further foreclosure proceedings were barred as the Consent Order

App. 230

IFR Guidelines called specifically for “suspension of foreclosure” and, if foreclosed upon and
still in the hands of the Noteholder, the Guidelines specifically called for “rescission of the
foreclosure sale.” Clearly, this claim is not barred by the Statute of Limitations and is a clear and
precise pleading in Plaintiff5s Second Amended Complaint and pleadings.
Further, through the Defendants’ continuous wrongful, negligent behavior as determined
through the IFR, and their behavior continuing on through this suit and the foreclosure sale,
Plaintiff believes that: “[TJhat the statute runs from the last date of the continuous negligent
treatment is just and equitable. A rule to the contrary often results in miscarriage of justice and
penalizes a patient who, under continuous treatment, assumes that due care and skill will be
exercised.” Farley v. Goode, 219 Va. 969, 252 S.E.2d 594, 600 (1979) {quoting Hotelling v.
Walther, 169 Or. 559, 130 P.2d 944 (1942)).” And in Plaintiffs opinion, the continuous
negligent behavior has not stopped as yet for these Defendants have failed the remedies of their
Consent Orders and have against those Consent Orders foreclosed on Plaintiff and have not
rescinded the foreclosure as was required by the IFR Guidelines. Clearly Bank Defendants’ (and
Trust Defendants’ as successors) continuous negligent behavior began with the loan origination
and, accordingly, Plaintiff s claims in Counts I and II, regarding both the validity of the DOT
and Predatory Lending should not be barred by the Statute of Limitations, as their negligent
behavior has been continuous.
Plaintiff also, from a review of the taped hearing, has found that Trust Defendants
coached this Court “as a housekeeping matter” that the Demurrers of the Defendants were
sustained with prejudice without granting Plaintiff leave to further amend the Second Amended
Complaint and further that Plaintiffs Second Amended Complaint was dismissed with prejudice
and without granting Plaintiff further leave to amend and all the defendants were dismissed with
8

App.231

prejudice and further this ruling was to ALL Counts. It is clear from that hearing, that the Court
failed to address Counts XI - Fraud with the IRS and XII - Unlawful Detainer, which could
further have been ruled differently had Plaintiffs Request for Judicial Notice been admitted to
this Court. This Court, without addressing either of these Counts, has ruled them to be included
in ALL Counts as dismissed with prejudice per Defendants’ coaching. And again, with regard to
Defendants’ Plea in Bar, this Court ruled on some counts but not all; however, the Final Order
sustains with prejudice without leave to further amend and dismisses with prejudice Plaintiffs
Second Amended Complaint without granting Plaintiff leave to further amend, and further
dismisses all Defendants with prejudice. It is not understood by Plaintiff why Counts XI and XII
were neither addressed nor made apart of any ruling herein, but Plaintiff respectfhlly requests an
explanation or ruling on the same, for to merely move on ALL the Counts, as coached by the
Defendants, is a clear injustice to the Plaintiff herein.
As Plaintiff did file her objection to this Court’s ruling, repeating here: “The result of
Plaintiff’s inability to obtain the information necessary to Rule 9(b), the dismissal of the claim, is
a material injurfy] constituting a deprivation of Plaintiff’s right to procedural due process”
coupled with this Court’s failure to accept the Requests for Judicial Notice, Plaintiff respectfully
Motions for Reconsideration. Again, as Plaintiff has pled throughout her case, Plaintiff believes
her evidence is clearly shown in the volumes of Exhibits and Plaintiff believes this evidence to
fully support a cause of action and has petitioned this court to rule on, even if insufficiently pled,
and with the acceptance of the Request for Judicial Notice, the burden of proving a cause of
action would have been lifted and the cause of action would have exposed itself to this court.
Further, Plaintiff submits herewith Plaintiff’s Memorandum in Support to Motion for
Reconsideration, wherein Plaintiff attempts to clarify for this Court the exhibits which show

App. 232

clear evidence, in support of her allegations, as Plaintiff believes that some of this Court’s ruling
did not consider or had been misinterpreted as to some of the evidence submitted supporting
Plaintiffs allegations. And, in the interest ofjustice, Plaintiff pleas for Reconsideration based

on

the same.
Dated: January 10,2017

Respectfully submitted,

Kathleen C. Hampton, Plaintiffpro se
For Security Purposes, Please Note
Change of Address to:
P.O. Box 154
Bluemont, Virginia 20135
540-554-2042

10

App.233

VIRGINIA

9^ /ks'&T? P OSS

/# <0/^

IN THE CIRCUIT COURT OF LOUDOUN COUNTY
t-o

o

KATHLEEN C. HAMPTON

C!

)

c_

)

Plaintiff, pro se

Ms

.• >

)
)

v.

) CASE NO. 98163

<’"0
.3

)

CD

~a

)

PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE, etal.

r\>
C'l

)
)
)

Defendants.

)

PLAINTIFF’S MEMORANDUM IN SUPPORT OF
MOTION FOR RECONSIDERATION
NOW COMES Plaintiff Kathleen C. Hampton (hereinafter “Plaintiff’) and submits
Plaintiffs Memorandum in Support of Motion for Reconsideration, and as this applies to this
Court s rulings at the hearing of January 3,2017. Plaintiff will also make these clarifications on a
Count by Count basis as the Court did in their rulings. Plaintiff submits the following as
clarifications to some of the pleadings, particularly as supported in the Exhibits, which Plaintiff
believes the court had in its rulings failed to consider or misinterpreted as to some of the
evidence submitted supporting Plaintiffs allegations and, in the interest ofjustice, Plaintiff pi eas
for Reconsideration based on the same.
As to Count I, Predatory Lending and Fraud in the Inducement as to Countrywide, this
court ruled that Plaintiff failed to write a cause of action. Plaintiff takes the position that
Countrywide, notoriously known for its Predatory Lending practices, who also greatly
1

App. 234

t?

contributed to the “crash” in the housing industry by their inflated appraisals, which further
contributed the subsequent crash in our economy, fraudulently sold Plaintiff a mortgage loan that
they had to have known would never be able to be fully paid back and further imposed a
prepayment penalty not disclosed earlier and not understood, in addition to failures to provide
TILA/RESPA documents required. Had the appraisals been true appraisals, Countrywide would
have had only one first mortgage. Plaintiff requested this Court to make an assessment on her
case as supported by her loan documents, Am. Compl. Exhs. 1 (original Deed), 2-A through 2-B
(original Deeds of Trust), together with new Exhibits 2-C through 2-D (original HUD Settlement
Statements) and if the Court determines that a loan was predatory, it could order the lender to
modify the terms of the loan or cancel the debt, or take any other equitable action. It is not clear
that this court has examined those loan documents; for if they had it would have found a cause of
action. Plaintiff also wishes to clarify here that, with regard to the property description, this court
could compare the initial DOTs with the re-recorded DOTs and found that the only change made
therein was the substitution of 5.24 acres for the 24.0463 acres listed in the original Deeds.
Plaintiff discovered, in 2015, that these descriptions were still incorrect and placed a claim with
her Title Insurance Company, whose attorney advised that such placed a “Cloud on Title” and
could only be corrected by a “Corrective Affidavit” as to all Deeds on record in the court's
Recorder of Deeds. Plaintiff mentions this here because the Court seemed confused as to the
Alteration of the Deed of Trust and the property description thereto, as claimed in Count II.
As to Count II, Fraud in the Inducement, Fraud in the Concealment, Alteration of Deed of
Trust and Property Description, and Violations of TILA, RESPA and Rescission as to
Countrywide, to which Plaintiff requested the court to look at each of the factors which
constitute predatory lending and in this Count particularly more so, as was supported by the
2

App. 235

exhibits thereto and would have been further supported by the Blank Rome attachments to their
letter of December 31, 2014, had the same been permitted to be entered in this case per
Plaintiffs Request for Judicial Notice. Absent all of the documents pertaining to this refinance, it
is not made totally clear, but what is clear from the documents already identified as exhibits is
that fraud is evident, particularly with a transfer of the secondary loan to HSBC where
Countrywide gave no notice, the letter dated April 1, 2006, was effective April 1, 2006, and as
such Plaintiffs first and only payment was on May 1, 2006, with a June payment being included
in the refinance. For a better understanding of the fraud here, please refer to Am. Compl. Exh. 5.
First, please note this Corporate Assignment of Deed of Trust was purportedly executed on
August 4, 2005, and attaches the property description as to the original Deed of Trust, but
references the corrected Deed of Trust filed on October 17, 2005. How could Countrywide have
known on August 4, 2005, that the Deed of Trust would be filed on October 17, 2005 - they
could not have - and Plaintiff believes that this ffaudently recorded document was filed to
conceal the fact that Countrywide was not entitled to a prepayment penalty in its refinancing of
the loan, which not only increased Plaintiffs loan amount by $16,800, but the subsequent
refinance was a further predatory lending loan, which harmed Plaintiff even further in the loan
product they sold was set up to fail. See further Am. Compl. Exhs. 4-A, consolidation loan
application for $407,400, based on an appraisal of $582,000, dated 5/26/2006 and compare this
to Am. Compl. Exh. 4-B, end loan product refinance without cash back application for $391,800,
based on an appraisal of $501,000, dated 6/8/2006; therefore, it would seem that the same home
lost $81,000 over a period of 13 days. This is a clear sign of Predatory Lending and, although
Plaintiff had requested a loan without cash back, strictly a refinance, not being satisfied with the
higher offer in the consolidation loan, nor with its future payments, and under the same terms as

App. 236

the consolidation loan, i.e., a five-year interest only arm, which lender still failed to advise
Plaintiff as to its loan product, the loan requested was not what she ultimately received and the
same was concealed from her, particularly since she was never provided with an amortization
schedule, nor HUD Settlement Statement, as well as documents under TILA, RESPA and
Rescission. Other new Exhs. 4-C and 4-D further support the claim of predatory lending.
As to the Alteration of the DOT, the court should compare Am. Compl. Exhs. 6-A (as
recorded in the court records) with 6-B (Plaintiff’s copy given at settlement). Clearly, from the
alteration on page 1, it is shown that someone crossed the reference to the loan being a refinance
out, which again Plaintiff believes was done to conceal the fact that Countrywide was not
entitled to a prepayment penalty and the loan was one of predatory lending. As to Plaintiff
pleading with specificity as to who, what, where, when, or why, Plaintiff could only find out this
through discovery, as she was not in the presence of who, what, where, when or why as this
alteration took place outside of the settlement which took place at Plaintiff’s employment and the
representative for Countrywide was not employed by Countrywide, except by being a notary was
employed to obtain Plaintiffs signatures. Perhaps it was the notary who failed to give Plaintiff
all of the documents that she had been missing until Blank Rome supplied the same. Clearly, this
alteration was done after Plaintiffs signing of the same. Further to this, the alteration to
description on page 13 of the Deed of Trust, which page was not at settlement as can be
determined by the lack of Plaintiffs initial thereto, was not discovered until April or May of
2015, as it was furnished by Wittstadt Title and Escrow in an attempt to foreclose. It was at this
time that Plaintiff put in her claim with her Title Insurance Company to correct this wrong
description, that is, after Plaintiff did a title search on her property, revealing the true description

App. 237

that it should have been from the original sale. Plaintiff was advised by counsel that this put a
'‘Cloud on Title” and, until corrected, should have prevented anyone from foreclosing.
This information was provided to White, not only by Plaintiffs Loss Mitigation
Specialist (“Burch”) in a Cease & Desist and further QWR, but by counsel for Plaintiffs Title
Insurance Company, as White was listed in the original DOT and he needed to approve the
Corrective Affidavit as well. However, Plaintiff is the main party to this Corrective Affidavit
being the original holder of the Deed from the original sale and Plaintiff did not receive her copy
of those Corrective Affidavits until December 7, 2015, after the foreclosure sale, and Plaintiff
could not approve the same since they were still erred. Since this court seemed quite confused as
to the alteration to the description and seemed to believe that it was corrected in the October 17,
2005, re-recorded Deed and Deeds of Trust, Plaintiff first points to Am. Compl. Exh. 6-A, p.13
to compare to that of any of the re-recorded Deed descriptions filed October 17, 2005, and to
perhaps save some time in comparing the same, Plaintiff can point specifically to her edited
version as published in the newspaper prior to BANA’s attempt to foreclose as mentioned above
through Wittstadt in Am. Compl. Exh. 41 referenced in its Exhibit A attachment. Plaintiff has
been advised by counsel that any Deeds, Deeds of Trust, Deeds of Assignment, etc. must be, in
their description, verbatim to that on the record. As to the what, where, when, who or why,
Plaintiff could not advise since this was never provided at settlement as evidenced by the lack of
her initials thereto. This alteration clearly did put a "Cloud on Title” as well. However, and
further to this, the real “Cloud on Title” exists as to the real description that has not been filed on
this property and has to date not been corrected via “Corrective Affidavit.”
Fast forward to White and the foreclosure procedure of December 7, 2015, and BANA’s
Assignment of Deed of Trust to PROF, executed December 17, 2015 (10 days after foreclosure),
5

App.238

and filed in this court December 28, 2015 (21 days after foreclosure), BANA places a description
on the property “Of Nassau on April 3, 1947 as Map No. 4390, which said portions of said lots,
when taken together, are more particularly,” which only muddies the “Cloud on Title” further
(Am. Compl. Exh. 56). Further, as Plaintiff has requested for Judicial Notice of the Power of
Attorney as given to the attorney in fact who signed this Deed of Trust, BANA conceals its sale
to a hedge fund named PRMF Acquisition LLC. Plaintiff also believes that with the purported
sale to PRMF, BANA no longer had the power to Assignment of the Deed of Trust directly to
PROF. Nor did PROF have the power to Assign a Substitute Trustee. This concealment causes
further confusion and Plaintiff never trusted that PROF had any rights to assign or foreclose,
particularly since BANA never advised Plaintiff of a sale and was required to do so per the DOT.
By the filing of a Deed of Foreclosure (new Exh. 60) dated December 7, 2015, wherein it
puiports that Plaintiff “did grant and convey the hereinafter described property to Samuel I.
White, Trustee(s), in trust, to secure the payment of the principal sum of $391,800.00, with
interest thereon- as evidenced by one negotiable promissory note” is completely incorrect,
particularly since Plaintiff filed suit, per Plaintiffs right in the DOT, and further owed no interest
or principal per bankruptcy filing six years earlier, and further, tire description of the property is
not stated verbatim to prior Deeds and Deeds of Trust and further fails as a correct description of
the property, but it is the description of the property per counsefs first “Corrective Affidavit,”
which has not been approved or filed since it still remains incorrect. Clearly, White is attempting
to alter the description where Plaintiff through the original Deed has not approved the correction
and nothing verbatim to the Deeds on file has been provided.
Plaintiff has further requested via Request of Judicial Notices this Court’s Recorder of
Deeds records of Trustee White’s Certificate of Partial Release, filed August 16, 2016, and

App. 239

recorded as Instrument No. 20160816-0052847, as it applies to the Property in this case. Plaintiff
should point out here that this instrument puiports to release some 21.88 acres of Plaintiffs
neighbors5 adjoining properties, which clearly demonstrates White’s failed understanding as to
the incorrect description of the property that puts a “Cloud on Title,” and seems to desire to
correct the description, but fails and merely places more mud on the “Cloud of Title.”
Had this court allowed the Request of Judicial Notice, Plaintiff believes that with
motioning for judgment on the same, this court could have and should have found, based on the
evidence alone, that the Deed of Trust is void ab initio and could have found further that
Plaintiffs refinance loan of 2006 does in fact constitute predatory lending and could order the
lender to modify the loan or cancel the debt, or take any other equitable action. Further Plaintiff
does not believe the same to be barred by any Statute of Limitations, as the wrongful, negligent
behavior has continued throughout the life of this loan.
As to Counts III - Fraud in the Concealment and IV - Fraud in the Inducement, Plaintiff
relies on the Bloomberg Audit, which should be recognized Nationwide.
As to Count V - Breach of Contract, Plaintiff believes that permitted Discovery, should it
be found that Countrywide in fact sold my information to an investor, this is a breach of duty of
care and contract, and it continues as wrongful, negligent behavior throughout the life of the
contract.
As to Count VI - Violations of HAMP, IFR Guidelines and the Consent Order with
OCC/Treasury, Plaintiff believes that her count here is patently clear and has patently
demonstrated all Defendants continuous wrongful, negligent behavior, but as requested for
Judicial Notice, Plaintiff could confirm this wrongful, negligent behavior with the records of the
7

App.240

OCC/Treasury and CFPB. Further, as to the National Mortgage Settlement, Plaintiff was not a
part of, having not been solicited by BANA, but as to the Consent Order with the OCC, that
Order mandated the remedies of the IFR Guidelines. This clearly is a cognizable cause of action
and a patently clear violation of Defendants Consent Orders.
As to Count VII

Violation of Virginia Code §55-119 and as requested for Judicial

Notice of this court’s Probate Court, this court could and should rule on the validity of those
documents placed on file and which are invalid, as further supported in Plaintiffs Request for
Probate Court’s records.
As to Count VIII — Lack of Standing to Foreclose / Wrongful Foreclosure, this court
stated merely Plaintiffs position taken and moved onto Counts IV and X. Plaintiff believes she
has clearly stated the elements supported by evidence and, per the DOT, recites paragraphs
which support her claims.
As to Counts IX - Intentional Infliction of Emotional Distress and X - Slander of Title,
Plaintiff has pled this clearly throughout her Complaint She has not however pled it to the point
where she could have included her doctor bills, and, as advised previously, had Plaintiff included
all of her evidence with regard to all of her claims, this court would have to weed through five
feet of documents. It should also be noted that Plaintiff continues to be burdened with
requirements too difficult to prove without the power of discovery. Had Plaintiff been permitted
to proceed with discovery, the further discovery would have supported Plaintiffs claims and this
Court’s ruling Plaintiff believes would be in Plaintiffs favor, especially given the continuous
wrongful, negligent treatment that these Defendants are guilty of.

8

App. 241

As to Counts XI

Fraud with the IRS and XII — Unlawful Detainer, clearly Fay is a

foreclosure mill and has caused a serious conflict to arise with the IRS and in clear violation of
the Bankruptcy laws, which will damage Plaintiff and can cause irreparable financial damage
and it is believed Fay did this intentionally as a serious act of extortion against her property, her
reputation and her physical, mental and financial well being. As to the Unlawful Detainer, this
has already damaged Plaintiff since this in now on public record and with such on my record,
will continue to cause damage as to renting a home, obtaining a job, and even obtaining credit.
This wrongful negligent procedure has further caused this Plaintiff a great amount of stress and
Plaintiff is certain Fay did this intentionally as a serious act of extortion against her property, her
reputation and her physical, mental and financial well being. Further to this, this court neither
addressed these counts, nor ruled on them, only stating “as to Defendants housekeeping matter”
that Defendants Demurrers were dismissed as to all counts with prejudice and without leave to
amend.
In addition to the above, Plaintiff wishes to address what Trust Defendants seem to
emphasize in their Demurrers, that being that Virginia does not recognize “a show me the note”
or show me the noteholder authority to foreclose” claims. Plaintiff responds that pursuant to

u.c.c. - Article 3-§3-501(b)2(l), Plaintiff is entitled to demand presentation of the negotiable
instrument. That demand has been ordered multiple times by Plaintiff, beginning June 11, 2012,
followed by August 17, 2013, and further included in the QWRs that were ordered every year by
Plaintiffs attorney’s office. The demand was for presentation for inspection of “MY
UNALTERED, ORIGINAL WET INK SIGNATURE PROMISSORY NOTE (front and back)
and ALLONGE together with the ORIGINAL WET INK MORTGAGE AGREEMENT in
Loudoun County.” At no time did BANA provide the same for inspection and provided only
9

App.242

copies of the same. Plaintiff has pled in her Request for Judicial Notice the presentation of the
Note with her original wet ink signature promissory note, because as pled, Plaintiff does NOT
believe the signature to be hers and had requested that at a subsequent hearing, the same be
examined by a forensic expert. Trust Defendants should have no issue with presentation of the
same, if in fact they hold the original wet ink signature promissory note. The issue with their
authority to foreclose was based on the Assignments validity, not their Authority.
Also further to all of the court’s rulings, Plaintiff did proffer to file a “Bill of Particulars”
under Rule 3:7, in order to clarify her claims should this court fail to find them sufficient.
Finally, according to Virginia Code §55-59(9) “The party secured by the deed of trust,
or the holders of greater than fifty percent of the monetary obligations secured thereby,
shall have the right and power to appoint a substitute trustee or trustees. The instrument of
appointment shall be recorded in the office of the clerk wherein the original deed of trust is
lecorded prior to or at the time of recordation of any instrument in which a power, right,
authority or duty conferred by the original deed of trust is exercised.” (emphasis added) On this
final note, Plaintiff Requested for Judicial Notice from the Security and Exchange Commission
(SEC) to give clear evidence that PROF was never registered with the SEC and thereby was not
secured by the DOT and had no powers to assign, which was done in their Assignment to Trustee
White.
In the interest ofjustice, Plaintiff pleas for Reconsideration based on all of the above.
Dated: January 10,2017

Respectfully submitted,

try

/

* Kathleen C. Hampton, PJgffiiffpro se
10

App. 243

VIRGINIA
/_

<9

IN THE CIRCUIT COURT OF LOUDOUN COUNTY

A&

•••

PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Appellee,
Plaintiff, Unlawful Detainer
Defendant, Counterclaim

\

X*

)
)
)
)
)
)
)

V.

KATHLEEN C. HAMPTON
Appellant, pro se
Defendant, Unlawful Detainer
Plaintiff, Counterclaim

) CL00118604-00, Unlawful Detainer
) CL00118605-00, Counterclaim
)
)
)
)

DEFENDANT’S MOTION TO DISMISS
COMES NOW, Appellant/Defendant/Counterclaim Plaintiff, Kathleen C. Hampton
(“Defendant” or “Hampton”), pursuant to the Rules ofSupreme Court of Virginia Rules 32(b)(1)
and 12(h)(3) and all other applicable statutory, common law, and legal and equitable authorities,
to respectfully move this Court on Defendant’s Motion to Dismiss, as this court lacks subjectmatter jurisdiction.
As was raised in the General District Court, in Parrish v. Federal National Mortgage
Association (292 Va, 44, 787 S.E.2d 116 (2016), the Supreme Court of Virginia held that “where
a borrower raises a bona fide question as to the validity of title in a case originally filed in the
General District Court (or subsequently appealed to the Circuit Court from the General District
Court), the case must be dismissed without prejudice because the General District Court lacks
original subject matter jurisdiction to adjudicate the validity of title.”
1

App. 244

;
-X*

First, this is an Unlawful Detainer Appeal proceeding, where the Plaintiff does
not
possess and Hampton claims possession of property as a Constitutional Right fiom the “unlawful
taking” by PROF-2013-S3 Legal Title Trust and where the Plaintiffs right of possession has
been disputed.
Second, this is also a combined suit where Hampton filed Counterclaims based on the
“wrongful” foreclosure sale, an alleged “forged” Note, a material breach to the Deed of Trust
(DOT) thus Void Ah Initio, an invalid 404 Notice, improper notices to foreclosure, breaches to
the DOT as not all conditions precedent met, improper assignment to Substitution of Trustee,
wrong party proceeding, a known “Cloud on Title,” in addition to filing suit challenging the
foreclosure prior to the foreclosure, and a multitude of other torts, including the validity of all
Deeds, Assignments (including challenging the initial Assignment signed by MERS), and all
such other records, on file.
In addition to my case before the U.S. Supreme Court on my Constitutional Rights to
Due Process* set to go to Conference October Ist, Hampton has filed Complaints with the Office
of Attorney General, Predatory Lending Unit, with regard to her Predatory loans initiated
through Countrywide and taken over by BANA, who is under investigation, and both BANA and
US Bank (on behalf of its Trusts, including PROF) are under investigation in that office, with
regard to Hampton’s mortgage loan as to violations of the “Consent Judgment” on the National
Mortgage Settlement and the “Consent Orders” on the Independent Foreclosure Review with the
OCC/US Treasury.
The General District Court erred in judgment and award of possession and imposing an
$8,000 Appeal Bond on Hampton, where they should have dismissed the same in light of Parrish
and the fact that I had raised that case and “a bona fide dispute of title,” including its validity.

2

App. 245

WHEREFORE, for all of the reasons stated above, and in the hopes of being considered
at Pre-Trial Conference on October 20, 2019, Defendant respectfully request this Court for
an
Order to Dismiss without prejudice, on the basis that the lower court erred i
in making that
judgment, the award of possession be void, and Hampton’s Appeal Bond be released to her

, and
for any further award of reasonable expenses incurred in this Appeal, which should never have

been imposed on Hampton, who is only trying to defend herself &om the “unlawful taking”
her property by PROF.
Respectfully submitted,

Kathleen C. Hampton, Appellant pro se
Defendant/Counterclaim Plaintiff

3

App. 246

of

CERTIFICATE OF SERVICE
I hereby certify that on September 18, 2019, a true copy of the foregoing Motion to
Dismiss is being sent via first class US Mail to and e-mailed to lkim@siwDc.com for early
receipt:
Appellee
Plaintiff/Counterclaim Defendant
Lisa Hudson Kim, Esq.
SAMUEL I. WHITE, P.C.
5040 Corporate Woods Drive, Suite 120
Virginia Beach, Virginia 23462
Counselfor PROF-2013-S3 Legal Title Trust,
by US Bank National Association, as Legal Title Trustee

Kathleen C. Hampton, Appellantpro se
P.O. Box 154
Bluemont, Virginia 20135
540-554-2042 -

4

App.247

STATE OF VIRGINIA
COUNTY OF LOUDOUN
CERTIFICATION
I, Kathleen C. Hampton, hereby certify that I am the Appellant in this action. I have read
the foregoing Motion to Dismiss and it is true of my own knowledge, except as to those matters
stated on information or belief, and as to those matters, I believe it to be true.
I declare under penalty of perjury under the laws of the Commonwealth of Virginia that
the foregoing is true and correct.
Date of execution: September 18,2019

Kathleen C. Hampton, AppeUanffpro se
SWORN to and subscribed before me, this 18th day of September, 2019.

Q.

Q
My Commission Expires:

NOTARY

\h\hm

lit

ills X>V/|f

5

App. 248

#6
Transcript of Hearing of
October 4, 2019

App. 249

VIRGINIA
IN THE CIRCUIT COURT OF LOUDOUN COUNTY

PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Appellee,
Plaintiff, Unlawful Detainer
Defendant, Counterclaim

)

)
)
)
)
)
)

v.

) CLG0118604-00, Unlawful Detainer
) CL00118605-00, Counterclaim
)

KATHLEEN C. HAMPTON
Appellant, pro se
Defendant, Unlawful Detainer
Plaintiff, Counterclaim

App. 250

)
)
)
)

October 4, 2019
Leesburg, Virginia
Hearing before The Honorable Stephen E. Sincavage, Chief Justice at the Loudoun County
Circuit Court, 118 East Market Street, Leesburg, Virginia 20176 and were present on behalf of
the respective parties:

APPEARANCES:
On behalf of the Appellant:
Kathleen C. Hampton, pro se
P.O. Box 154
Bluemont, Virginia 20135 .

On behalf of the Appellees:
Daniel J Pesachowitz, Esq., standing in for
Lisa Hudson Kim, Esq.
SAMUEL I. WHITE, P.C.
5040 Corporate Woods Drive, Suite 120
Virginia Beach, Virginia 23462
Counsel for PROF-2013-S3 Legal Title Trust,,
by U.S. Bank National Association, as Legal Title Trustee

App. 251

PROF-2013-S3 LEGAL TITLE TRUST v. KATHLEEN C. HAMPTON
CONDUCTED ON 10/4/19
PROCEEDINGS

1
2
3

AUDIO 15:45:22
JUDGE SINCAVAGE: Hampton versus PROF-2013-S3. Good

4
5

afternoon.
MR. PESACHOWITZ: Good afternoon Your Honor. Daniel P. for

6
7

PROF-2013.

8

JUDGE SINCAVAGE: Yes sir.

9

MS. HAMPTON: Kathleen Hampton.

10

. JUDGE SINCAVAGE: Yes ma’am. I’d give each about ten minutes.

11

MR. PESACHOWITZ: And this is for Motion.

12

JUDGE SINCAVAGE: Yes. Alright go ahead Ms. Hampton

13

MS. HAMPTON: We are here on my Motion to Dismiss and I have

14

prepared a package which I think will help make it easier to follow along with. As further

15

evidence in support of my Motion to Dismiss I offer first my notes read at court 11-14-18

16

where I raised Parrish, as well as Ramos v. Wells Fargo Bank and Mathews v. PHH

17

Mortgage Corp. And where the General District Court should have dismissed without

18

prejudice this case. Here on Appeal, where again I have raised a bonafide question as to

19

the validity of title, the case must be dismissed without prejudice because the General

20

District Court lacks original subject matter jurisdiction to adjudicate the validity of title

21

and this court lacks subject matter jurisdiction on the trial... on Appeal. As to validity of

RACHEL L. BROWN TRANSCRIPTION

App.252

PO Box 1268, Leland, NC 28451

607-793-6589

PROF-2013-S3 LEGAL TITLE TRUST v. KATHLEEN C. HAMPTON
CONDUCTED ON 10/4/19

4

1

title I submit my, my copy of my reply to SCOTUS and direct your attention to particularly

2

the asterisk marked and also the Exhibits attached to it as well. On the bottom page of

3

number one... page one not only should a court of record find the Deed of Trust void ab

4

initio as it is, is evidenced in the Deed of Trust where under Code of Virginia Section 6.2-

5

1614 Prohibitions applicable to mortgage lenders and mortgage brokers. No mortgage

6

lender shall 1) Obtain any agreement or instrument in which blanks are left to be filled in

7

after execution and then 7) intentionally engage in the act or practice of refinancing a

8

mortgage loan within twelve months following the date the refinanced mortgage was

9

originated unless the refinancing is in the favor... is in the borrower’s best interest. Both

10

Exhibit A and Exhibit B... Exhibit B is the second page. If s just the first page of the Deed

11

of Trust it is obvious here that at the time of signing the same the blank spaces were a

12

violation of that code. Blank space with blanks referred to page numbers of the re-financed

13

subprime loans and were never filled in thereafter and in fact, they were struck through.

14

This is evident on 6A as if it were not a re-finance, concealing the fact that Countrywide

15

was not entitled to a prepayment penalty for an in-house refinance. In addition to the fraud

16

and deceit in recorded documentation with the Clerk’s Office here regarding HSBC in, in

17

further support of Hampton’s claim to a void ab initio Deed of... Deed of Trust. Notable

18

also is this refinance was done within eleven months and not in Hampton’s best interest

19

since it was set to fail as clearly it was unaffordable. In addition her loan increased by

20

nearly seventeen thousand dollars ($17,000) for a re-finance recorded not as a re-finance

21

and without cash out. Continuing from page three in the extract portion this... The parties

RACHEL L. BROWN TRANSCRIPTION

PO Box 1268, Leland,NC 28451

607-793-6589

App. 253

PROF-2013-S3 LEGAL TITLE TRUST v. KATHLEEN C. HAMPTON
CONDUCTED ON 10/4/19

5

1

secured by the Deed of Trust shall have the right and power to appoint a substitute trustee

2

or trustees. The instrument of appointment shall be recorded in the Office of the Clerk

3

wherein the original Deed of Trust is recorded prior to or at the time of recordation of any

4

instrument in which a power of right authority or duty conferred by the original Deed of

5

Trust is exercised. And on Exhibit 54 the substitution of the Trustee here PROF appointed

6

a substitute Trustee while it no longer owned the loan as it had been sold to PRMF

7

Acquisitions on June 19,2015. An exercised a power of right, authority or duty conferred

8

by the original Deed of Trust without being assigned the same or recording the same in the

9

Office of the Clerk where the original Deed of Trust was recorded. This is but one merit

10

to Hampton’s case that was pled and judicially noticed. Thus the wrong party appointed a

11

substitute Trustee and could not make claim to being secured by the Deed of Trust nor had

12

an assignment of the Deed of Trust been made to them prior to exercising foreclosure.

13

Where further shown in the Bloomberg Audit Reports highlights taken from pages 24

14

through 31 of the second amended complaint that the Plaintiffs have submitted herein. I

15

don’t know if you’ve had an opportunity to review any of that. At the bottom of page three

16

Bloomberg Loan Securitization Audit Report Highlights and referring to the first

17

assignment of the Deed of Trust, Exhibit 27 filed six years after the loan. Number 1) There

18

is no evidence on record to indicate that the mortgage was ever transferred concurrently

19

with the purported legal transfer of the note. Such that the mortgage and the note has been

20

irrevocably separated thus making a nullity out of the purported security in a property as

21

claimed. Continuing on page 4 Although MERS records an assignment in the real property

RACHEL L. BROWN TRANSCRIPTION

App. 254

PO Box 1268, Leland,NC 28451

607-793-6589

PROF-2013-S3 LEGAL TITLE TRUST v. KATHLEEN C. HAMPTON
CONDUCTED ON 10/4/19

6

1

records the promissory note which creates the legal obligation to repay the debt has not

2

been transferred nor negotiated by MERS. MERS is not a party to the alleged mortgage

3

indebtedness underlying the security instrument for which it serves as nominee.

4

Carpenter v. Longan the United... the US Supreme Court stated the note and mortgag e are

5

inseparable. The former as essential, the latter as an incident. An assignment of the note

6

carries the mortgage with it while assignment of the latter alone is a nullity. Where the

7

mortgagee has transferred only the mortgage, the transaction is a nullity and his assignee

8

having received no interest in the underlying debt or obligation has a worthless piece of

9

paper. That’s citing from Powell on real property. The mortgage loan becomes ineffectual

10

when a noteholder did not also hold the mortgage. Thus Hampton’s claim to no one having

11

a right to foreclose. This is precisely what can be seen in the assignment from MERS to

12

BANA where the mortgage loan becomes ineffectual when a noteholder does not also hold

13

the mortgage. Accordingly a court of record should also find that no one had a right to

14

foreclose since the Deed of Trust is secured to the note by assignment had separated there

15

from. When MERS assignments don’t transfer the loan which MERS itself say they don’t

16

then nothing was assigned as you can’t assign the Deed of Trust without the note. This

17

should be sufficient evidence all previously submitted and plead but never previously

18

actually tried. But if this isn’t enough evidence for this court I have more. This court per

19

Parrish should dismiss this case because the General District Court had no jurisdiction to

20

try title and neither does the Circuit Court on Appeal from the GDC. PROF was filed...

21

refiled in Circuit Court where as a Defendant I will defend my property rights and where I

RACHEL L. BROWN TRANSCRIPTION

PO Box 1268, Leland,NC 28451

In

607-793-6589

App. 255

PROF-2013-S3 LEGAL TITLE TRUST v. KATHLEEN C. HAMPTON
CONDUCTED ON 10/4/19

7

1

should be afforded a fair trial on the merits of my case. And where the foreclosure sale has

2

yet to be actually litigated or tried on the merits but only previously been dismissed on

3

Demurrers with prejudice. Of course SCOTUS could put an end to all of this should they

4

accept my petition therein but as I am sure you are aware they only hear about one percent

5

(1%) of the cases submitted. Still I am hopeful that I am in that one percent (1%). On still

6

another note as to PROF’s opposition to this dismissal on page 3 footnote 11 have no idea

7

where counsel ever came up with the idea of that, quote “The parties agree upon present

8

knowledge, information, and belief that if the US Supreme Court defeats Hampton’s

9

Appeal, she has no further grounds available to challenge this eviction proceeding.” For if

10

this Appeal proceeds to an unfair trial not on the merits as in my evidence, as they seem to

11

want it to continue without my evidence, I shall continue to Appeal until my case is heard

12

fairly on its merits. There is no end that I will not go to, to defend my Constitutional Rights

13

to protect my property from the unlawful taking of the same by anyone without due process.

14

Also to date the parties have not agreed on anything and to the contrary, it was through

15

PROF’s responses to admissions and interrogatories that I realized they would obstruct

16

justice by not allowing my evidence, witnesses, etc. As can be clearly seen by the multiple

17

untimely filed dispositive motions filed to favor them and to be heard in two weeks from

18

today. Right before the trial on Monday. Appellant respectfully requests this Honorable

19

court grant my Motion to Dismiss.

20

JUDGE SINCAVAGE: Alright thank you. Response.

21

MR. PESACHOWITZ: Your Honor the claims that she’s asserting have

RACHEL L. BROWN TRANSCRIPTION

App. 256

PO Box 1268, Leland, NC 28451

607-793-6589

%/

PROF-2013-S3 LEGAL TITLE TRUST v. KATHLEEN C. HAMPTON
CONDUCTED ON 10/4/19

8

1

alieady been determined by this Court and don't survive a Demurrer. In fact they were...

2

the Demurrer was granted and the Parrish stand for the proposition that the Parrish case

3

stand for the proposition that the General District doesn’t have jurisdiction if the defendant

4

raises an attack to title that is bon... that’s a bonafide attack. This court’s already

5

determined in the case that she... in the insular case that it didn’t survive her Demurrer.

6

And it didn’t survive her Demurrer. It was appealed through the Virginia Supreme Court.

7

The Supreme Court didn’t... the Supreme Court affirmed it or didn’t take... didn’t take

8

it... didn’t grant (inaudible) and then it’s been appealed now to the Supreme Court but it’s

9

always been determined that her, her claims are not a bonafide attack on title and it can’t

10

survive a Demurrer and that’s just what Parrish said. If you can’t survive a Demurrer it’s

11

not an attack on title. So for those... For that reason her, her Motion to Dismiss should be

12

denied. We should proceed with trial.

13
14

JUDGE SINCAVAGE: Alright thank you. I’ll give you a couple minutes
to respond if you wish Ms. Hampton

15

MS. HAMPTON: I do have a response to that. As to my pending Appeal

16

before the Supreme Court of the United States my primary claim has to do with my

17

Constitutional Rights to due process. And to date no court has afforded me the same. So

18

if my earlier complaints were dismissed on Demurrers and pleas in barr as to finding no

19

cause of action, insufficiently pled as to fraud and finding no cognizable claim and by, by

20

the statute of limitations. Those judgements never addressed the merits of the case nor the

21

evidence that supported them and in fact there was no trial, no discovery, no witnesses

RACHEL L. BROWN TRANSCRIPTION

PO Box 1268, Leland, NC 28451

607-793-6589
App.257

'■*

PROF-2033-S3 LEGAL TITLE TRUST v. KATHLEEN C. HAMPTON
CONDUCTED ON 10/4/19

9

1

examined and/or cross examined just the hearing where the Honorable Judge Jeannette A.

2

Irby found in favor of PROF and the other defendants, predecessors to PROF where

3

Hampton’s objection to that ruling in the Order stated objected to per the result of

4

Plaintiff5s inability to obtain the information necessary to satisfy the stringent requirements

5

of Rule 9B, the dismissal of the claim is material injury constituting a depravation of

6

Plaintiff s right to procedural due process. The Supreme Court of Virginia did not address

7

the due process errors but denied the Petition on finding no error on the Judgment

8

complained of.

9

hearing. Thus the due process case before SCOTUS. So anything that has to do with Res

10

judicata, collateral estop was plain and issued completion. None of that should apply here

11

because none of the merits have ever been tried on my case. As I have just presented to

12

you as well. But the basics of, of why this case should be dismissed.

And refused Petition and further denied Hampton’s Petition for a re-

13

JUDGE SINCAVAGE: Thank you.

14

16:00:31 - 16:28:42 PAUSE (Side conversations)

15

JUDGE SINCAVAGE: (Inaudible) for your patience. We’ll start with

16

this. In looking at the, the Motion that’s before the Court, the Motion to Dismiss filed

17

on September 18th. What Ms. Hampton has asked the court to do... request the court for

18

an Order to Dismiss without prejudice on the basis that the lower court erred in making

19

that judgment. And then she asked for the repossession to be void and the Appeal Bond

20

to be released and so on, and so forth. This court does not sit in review of the General

21

District Court so it’s ineffectual to ask this court to find the General District Court erred.

RACHEL L. BROWN TRANSCRIPTION

App.258

PO Box 1268, Leland, NC 28451

607-793-6589

■■■%*

PROF-2013-S3 LEGAL TITLE TRUST v. KATHLEEN C. HAMPTON
CONDUCTED ON 10/4/19

10

1

Which is essentially asking the court to do here. And I think the Motion could be denied

2

on that basis alone but I’ll go a little bit further. I do find that under the rules of Parrish

3

that the burden that is Ms. Hampton’s to establish, a bonafide question of title to Parrish

4

which invokes a Demurrer standard as the threshold for a bonafide claim. That the ones

5

brought in these combined actions 118604 and 118605 are in substance the same as the

6

claim brought in 98163 which were found to be insufficient to survive Demurrer. And

7

that the court has not been persuaded how the claims in this case are additionally down

8

the road as sufficiency to survive a Demurrer standard and the Parrish requirements. So

9

for those reasons I have denied the Motion to Dismiss. I’ll note your exception.

10

Counsel will you draft an Order consistent with the court’s ruling?

11

MR. PESACHOWITZ: Certainly Your Honor.

12

JUDGE SINCAVAGE: Alright thank you. (Side conversations)

13

COURT ATTENDANT: All rise. The court is in recess.

14

AUDIO 16:31:38 - END OF HEARING

15
16
17
18
19
20
21

RACHEL L. BROWN TRANSCRIPTION

PO Box 1268, Leland, NC 28451

607-793-6589

App.259

PROF-2013-S3 LEGAL TITLE TRUST v. KATHLEEN C. HAMPTON
CONDUCTED ON 10/4/19
1

11

I, RACHEL L. BROWN do hereby certify that these proceedings were

2

recorded by the Loudoun County Circuit Court at the time and place herein set out, and

3

the proceedings were transcribed by me from an audio file and this transcript is a true

4

record of the proceedings.

5
6

I further certify that I am not of counsel to any of the parties, nor an

7

employee of counsel nor related to any of the parties, nor in any way interested in the

8

outcome of this action.

9
10
11

RACHEL L. BROWN

12

North Carolina - Brunswick County

13

I

14

hereby certify that

15

and acknowledged the due execution of the foregoing instrument.

a Notary Public for said County and State do
RACHEL L. BROWN

personally appeared before me this day

16
17

Witness my hand and official seal this Uj)

day of

, 2020.

18

Notary Public^y^fflyn

19

/

« JrVtao

20

I'2 21

%

«s»
’ o«

%

-W

'''hum"''

RACHEL L. BROWN TRANSCRIPTION

App. 260

PO Box 1268, Leland, NC 28451

607-793-6589

%
■.

*fy

10-4-19 Exhibits/Documents given to Court
First:
A copy of Hampton’s Notes, as read, to the General District Court November 14,
2018, in the Unlawful Detainer suit & Counterclaim, which resulted in the Appeal to the Circuit
Court.
Second:
Hampton’s Reply Brief to SCOTUS dated September 25, 2019 (recited portions
in Hampton’s Notes), together with the following Exhibits:
Exhibit 5:
From Hampton’s Amended List of Exhibits: A copy of the first page of the Deed
of Trust from the Countrywide refinance, filed in the County Register June 14, 2006, as
instrument no. 20060614-0052490, showing the strick-out copy re re-finance (ie, alteration after
Hampton’s signing of the DOT). This exhibit 5 previously identified as Exhibit 6-A (CL98163)
and identified in Hampton’s Request for Admissions as Exhibit A;
Exhibit 6:
From Hampton’s Amended List of Exhibits: A copy of Hampton’s first page of
the Deed of Trust, as signed, showing open spaces to be filled in later with the re-finance
information of the two prior predatory loans. This exhibit 6 previously identified as Exhibit 6-B
(CL98163) and identified in Hampton’s Request for Admissions as Exhibit A;
Exhibit 22:
From Hampton’s Amended List of Exhibits: A copy of the Substitution of
Trustee from PROF to White filed electronically November 10, 2015, and identified as
instrument no. 20151110-0074973. This exhibit 22 previously identified as Exhibit 54
(CL98163) and identified in Hampton’s Request for Admissions as Exhibit E;
Exhibit 34:
From Hampton’s Amended List of Exhibits: A copy of the Limited Power of
Attorney from BANA to Avenue 365 Lender Services, LLC, relating to BANA’s sale of
Hampton’s Mortgage Loan Purchase as sold June 19, 2015, to PRMF Acquisitions LLC,
recorded in the Maricopa County Recorder on August 26, 2015, as instruction no. 20150617207.
This exhibit 34 previously identified as #4 Request for Judicial Notice (CL98163) and identified
in Hampton’s Request for Admissions as Exhibit J;
Exhibit 12:
From Hampton’s Amended List of Exhibits: A copy of the Notice of Assignment
of the Deed of Trust fromMERS to BofA, filed in the County Register March 30, 2012, as
instrument no. 20120330-0023523. This exhibit 12 previously identified as Exhibit 27
(CL98163) and identified in Hampton’s Request for Admissions as Exhibit B.

App. 261

\

NOTES FOR GEN. DISTR. CT. 11-14-1S
~7~

/

A/AZ

Your honor{ this is the 12th time that I have appeared in this com! over what I consider to be a
[

“Wrongful” Unlawful Detainer, where I have called into question not only the validity of the
foreclosure, but the validity of the Deed of Foreclosure and all Assignments leading up to it.
including the Deed of Trust, and PROF's claim to my property by Wrongful Foreclosure
conducted Dec. 7,2015, where I had already challenged that foreclosure via filing suit Dec. 4.
2015, prior to that foreclosure, where SIW on behalf of PROF should have been barred from
proceeding.
As pled before the Supreme Court 10-16-18, the Circuit Court should have found predatory
lending, a void ab initio Deed of Trust and the “Cloud on Title” evident requiring a “Corrective
Affidavit” and clearly with the violation of the Consent Orders with the OCC/US Treasury, a
“wrongful foreclosure” had occurred and, more particularly, I had exercised my rights to file suit
before tire same challenging the foreclosure, which SIW on behalf of Fay/PROF ignored. 3) did
. just yesterday receive the initial refusal from the Supreme Court of Va. to which I shall file my
\

•VV

Petition for RehearingTFrom a conversation with Doug Roubelin, Deputy Clerk of that Court, I
have been adviied that these initial refusals are common and thus a Petition for Rehearing is
permitted to spell out to the court with more specificity the reversible errors. (OFFER A CC)
In addition to the continuance of my Petition for Rehearing, should the Supreme Ct of Va. still
refuse that further Petition, I shall continue to fight for my due process rights to defend my
property from its unlawful talcing by PROF.
Meanwhile, it is my request herein that this court refuse to entertain this unlawful detainer case
any further and dismiss this case based on that fact that I have raised bona fide dispute of title
1

App.262

v
/

/
/
j

L

} 7c/jf
!/' '

l’.1

AL<r!
) V

4
~ dr<Afl
,

y

S'

AS

hU/'/

7 A l4 5.^

from the foreclosure sale. And. specifically, in Parrish v. Federal National Mortgage

-f
--'A l■7i

Association, the Supreme Ct of Va held that, where a borrower raises a bona fide question as to

vr

the validity of title in a case originally filed in the General District Court (or subsequently

\
Cv

appealed to the Circuit Court from the General District Court), the case must be dismissed

A
i *\

^ without prejudice because the General District Court lacks original subject matter jurisdiction to

x

rV>
tn

adjudicate the validity of title. This Court had admitted on 8-3-18 that it could not invalidate the

r.S’

Deed of Foreclosure or any other deeds on record and further there was no recordation of trial. In

,X(

A

these circumstances. I have alleged facts sufficient to place the validity of the trustee’s deed in

\ V V\
*-

doubt. In such cases, the General District Ct’s lack of subject matter jurisdiction to try title

■A
)

supersedes its subject matter jurisdiction to try unlawful detainer and the court must dismiss the
case without prejudice.

■nid'

<■1 c-> • vi !'?/

<i r>

J*

*

n
u- ■

zs
U

Pd

s

/

/r

Additionally, in two cases, Ramos v. Wells Fargo Bank (2015) and Mathews v. PHHMortgage
Corp. (2012), the Supreme Court of Virginia confirmed that any challenge to a foreclosure based
on the pre-foreclosure conduct of the lender must be filed before the foreclosure sale has taken
place, if the borrower wants to avoid a foreclosure sale. Clearly, I had filed my first suit Dec. 4.
2015, prior to the foreclosure of Dec. 7,2015, which foreclosure should be found “wrongful”
and/or “void” by the fact that I have filed before the foreclosure action took place.

x.

v.^

\

Continuing this Unlawful Detainer suit is a waste of this court’s time and resources. Should this
court continue entertaining this suit, which would ultimately be appealed back to the Circuit

!
/

Court, I should wish to move on my Motion for Reconsideration of any future Pending Order

/

granting possession and/or a monthly bond, as dearly this was a “wrongful foreclosure” wherein
y

s

/*

I filed suit to prevent the same from going thru.

s

/•
i

2\

___ ys-

r/m

cisry
Appr"263

No. 18-9127

IN THE
SUPREME COURT OF THE UNITED STATES

KATHLEEN C. HAMPTON,
Petitioner,
v.
PROF-2013-S3 LEGAL TITLE TRUST, BY US. BANK NATIONAL
ASSOCIATION, AS LEGAL TITLE TRUSTEE; ET AL.
Respondents.

On Petition for Writ of Certiorari to the
The Supreme Court of Virginia
PETITIONER’S REPLY TO WAIVER OF BANK OF AMERICA, N.A,
FANNIE MAE, AND COUNTRYWIDE HOME LOANS, INC., AND
TO BRIEF IN OPPOSITION OF FAY SERVICING, LLC,
PROF-2013-S3 LEGAL TITLE TRUST, BY
US. BANK, N.A, AS LEGAL TITLE TRUSTEE,
MORTGAGE ELECTRONIC REGISTRATION
SYSTEMS, INC., AND SAMUEL I. WHITE, P.C.,
AS SUBSTITUTE TRUSTEE

Kathleen C. Hampton
Petitioner, pro se
P.O. Box 154
Bluemont, Virginia 20135
(540) 554-2042
ldiampton47@yahoo.com

App. 264

/s/

Petitioner, Kathleen C. Hampton (“Petitioner” or “Hampton”), pro se,
respectfully submits her Reply to Waiver of Bank of America, et al. and Reply to
Brief in Opposition of PROF-2013-S3 Legal Title Trust, et al. to her Petition for a
Writ of Certiorari to review the judgment of the Supreme Court of Virginia.
AS TO WAIVER OF BANK OF AMERICA, ET AL.
Petitioner believes this Superior Court should request a response of Bank of
America, N.A., Fannie Mae, and Countrywide Home Loans, Inc. C'CW”) ('Bank
Defendants”), particularly since the loan origination began with predatory loans
dating back to 2005, and resulting in the subject predatory re-finance loan of 2006,
and the Deed of Trust, which accompanied it. which should be found void ab initio.
Further, in investigations pending in the Virginia Office of Attorney General,
Predatory Lending Unit, Hampton has learned more violations to the Deed of Trust:
As to Countrywide (“CW”) and the origination of Hampton's loans:
Under Code of Virginia Section 6.2-1629. Prohibited practices; authority of
the Attorney General: A. ... no person that is engaged in the business of
originating residential mortgage loans in the Commonwealth shall use any
deception, fraud, false pretense, false promise, or misrepresentation in
connection with a mortgage loan transaction, (emphasis added)
Hampton was deceived, fraud is evident in the transaction staged with HSBC, and
she was sold a re-finance loan they clearly knew was subprime and/or unaffordable.
CW’s wrongdoing, once again, is further evidenced in the Deed of Trust, $'/
where:
&
“Under Code of Virginia Section 6.2-1614. Prohibitions applicable to
mortgage lenders and mortgage brokers. No mortgage lender ... shall
1. Obtain any agreement or instrument in which blanks are left to be filled in
after execution; ... 5. ... submitting false information in connection with an
application for the mortgage loan, breaching any representation or covenant
made in the agreement or instrument, or failing to perform any other
l

App. 265

obligations undertaken in the agreement or instrument; ... 7. Knowingly or
intentionally engage in the act or practice of refinancing a mortgage loan
within 12 months following the date the refinanced mortgage loan was
originated, unless the refinancing is in the borrower’s best interest ...”
(emphasis added)
Clearly, the blanks in the DOT at time of signing the same were a violation of the
above. The blanks referred to page nos. of the re*financed [subprime] loans, and
were never filled in thereafter and, in fact, they were struck through as if it were
not a re-finance, concealing the fact that CW was not entitled to a prepayment
penalty for an in-house refinance, in addition to the fraud and deceit in recorded
documentation with the Clerk’s Office, in support of Hampton’s claim to a void ab
initio DOT. Notable also is this refinance was done within 11 months and was not in
Hampton’s best interest, since it was set to fail, as clearly it was “unaffordable.”
Further, at no time have any of the Respondents, particularly Bank
Defendants addressed their mandated compliance with Fannie Mae Guidelines
“Announcement 09--05R” dated April 21, 2009 (the last two pages of Exhibit 15). or
any mandates to their “Consent Orders” under the Independent Foreclosure Review
(IFR) through the OCC/U.S. Treasury, -which Hampton qualified for. Clearly, these
are Federal programs which this court should have jurisdiction over.
AS TO REPLY TO BRIEF IN OPPOSITION OF
PROF-2013-S3 LEGAL TITLE TRUST, ET AL.
In reply to the Brief in Opposition by PROF-2013-S3 Legal Title Trust, et al.
(“Trust Defendants”), and particularly to their arguments on this Superior Court’s
Jurisdiction, Hampton stated that this Court’s jurisdiction is invoked under 28

2

App. 266

. ^

U.S.C. §1257(a) and perhaps misplaced §210l(c), as it applied to the petition being
timely filed within ninety days after the judgment on the Petition for Rehearing.
Pertinent constitutional and statutory provisions were set forth in the
Appendix to Hampton’s Petition (App. N), which Hampton draws this Court’s
attention to the last paragraph on the last page thereof-'

i

“The party secured by the deed of trust, or the holders of greater than fifty
$
percent of the monetary obligations secured thereby, shall have the right and
^
power to appoint a substitute trustee or trustees. The instrument of
/&(£ A
appointment shall.be recorded in the office of the clerk wherein the original
ft
r
deed of trust is recorded prior to or at the time of recordation of any 0! j| J
instrument in which a power, right, authority or duty conferred by the
original deed of trust is exercised/’ (emphasis added)
Here, Trust Defendants appointed a substitute trustee, while they no longer owned
the loan as it had been sold to PRMF Acquisitions on June 19, 2015, and exercised a
“power, right, authority or duty conferred by the original deed of trust” without
being assigned the same or recording the same “in the office of the clerk wherein the
original deed of trust was recorded.” This is but one merit to Hampton’s case that
was pled and Judicially Noticed. Thus, wrong party appointed a substitute trustee
and could not make claim to being secured by the Deed of Trust, nor had an
Assignment of the Deed of Trust been made to them prior to exercising foreclosure.
Where further shown in the Bloomberg Audit Reports Highlights pages 24-31
of the Second Amended Complaint:
“Bloomberg Loan Securitization Audit Renort HIGHLIGHTS
1. There is no evidence on Record to indicate that the Mortgage was ever
transferred concurrently with the purported legal transfer of the Note, such
that the Mortgage and Note has been irrevocably separated, thus making a
nullity out of the purported security in a property, as claimed.” ...
3

•

Although MERS records an assignment in the real property records, the
promissory note which creates the legal obligation to repay the debt has not
been transferred nor negotiated by MERS.” ...

• MERS is not a party to the alleged mortgage indebtedness underlying the
security instrument for which it serves as ‘'nominee”. ...
The loan was originally made to Countrywide Home Loans, Inc. and may
have been sold and transferred to Fannie Mae Remic Trust 2006-67. There is no
record of Assignments to either the Sponsor or Depositor as required by the
Pooling and Servicing Agreement.
In Carpenter v. Longan 16 Wall. 271.83 US. 271, 274, 21 L.Ed. 313 (.1872.% the
U.S. Supreme Court stated <(The note and mortgage are inseparable/ the former
as essential, the latter as an incidejit. An assignment of the note carries the
mortgage with it, while assignment of the latter alone is a nullity.
An obligation can exist with or without security. With no security, the obligation
is unsecured but still valid. A security interest, however, cannot exist without an
underlying existing obligation. It is impossible to define security apart from its
relationship to the promise or obligation it secures. The obligation and the
security are commonly drafted as separate documents — typically a promissory
note and a Mortgage. If the creditor transfers the note but not the Mortgage, the
transferee receives a secured note; the security follows the note, legally if not
physically. If the transferee is given the Mortgage without the note
accompanying it, the transferee has no meaningful rights except the possibility
of legal action to compel the transferor to transfer the note as well, if such was
the agreement. (Kelley v. Upshaw 91952) 39 C.2d 179, 246 P.2d 23; Polhemus v.
Trainer (1866) 30C 685).
“Where the mortgagee has “transferred” only the mortgage, the transaction is a
nullity and his “assignee” having received no interest in the underlying debt or
obligation, has a worthless piece of paper (4 Richard R. Powell), Powell on Real
Property, § 37.27 [2] (2000).
By statute, assignment of the mortgage carries with it the assignment of the
debt. .. Indeed, in the event that a mortgage loan somehow separates interests of
the note and the Mortgage, with the Mortgage lying with some independent
entity, the mortgage may become unenforceable. The practical effect of splitting
the Mortgage from the promissory note is to make it impossible for the holder of
the note to foreclose, unless the holder of the Mortgage is the agent of the holder
of the note. Without the agency relationship, the person holding only the trust
will never experience default because only the holder of the note is entitled to
payment of the underlying obligation. The mortgage loan becomes ineffectual
when the note holder did not also hold the Mortgage.

App.268

■*

Thus. Hampton's claim to no one having a right to foreclose.
Furthermore, the Supreme Court of Virginia refused the petition for appeal
on their “opinion there is no' reversible error in the judgment complained of.” The
Court did not address any errors assigned other than the judgment complained of.
Still further, upon the Petition for Rehearing, the prayer of the petition was denied,
and the only court of Appeal beyond that State Supreme Court is rightfully in the
hands of this Superior Court.
Further, beginning on pages 23-33, of Hampton’s Petition, she had pled with
“factual” evidence (exhibits) that drew a reasonable inference that the defendants
were liable for the misconduct alleged, and for Hampton’s case not to be heard on
the merits thereto is a dear violation of her rights to procedural due process.
Hampton’s Constitutional Rights are supported by the Jurisdictional State­
ment bridging pages 33 through 36. Clearly, this Superior Court has jurisdiction
over Hampton’s Appeal.
Petitioner in her “questions presented” and throughout her Petition is
seeking “clarity and uniformity” and believes that this case, upon being heard, may
aid in establishing the same.
Continuing here from page 40 of Hamptoris Petition
It would seem that in light of the bad practices of these servicers,
including Fay on behalf of PROF/US Bank, uniform non-foreclosure rules
should be developed to protect citizens nationwide from the unlawful taking
of their homes in violation of their Constitutional rights and without due
process. ... It is time for the courts to stand up to these TBTF banks and/or
their servicers. The solution is always uniformity and clarity must be
achieved. Perhaps the better solution would be to bar non-judicial
foreclosures altogether until our faith in home ownership can be restored.
5

I

App.269

<5

CONCLUSION
Once again, Petitioner respectfully request certiorari be granted for this
Petition, in order that this Court may restore and protect citizens’ Constitutional
rights as they were created to be. I trust in God and this Superior Court.
The petition for a writ of certiorari should be granted.
Dated- September 25, 2019

Respectfully submitted,

Kathleen C. Hampton, Petitioner, pro se
P.O. Box 154
Bluemont, Virginia 20135
540-554-2042
Email- khampton47@yahoo.com

6

App.270

